federal trade commission

performance
& accountability
     report
    fiscal year 2012
ABOUT THIS REPORT




                                                                                                                                                                                              introduction
The Federal Trade Commission’s (FTC) Fiscal Year (FY) 2012 Performance and Accountability report (PAR)
provides the results of the agency’s program and financial performance and demonstrates to the Congress, the
President, and the public, the FTC’s commitment to its mission and accountability over the resources entrusted to it.

This report, available at the FTC’s website (www.ftc.gov/par), includes information that satisfies the reporting
requirements contained in the following legislation:

     • Federal Managers’ Financial Integrity Act of 1982
     • Government Performance and Results Act of 1993
     • Government Management Reform Act of 1994
     • Reports Consolidation Act of 2000
     • Accountability of Tax Dollars Act of 2002
     • Improper Payments Information Act of 2002
     • GPRA Modernization Act of 2010
The performance and financial information contained in this report is summarized in a “Summary of Financial and
Performance Information” report available at www.ftc.gov/par by February 2013.




   Certificates of Excellence


                               CERTIFICATE OF                                                         CERTIFICATE OFOF
                                                                                                        CERTIFICATE
                               EXCELLENCE IN                                                          EXCELLENCE
                                                                                                        EXCELLENCEIN IN
                              ACCOUNTABILITY                                                         ACCOUNTABILITY
                                                                                                       ACCOUNTABILITY
                                REPORTING                                   ®
                                                                                                        REPORTING
                                                                                                          REPORTING                                                       ®         ®


                                  BEST-IN-CLASS AWARD
                                                                                                                            Presented to the to the
                                                                                                                                   Presented
                                             Presented to the



                                       Federal Trade                                                        Federal Trade
                                                                                                               Federal Trade
                                       Commission                                                           Commission
                                                                                                               Commission
                                                                                                      In recognition    of your outstanding
                                                                                                               In recognition                efforts in
                                                                                                                                of your outstanding   efforts in
                                     In recognition for Providing the                                   preparing    the agency’s
                                                                                                                  preparing        Performance
                                                                                                                              the agency’s       and
                                                                                                                                           Performance    and
                                                                                                         Accountability    Report and
                                                                                                                   Accountability      Summary
                                                                                                                                   Report         of
                                                                                                                                           and Summary     of
                             Most Informative Performance Section                                      Performance    and Financial
                                                                                                                Performance           Information
                                                                                                                               and Financial       for
                                                                                                                                              Information   for
                                                                                                        the fiscalthe
                                                                                                                    year ended
                                                                                                                      fiscal yearSeptember  30, 2011.30, 2011.
                                                                                                                                  ended September
                           in your FY2011 Performance and Accountability report
                                                                                                        A Certificate of
                                                                                                                      A Excellence
                                                                                                                         Certificate in Accountability
                                                                                                                                     of Excellence     Reporting is presented
                                                                                                                                                   in Accountability Reporting is presented
                                                                                                            by AGA to federal
                                                                                                                          by AGA  government     agencies whose
                                                                                                                                      to federal government        Annual
                                                                                                                                                              agencies  whose Annual
                                                                                                        Financial Reports   achieve
                                                                                                                      Financial        the highest
                                                                                                                                  Reports   achievestandards   demonstrating
                                                                                                                                                     the highest standards demonstrating
                                                                                                                   accountability     and communicating
                                                                                                                                  accountability            results.
                                                                                                                                                    and communicating    results.




                                        Robert F. Dacey, CGFM, CPA
                                        Chair, Certificate of Excellence
                                        in Accountability Reporting Board                                                        Robert F. Dacey,  CGFM,
                                                                                                                                                 Robert     CPA CGFM, CPA
                                                                                                                                                         F. Dacey,
                                                                                                                                 Chair, Certificate of Excellence
                                                                                                                                                 Chair, Certificate of Excellence
                                                                                                                                 in Accountability Reporting Board
                                                                                                                                               in Accountability Reporting Board




                                                                                                                                 Relmond P. VanRelmond
                                                                                                                                                Daniker,PDBA,  CPA
                                                                                                                                                         . Van Daniker, DBA, CPA
                                        Relmond P. Van Daniker, DBA, CPA                                                         Executive Director, AGA Director, AGA
                                                                                                                                               Executive
                                        Executive Director, AGA




   The FTC received the Association of Government Accountants’ Certificate of Excellence in Accountability Reporting
   for its FY 2011 PAR and a Best-In-Class award for Most Informative Performance Section.




                                                                                fiscal year   2012                                                                                            I
               HOW THIS REPORT IS ORGANIZED
introduction
               This report includes four major sections, plus supplemental information.


                                                                    1. Management’s Discussion and Analysis Section




                                          management’s discussion
                                                                      The Management’s Discussion and Analysis (MD&A) Section provides
                                                                      an overview of the FTC’s mission and organization, an overview of key



                                                & analysis
                                                                      performance measures and efficiency measures, mission challenges,
                                                                      financial highlights, and management assurances on internal controls,
                                                                      financial systems, and compliance with laws and regulations.



                                                                    2. Performance Section
                                          performance



                                                                      The Performance Section explains the FTC’s performance relative to
                                                                      its strategic goals and objectives, and includes an overview of how the
                                                                      performance data are verified and validated.




                                                                    3. Financial Section
                                                                      The Financial Section provides financial details, including the
                                          financial




                                                                      independent auditor’s report and audited financial statements with
                                                                      accompanying notes.




                                                                    4. Other Accompanying Information Section
                                          other accompanying




                                                                      The Other Accompanying Information Section provides management and
                                             information




                                                                      performance challenges identified by the Inspector General along with
                                                                      the Chairman’s response and a summary of financial statement audit and
                                                                      management assurances.




                                                                    5. Appendices
                                                                      Appendix A provides the data quality information for FTC’s performance
                                           appendices




                                                                      measures; Appendix B lists the acronyms used throughout this report;
                                                                      Appendix C lists useful links for references; Appendix D provides contact
                                                                      information and acknowledgements.




    II                            Federal Trade Commission | Performance and Accountability Report
                                                                                                                      introduction
THE FTC AT-A-GLANCE
History                                                       Profile
The federal government created the Bureau of                       • The agency is headquartered in Washington,
Corporations in 1903. In 1914, President Woodrow                     DC, and operates with seven regions across the
Wilson signed the Federal Trade Commission Act into                  United States.
law, and the Bureau of Corporations became the FTC.
                                                                   • The agency had over 1,100 full-time equivalent
                                                                     employees at the end of FY 2012.
Laws Enforced
                                                                   • Total new budget authority for FY 2012 was
The FTC is a law enforcement agency with both                        $313 million.
consumer protection and competition jurisdiction in
broad sectors of the economy. The agency administers
a wide variety of laws and regulations. Examples include
the Federal Trade Commission Act, Telemarketing Sales
Rule, Identity Theft Act, Fair Credit Reporting Act, and
Clayton Act. In total, the Commission has enforcement
or administrative responsibilities under more than 70
laws (see http://www.ftc.gov/ogc/stats.shtm for a listing).




           did you know?
           Consumers are affected every day by the FTC’s activities. For example, consumers
           receive fewer telemarketing calls, obtain free credit reports, receive less spam,
           receive identity theft victim assistance, access truthful information about health
           and weight-loss products, pay lower prescription drug prices thanks to the
           availability of generic drugs, and enjoy competitive prices for goods as a result of
           merger reviews and actions taken by the FTC. In addition:

                 • The agency manages the National Do Not Call (DNC) Registry, which
                   gives consumers the opportunity to limit telemarketing calls. At the end
                   of the fiscal year, there were more than 217 million active registrations on
                   the DNC Registry.

                 • In FY 2012, the FTC took action against mergers likely to harm
                   competition in markets with a total of $20.2 billion in sales. The agency’s
                   efforts to maintain aggressive competition among sellers benefit
                   consumers through lower prices, higher quality products and services,
                   additional choice, and greater innovation.

                 • The FTC shares the more than 20 million consumer fraud, identity theft,
                   financial, and DNC Registry complaints it has collected during the past
                   five years with more than 2,000 law enforcement partner agencies
                   worldwide via the secure Consumer Sentinel Network website.




                                                     fiscal year   2012                                               III
introduction
               MESSAGE FROM
               THE CHAIRMAN
                                                                                                      Jon Leibowitz
                                                                                                      Chairman




               The Federal Trade Commission has a unique dual              F
               mission to protect consumers and to maintain
               competition in broad sectors of our economy.
               We safeguard consumers’ privacy, whether shopping
               online, using a social network, or applying for a job.
               We stop deceptive advertising, shady marketing
               practices, and financial scams. We promote competition
               for medical and dental care providers, health services,
               and prescription drugs. And, we work to stay informed
               about new technologies, which can bring tremendous
               benefits to consumers, but also pose challenges on both
               the competition and consumer protection fronts.

               In 2012, our staff has continued to exemplify
               good government, effective law enforcement,
               and outstanding outreach to consumers, businesses,
               and our law enforcement partners around the world.
               This Performance and Accountability Report illustrates
               how we managed our resources, highlights our major
               accomplishments, and outlines our plans to address
               the challenges ahead.

               FY 2012 PERFORMANCE HIGHLIGHTS
               Consumer PrivaCy
               The FTC protects consumer privacy through policy
               work, law enforcement, and consumer and business
               education. In March 2012, the Commission issued a
               final report outlining best practices for businesses to
               protect the privacy of American consumers and give
               them greater control over the collection and use of their
               personal data. The FTC also brought actions charging
               that Facebook and Google did not keep promises they
               made about privacy. Settlement orders in both cases
               protect more than one billion users worldwide. Google
               subsequently agreed to pay a record $22.5 million civil
               penalty to resolve charges that it violated its FTC order
               by misrepresenting privacy assurances to Safari browser
               users; this settlement is pending court approval.




    IV                             Federal Trade Commission | Performance and Accountability Report
companies to provide consumer refunds.                      FUTURE




                                                                                introduction
The FTC also polices the internet for deceptive ads,
and recently brought a slew of cases against marketers
that allegedly created fake news web sites touting acai
berry supplements as effective weight-loss products.


outreaCh and PartnershiPs
Consumers, industry, and our law enforcement
partners keep us informed about real-world trends and
challenges in the marketplace. Consumers can contact
us online or via toll-free phone numbers. Our public
outreach also includes online resources, such as www.
ftc.gov (much of which is available in Spanish), as well
as printed publications. We also provide updates on
Facebook and Twitter, and host fun and educational
videos on the FTC’s YouTube channel. The FTC’s
online Business Center offers extensive guidance
to businesses.


finanCial management
Of course, being diligent and responsible stewards
of the public resources that the American taxpayers
and the Congress provide to us is one of our
most important jobs. For the FY 2012 independent
financial audit, we received our 16th consecutive
unqualified opinion, the highest audit opinion available.
The independent auditors did not identify any material
weaknesses, significant deficiencies, or instances of
non-compliance with laws and regulations. I am pleased
to report that management’s assessment of risks and
review of controls disclosed no material weaknesses
(see Statement of Assurance, p. 26) and that the
financial and performance data presented here is
reliable and complete.



                                                            Jon Leibowitz
                                                            November 15, 2012




                                                    fiscal year   2012          V
               table
introduction

               INTRODU




               MANAGEMENT




               PerformanCe seCtion ............................................................................................................... 35
               Introduction to performance ........................................................................................................................ 36
                           relationship of outputs to outcomes ............................................................................................ 36
                           Verification and Validation of performance data ........................................................................... 36
                           performance measure summary tables.......................................................................................... 39
               strategic goal #1: protect consumers .......................................................................................................... 48
               strategic goal #2: maintain competition.................................................................................................... 69
               strategic goal #3: advance performance ..................................................................................................... 93




    VI                             Federal Trade Commission | Performance and Accountability Report
                        introduction
FINAN




OTHER




A




  fiscal year   2012   VII
MANAGEMENT’S DISCUSSION & ANALYSIS




                                       THIS PAGE INTENTIONALLY LEFT BLANk




             VIII                    Federal Trade Commission | Performance and Accountability Report
fiscal year
2012
    management’s discussion
          & analysis
                                     MISSION AND                                            The FTC’s Vision
MANAGEMENT’S DISCUSSION & ANALYSIS
                                                                                            A U.S. economy characterized by vigorous
                                     ORGANIZATION                                           competition among producers and consumer
                                                                                            access to accurate information, yielding high-
                                                                                            quality products at low prices and encouraging
                                     The work of the Federal Trade Commission (FTC)         efficiency, innovation, and consumer choice.
                                     is critical to protecting and strengthening free and
                                     open markets and promoting informed consumer
                                     choice, both in the United States (U.S.) and           The FTC’s Mission
                                     around the world. The FTC performs its mission         To prevent business practices that are
                                     through the use of a variety of tools, including       anticompetitive or deceptive or unfair to
                                     law enforcement, rulemaking, research, studies on      consumers; to enhance informed consumer
                                     marketplace trends and legal developments, and         choice and public understanding of the
                                     consumer and business education.                       competitive process; and to accomplish this
                                                                                            without unduly burdening legitimate business
                                                                                            activity.




                                          M




                                          www.culturaltourismdc.org/sites/default/files/Fed-Tri-Booklet-lores.pdf.




             2                                        Federal Trade Commission | Performance and Accountability Report
The FTC: Our Purpose and History




                                                                                                                         MANAGEMENT’S DISCUSSION & ANALYSIS
Consumers and businesses are likely to be more              The FTC has a long tradition of maintaining a
familiar with the work of the FTC than they think.          competitive marketplace for both consumers and
In the consumer protection area, the product                businesses. When the FTC was created in 1914, its
warranties, care labels in clothes, and labels              purpose was to prevent unfair methods of competition
showing the energy costs of home appliances                 in commerce as part of the battle to “bust the trusts.”
provide information that is required by the FTC.            Over the years, the Congress passed additional laws
Likewise, businesses must be familiar with the laws         giving the agency greater authority over anticompetitive
requiring truthful advertising and protecting consumers’    practices. In 1938, the Congress passed a broad
personally identifiable and sensitive health information.   prohibition against “unfair or deceptive acts or practices
These laws are enforced by the FTC.                         in or affecting commerce.” Since then, the FTC also
                                                            has been directed to enforce a wide variety of other
Competition among independent businesses is good            consumer protection laws and regulations, including the
for consumers, the businesses themselves, and the           Telemarketing Sales Rule, the Identity Theft Act, and
economy. Competitive markets yield lower prices             the Equal Credit Opportunity Act.
and better quality goods and services, and a vigorous
marketplace provides the incentive and opportunity for
the development of new ideas and innovative products
and services. Many of the laws governing competition
also are enforced by the FTC.




                                                                 the ftC’s
                                                                 inCePtion and
                                                                 authority
                                                              The Bureau of Corporations, created in
                                                              1903, served as the FTC’s predecessor
                                                              agency. It was the Supreme Court’s
                                                              1911 decision in the Standard Oil case
                                                              (Standard Oil Co. v. U.S., 221 U.S. 1 (1911))
                                                              that prompted the transformation
                                                              from the Bureau of Corporations to the
                                                              FTC. The decision resulted in the FTC
                                                              Act of 1914, where Congress created
       an administrative agency charged with preventing “unfair methods of competition,” giving
       definition to that general prohibition, utilizing a number of quasi-judicial powers to enforce
       that prohibition, and enforcing the Clayton Act. The FTC Act was later amended to prohibit
       unfair or deceptive acts or practices and the FTC currently maintains enforcement and
       administrative responsibilities under 70 laws. For a description of and further information
       regarding each law, visit: www.ftc.gov/ogc/stats.shtm.




                                                   fiscal year   2012                                                    3
MANAGEMENT’S DISCUSSION & ANALYSIS




                                     The FTC Commission, as of September 30, 2012: (back row, left to right) Maureen Ohlhausen,
                                     Commissioner; Julie Brill, Commissioner (front row, left to right) J. Thomas Rosch, Commissioner;
                                     Jon Leibowitz, Chairman; Edith Ramirez, Commissioner.


                                     Our Organization                                            may be from the same political party. Chairman Jon
                                                                                                 Leibowitz was confirmed for a second term by the U.S.
                                     The FTC is an independent agency that reports to the        Senate on March 29, 2012. Previously, he was designated
                                     Congress on its actions. These actions include pursuing     to serve as Chairman of the FTC on March 2, 2009, by
                                     vigorous and effective law enforcement; advancing           President Barack H. Obama. Chairman Leibowitz was
                                     consumers’ interests by sharing its expertise with          previously sworn in as a commissioner on September
                                     federal and state legislatures and U.S. and international   3, 2004, following his nomination by the President and
                                     government agencies; developing policy and research         confirmation by the U.S. Senate. At the end of the fiscal
                                     tools through hearings, workshops, and conferences;         year, the commissioners were J. Thomas Rosch, Edith
                                     and creating practical and plain-language educational       Ramirez, Julie Brill, and Maureen Ohlhausen.
                                     programs for consumers and businesses in a global
                                     marketplace with constantly changing technologies.          The FTC’s mission is carried out by three bureaus:
                                                                                                 the Bureau of Consumer Protection, the Bureau of
                                     The FTC is headed by a Commission composed of               Competition, and the Bureau of Economics. Work
                                     five commissioners, nominated by the President and          is aided by offices, including the Office of General
                                     confirmed by the Senate, each serving a seven-year          Counsel, the Office of Inspector General, the Office
                                     term. The President chooses one commissioner to             of International Affairs, the Office of the Executive
                                     act as Chairman. No more than three commissioners           Director, and seven regions.




             4                                           Federal Trade Commission | Performance and Accountability Report
                                                                                                                         MANAGEMENT’S DISCUSSION & ANALYSIS
Federal Trade Commission Organization Chart

        Commissioner             Commissioner          Chairman               Commissioner            Commissioner
      Maureen Ohlhausen          Edith Ramirez       Jon Leibowitz           J. Thomas Rosch            Julie Brill
                                                        -----------
                                                     Chief of Staff
                                                     Joni Lupovitz



                               Office of
                         Congressional Relations
                            Jeanne Bumpus
                                                                                     Office of
                                                                             Administrative Law Judges*
                                                                               D. Michael Chappell
                         Office of Public Affairs
                            Cecelia Prewett
                                                                                     Office of
                                                                                 Inspector General*
                                                                                   Scott E. Wilson
                                Office of
                            Policy Planning
                            Andrew I. Gavil
                                                                                 Office of Equal
                                                                             Employment Opportunity
                                                                                 Kevin Williams
                                 Office of
                           International Affairs
                           Randolph W. Tritell




                          Office of the Secretary
                              Donald S. Clark




        Office of the              Bureau of           Office of the             Bureau of               Bureau of
      General Counsel         Consumer Protection   Executive Director          Competition             Economics
       Willard K. Tom1           David Vladeck      Eileen Harrington        Richard Feinstein        Howard Shelanski




                                                        Regions



* An independent organization within the FTC
1
  Willard Tom left the agency on October 27, 2012




                                                    fiscal year       2012                                               5
                                     The agency is headquartered in Washington, DC, and operates with seven regions across the U.S. The graphic below
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     illustrates the locations of the FTC regions.




                                     Our People
                                     The FTC’s workforce is its greatest asset. The agency’s workforce consists of over 1,100 civil service employees
                                     dedicated to addressing the major concerns of American consumers. The chart below shows workforce composition
                                     by category.

                                       FTC’S WORKFORCE COMPOSITION


                                                                                                                   Attorneys; 613

                                                             Other*; 362




                                                  Senior Management; 44




                                                                  Paralegal; 75


                                                                            Economists; 77

                                         *“Other” includes support staff, program management, investigators, and information technology-related
                                         occupations.



             6                                         Federal Trade Commission | Performance and Accountability Report
PERFORMANCE                                                  Strategic and Performance




                                                                                                                         MANAGEMENT’S DISCUSSION & ANALYSIS
                                                             Planning Framework
OVERVIEW                                                     The FY 2012 performance planning framework
                                                             originates from the FTC’s Strategic Plan for Fiscal
This section explains the FTC’s strategic and                Years 2009 to 2014, available at www.FTC.gov/opp/
performance planning framework and summarizes                gpra/spfy09fy14.pdf and is supported by the FTC’s
the key performance measures and efficiency measures         Performance Plan, available at www.FTC.gov/opp/
reported in the Performance Section. The Performance         gpra/2013_performance_plan.pdf.
Section contains details of program performance
results, trend data by fiscal year, resources, strategies,   In FY 2012, the FTC released an addendum to the
factors affecting performance, and the procedures            strategic plan that included several target increases
used to verify and validate the performance data.            and a minor measure change. The changes have been
The financial data and performance results described in      noted in this report next to each measure’s performance
this report enable the FTC to administer its programs,       discussion, as applicable. The addendum is available at
gauge their success, and make adjustments necessary to       www.FTC.gov/opp/gpra/spfy09fy14add.pdf.
improve program quality for the public. The steps the
FTC has taken to ensure the performance information          The FTC began operating under this updated strategic
it reports is complete, accurate, and consistent are         plan in FY 2010. The FTC’s work is structured around
described in the Performance Section under Verification      three strategic goals and 13 objectives. Performance
and Validation of Performance Data, and in Appendix          measures are used to gauge the FTC’s success for each
A: Data Quality Information.                                 objective. The table below describes each element in the
                                                             performance framework.




                                                             Statements of long-term aims outlined in the Strategic
  Strategic Goals                                            Plan, which define how the agency carries out its
                                                             mission.


                                                             Statements of how the FTC plans to achieve the
  Objectives                                                 strategic goals.



                                                             Indicators used to gauge success in reaching strategic
  Performance Measures                                       objectives.


                                                             Measures that best indicate whether agency activities
  Key Measures                                               are achieving the desired outcome associated with the
                                                             related objective.


                                                             Expressions of desired performance levels or specific
  Targets                                                    desired results targeted for a given fiscal year. Targets
                                                             are expressed in quantifiable terms.




                                                    fiscal year   2012                                                   7
MANAGEMENT’S DISCUSSION & ANALYSIS
                                      STraTeGic GOalS
                                                                                      ObjecTiveS
                                      (Numbers shown in millons.)

                                                                                      Identify fraud, deception, and unfair practices that cause the
                                                                                      greatest consumer injury.


                                       PrOTecT cONSuMerS                              Stop fraud, deception, unfairness, and other unlawful practices
                                                                                      through law enforcement.
                                       Prevent fraud, deception, and unfair
                                       business practices in the marketplace.
                                                                                      Prevent consumer injury through education.
                                       gross Costs:                        $165
                                       less earned revenue:                ($14)      Enhance consumer protection through research, reports,
                                       net Costs:                          $151       rulemaking, and advocacy.

                                                                                      Protect American consumers in the global marketplace by
                                                                                      providing sound policy and technical input to foreign governments
                                                                                      and international organizations to promote sound consumer policy.

                                                                                      Take action against anticompetitive mergers and practices that
                                       MaiNTaiN cOMPeTiTiON                           may cause significant consumer injury.

                                       Prevent anticompetitive mergers and other
                                       anticompetitive business practices in the      Prevent consumer injury through education.
                                       marketplace.
                                                                                      Enhance consumer benefit through research, reports, and advocacy.
                                       gross Costs:                        $121
                                       less earned revenue:                ($88)
                                                                                      Protect American consumers in the global marketplace by
                                       net Costs:                           $33       providing sound policy recommendations and technical advice to
                                                                                      foreign governments and international organizations to promote
                                                                                      sound competition policy.


                                       advaNce PerfOrMaNce                            Provide effective human resources management.
                                       Advance the FTC’s performance
                                       through organizational, individual, and
                                                                                      Provide effective infrastructure and security management.
                                       management excellence.
                                       Goal 3’s costs are distributed to Goal 1 and
                                                                                      Provide effective information resources management.
                                       Goal 2 predominately by Goal 1’s and Goal
                                       2’s FTE usage, except for those non-pay
                                       costs that are clearly attributable to a
                                                                                      Provide effective financial and acquisition management.
                                       specific goal.



                                     Performance Measurement Process
                                     Bureau and Office representatives serve as the              Director/Chief Operating Officer, and the Chief of
                                     Performance Measure Reporting Officials (PMROs),            Staff/Chairman are briefed on the results and any
                                     who act as data stewards for each of the agency’s           significant variances in planned versus actual results.
                                     publicly-reported performance measures. The PMROs           The PIO and Deputy PIO then coordinate with the
                                     report to the Deputy Performance Improvement                PMROs on any adjustments to strategies and tactics
                                     Officer (PIO) on a monthly, quarterly, or annual basis      based on the performance results.
                                     via an internal data reporting tool. The Financial
                                     Management Office (FMO) also leads quarterly
                                     performance measure reviews that coincide with the
                                     budget execution reviews. The CFO/PIO, the Executive




             8                                           Federal Trade Commission | Performance and Accountability Report
                                                                                                                            MANAGEMENT’S DISCUSSION & ANALYSIS
K
The FTC has established performance measures for               The following table summarizes actual performance
assessing program performance against strategic goals          during FY 2012 against established targets for all of the
and objectives. Of the 40 measures, 16 are considered          FTC’s key performance and efficiency measures and
“key” measures because they best indicate whether              provides a synopsis of related highlights. The table also
agency activities are achieving the desired outcome            includes actual results from the past three fiscal years.
associated with the related objective. Additionally,           The FTC met or exceeded 13 of the 16 key measures
four performance measures are considered efficiency            and two of the four efficiency measures.
measures because they are either ratios of outcomes
to inputs or they capture administrative timeliness.
For each measure, the FTC has established a
performance target.



  leGeNd fOr uPcOMiNG TableS

 ✔       Signifies that the target is met or exceeded


 ✖       Signifies that the target is not met




STRATEGIC GOAL 1: PROTECT CONSUMERS

 Objective 1.1 identify fraud, deception, and unfair practices that cause the greatest
 consumer injury
 key measure 1.1.2 the percentage of the ftC’s consumer protection law enforcement actions that target
 the subject of consumer complaints to the ftC. (output measure)



                           *Target
                                              70.0%           PerfOrMaNce HiGHliGHTS
                                            of actions        The FTC and the State of Connecticut temporarily halted
       2012                                                   Leanspa, LLC in November 2011 from allegedly using fake
                                                90.6%         news sites to promote their products, making deceptive
                           actual                             weight-loss claims, and falsely telling consumers they
                                                 ✔            could receive “free” trials of acai berry and colon cleanse
                                                              products. The defendants have allegedly taken in more
                                                              than $25 million from consumers in the United States.
                                                80.4%
        2011               actual
                                                 ✔
                                                              * Annual targets for FY12 - FY14 were increased based on
                                                              projected future performance as reported in the FTC’s FY
                                                              2012 Strategic Plan Addendum.

                                                95.9%
       2010                actual
                                                 ✔




                                                        fiscal year   2012                                                  9
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices
                                     through law enforcement
                                     key measure 1.2.1 the percentage of all cases filed by the ftC that were successfully resolved through
                                     litigation, a settlement, or issuance of a default judgment. (outcome measure)



                                                                                        PerfOrMaNce HiGHliGHTS
                                                                       80.0-90.0% of    In August 2012, at the request of the Federal Trade
                                                          *Target
                                                                           cases        Commission, a U.S. district court ordered the marketers
                                                                                        of three get-rich-quick systems, including “John Beck’s
                                                                                        Free & Clear Real Estate System,” to pay $478 million
                                          2012
                                                                                        for deceiving close to one million consumers with phony
                                                                                        claims that they could make easy money using their
                                                                          100.0%
                                                           actual                       programs. The Order also imposes a lifetime ban that puts
                                                                            ✔           three of the defendants permanently out of the infomercial
                                                                                        and telemarketing businesses.
                                                                                        The case is part of the FTC’s ongoing efforts to stop scams
                                                                                        that prey upon financially distressed consumers. The Order
                                                                          100.0%        represents the largest litigated judgment ever obtained by
                                          2011             actual                       the agency.
                                                                            ✔
                                                                                        * Annual targets for FY12 - FY14 were increased based on
                                                                                        projected future performance as reported in the FTC’s FY
                                                                                        2012 Strategic Plan Addendum.
                                                                           99.2%
                                          2010             actual
                                                                            ✔



                                     Performance measure 1.2.3: the percentage of redress cases in which the ftC distributes redress dollars
                                     designated for distribution to consumers within six months. (efficiency measure)


                                                                                        PerfOrMaNce HiGHliGHTS
                                                                         90.0% of
                                                           Target                       The agency returns funds to victims of deceptive
                                                                          cases
                                                                                        practices following the successful prosecution of
                                                                                        defendants that result in judgments or settlements.
                                          2012                                          For example, the FTC mailed 12,951 refund checks worth
                                                                           95.0%        a total of $5 million to consumers who were allegedly
                                                           actual                       overcharged by CVS Caremark. In May 2012, the FTC
                                                                            ✔           accepted a final order against CVS Caremark settling
                                                                                        charges that it misrepresented the prices of certain
                                                                                        Medicare Part D prescription drugs, including drugs
                                                                          100.0%        used to treat breast cancer symptoms and epilepsy.
                                          2011             actual                       The settlement bars deceptive claims related to Medicare
                                                                            ✔           Part D drug prices and requires CVS Caremark to pay $5
                                                                                        million to reimburse affected Medicare Part D consumers
                                                                                        for the price discrepancy.
                                                                           96.0%
                                          2010             actual
                                                                            ✔




             10                                      Federal Trade Commission | Performance and Accountability Report
                                                                                                                    MANAGEMENT’S DISCUSSION & ANALYSIS
Objective 1.3: Prevent consumer injury through education
key measure 1.3.2 Customer satisfaction rate with an ftC consumer education website or microsite.
(outcome measure)


                                  Exceed average        PerfOrMaNce HiGHliGHTS
                                 citizen satisfaction   The FTC used the American Customer Satisfaction
                    Target      rate as published in    Index (ACSI) to measure how satisfied visitors to
                                 the E-Government       OnGuardOnline.gov are. Over 100 federal agencies
                                 Satisfaction Index.    use this survey to measure customer satisfaction. In
    2012                                                FY 2012, OnGuardOnline.gov maintained an overall
                                                        customer satisfaction score of 81, well above the
                                         81             benchmark score for government websites (74). The
                    actual                              survey also allows the FTC to measure key website
                                         ✔              elements such as navigation, site information, look
                                                        and feel, site performance and functionality. The
                                                        OnGuardOnline.gov score for each of these elements
                                                        was above the national benchmark for satisfaction.
                                         ✔              In addition, 73% of respondents said the site helped
    2011            actual                              them do what they wanted and 54% said they learned
                                  FTC score of 81,
                                                        something on the site that would change their online
                                benchmark score 74
                                                        behavior in the future, a strong indication that the site
                                                        is an effective and helpful tool for consumers.

                                         ✔
    2010            actual        FTC score of 77,
                                benchmark score 74




Objective 1.4: enhance consumer protection through research, reports, rulemaking,
and advocacy
key measure 1.4.4 the percentage of proposed administrative Procedure act (aPa) rulemakings,
conducted solely by the ftC, completed within nine months of receipt of final comments in the final
notice of Proposed rulemaking. (efficiency measure)


                                     75.0% of           PerfOrMaNce HiGHliGHTS
                   Target
                                   rulemakings          There is no data to consider under this measure, as the
                                                        FTC had no APA rulemakings to consider in FY 2012.
    2012
                   actual              N/A


                                      83.3%
    2011           actual
                                        ✔
                                      100.0%
    2010           actual
                                        ✔




                                               fiscal year   2012                                                   11
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     Objective 1.5: Protect american consumers in the global marketplace by providing
                                     sound policy and technical input to foreign governments and international
                                     organizations to promote sound consumer policy
                                     key measure 1.5.1 Policy advice provided to foreign consumer protection and privacy agencies, directly and
                                     through international organizations, through substantive consultations, written submissions, or comments.
                                     (output measure)


                                                                                         PerfOrMaNce HiGHliGHTS
                                                         *Target      60 policy inputs
                                                                                         An increased focus on Internet policy and consumer
                                                                                         privacy, both by foreign agencies and by a growing range
                                         2012                                            of international organizations, has sustained a strong
                                                                            65           demand for the FTC’s policy advice and technical input
                                                         actual                          on consumer policy and related issues. In FY 2012, the
                                                                            ✔            FTC provided policy advice in over 60 instances, through
                                                                                         consultations, presentations, and written comments.
                                                                            52
                                         2011            actual
                                                                            ✔            *Annual targets for FY12 - FY14 were increased based on
                                                                                         projected future performance as reported in the FTC’s FY
                                                                            64           2012 Strategic Plan Addendum.
                                         2010            actual
                                                                            ✔




             12                                      Federal Trade Commission | Performance and Accountability Report
                                                                                                                   MANAGEMENT’S DISCUSSION & ANALYSIS
STRATEGIC GOAL 2: MAINTAIN COMPETITION

Objective 2.1: Take action against anticompetitive mergers and practices that may
cause significant consumer injury
key measure 2.1.1 actions to maintain competition, including litigated victories, consent orders,
abandoned transaction remedies, restructured transaction remedies, or fix-it-first transaction remedies
in a significant percentage of substantial merger and nonmerger investigations. (outcome measure)

                                   40.0–60.0%      PerfOrMaNce HiGHliGHTS
                     Target       of substantial   The FTC obtained a positive result in 25 of the 58
                                  investigations   significant merger and nonmerger (anticompetitive
     2012                                          practices) investigations it concluded during FY 2012.
                                      43.1%        Actions pertaining to mergers included successful second
                     actual                        request or compulsory process investigations in a variety
                                       ✔           of matters across various industries: pharmaceuticals
                                                   hospitals, long-term care pharmacies, and physician
                                      34.1%*       groups, high technology, manufacturing, and energy.
     2011            actual
                                       ✖           In regard to anticompetitive practices, the FTC took action
                                                   to stop and prevent anticompetitive tactics that harm
                                                   consumers by thwarting competition. For example, during
                                                   FY 2012, the FTC issued a settlement order prohibiting
                                                   PoolCorp (the U.S.’s largest swimming pool products
                                                   distributor) from restricting the purchase or sale of pool
                                                   products to any other distributor. Additionally, the FTC
                                                   successfully concluded its litigation against Realcomp II
                                     40.0%         Ltd. (a Michigan-based realtor group) and Realcomp’s
     2010            actual                        policy of blocking nontraditional, low-cost listings from
                                       ✔           being published through its realtor data service.
                                                   *This is a correction to results reported in the FY 2011 PAR.
                                                   The results should have been based on 15 out of 44 cases,
                                                   or 34%. The FY 2011 PAR reports actuals on 14 of 44 cases,
                                                   or 32%.




                                               fiscal year   2012                                                  13
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     Performance measure 2.1.4 Consumer savings of at least six times the amount of ftC resources allocated
                                     to the merger program. (efficiency measure)

                                                                                      PerfOrMaNce HiGHliGHTS
                                                         *Target        1300.0%
                                                                                      During FY 2012, the agency saved consumers
                                          2012                                        approximately 13 times the amount of resources devoted
                                                                        1,492.4%      to the merger program, as calculated using the five-year
                                                         actual                       average consumer savings obtained under Performance
                                                                           ✔          Measure 2.1.2 ($504.9 million) divided into the amount of
                                                                                      resources used in the merger program.
                                                                       1,419.2%**     * Annual targets for FY12 - FY14 were increased based on
                                          2011           actual
                                                                           ✔          projected future performance as reported in the FTC’s FY
                                                                                      2012 Strategic Plan Addendum.
                                                                                      ** This is a correction to results reported in the FY 2011 PAR.
                                                                                      The results should have been based on a savings of $532.2
                                                                        1,670.0%
                                                                                      (million), or 1419%. The FY 2011 PAR reports savings of
                                         2010            actual
                                                                           ✔          $531.5 (million), or 1417%.




                                     Performance measure 2.1.7 Consumer savings of at least four times the amount of ftC resources allocated
                                     to the nonmerger program. (efficiency measure)

                                                                                      PerfOrMaNce HiGHliGHTS
                                                         *Target        2000.0%
                                                                                      During FY 2012, as in 2011 and FY 2010 where the agency
                                                                                      greatly exceeded its target, the agency saved consumers
                                          2012                                        over 18 times the amount of resources devoted to the
                                                                        1,831.7%      nonmerger enforcement program. This is largely attributable
                                                         actual
                                                                           ✖          to the consumer savings from one particular case from FY
                                                                                      2010 involving Intel Corporation. The targets for FY 2012
                                                                                      through FY 2014 were modified in response to the agency
                                                                         1917.7%      greatly exceeding the target due to this case. Therefore,
                                          2011           actual                       subsequent years’ results may not meet the target under this
                                                                           ✔          measure. The FTC will consider whether the new targets were
                                                                                      appropriately set.
                                                                                      * Annual targets for FY12 - FY14 were increased based on
                                                                        2,418.0%      projected future performance as reported in the FTC’s FY
                                         2010            actual                       2012 Strategic Plan Addendum.
                                                                           ✔




             14                                      Federal Trade Commission | Performance and Accountability Report
                                                                                                                   MANAGEMENT’S DISCUSSION & ANALYSIS
Objective 2.2: Prevent consumer injury through education
key measure 2.2.1 Competition resources accessed via the ftC’s website. (output measure)



                                                        PerfOrMaNce HiGHliGHTS
                   *Target       24.0 million hits      The FTC is committed to developing readily-available
                                                        online competition content. Through its online
    2012                                                presence, the FTC strives to provide content to
                                                        serve its stakeholders, whether they are individual
                                  23.2 million hits     consumers, affected businesses, researchers, or
                   actual
                                         ✖              practitioners and policy makers. During FY 2012, the
                                                        FTC’s online competition resources registered over
                                                        23 million hits. These resources include pages that
                                  22.6 million hits     relate to individual investigations (such as complaints,
    2011           actual                               orders, comments, and press releases), policy and
                                         ✔              research oriented content (such as reports, policy
                                                        guides, and fact sheets, workshop or conference
                                                        webpages, the online competition enforcement
                                                        database, advocacy filings, and amicus briefs), and
                                                        business and consumer education material.
                                                        In FY 2011, the agency exceeded the target on this
                                                        measure. Accordingly, new targets were set for FY
                                  21.5 million hits     2012 through FY 2014 based on past performance.
    2010           actual                               The FTC will consider whether the new targets were
                                         ✔              appropriately set.
                                                        * Annual targets for FY12 - FY14 were increased based
                                                        on projected future performance as reported in the
                                                        FTC’s FY 2012 Strategic Plan Addendum.




Objective 2.3: enhance consumer benefit through research, reports, and advocacy
key measure 2.3.1 workshops, seminars, conferences, and hearings convened or cosponsored that involve
significant competition-related issues. (output measure)


                                  4 workshops,          PerfOrMaNce HiGHliGHTS
                   Target     seminars, conferences,    The FTC devotes resources to the creation of
                                  and hearings          workshops, conferences, and hearings to foster
    2012                                                an environment of discussion and analysis of
                                                        competition-related issues. In FY 2012, the FTC held
                                          3             three major conferences, one of which was held
                   actual                               jointly with the Department of Justice.
                                         ✖
                                                        Of note was the Federal Trade Commission’s
                                                        Microeconomics Conference, a conference held
                                         4              annually in November, which brought together
    2011           actual                               researchers from universities throughout the world,
                                         ✔              other government agencies, and other organizations
                                                        to discuss antitrust, consumer protection, and policy
                                                        issues that the economists in the FTC’s Bureau of
                                                        Economics encounter.
                                                        Another highlight was a joint conference with the
                                         6              Department of Justice’s Antitrust Division held in
    2010           actual                               September 2012 on most-favored-nation clauses
                                         ✔              (MFNs), which explored the use of MFN clauses and
                                                        the implications for antitrust enforcement and policy.




                                               fiscal year   2012                                                  15
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     key measure 2.3.2 reports and studies issued on key competition-related topics. (output measure)



                                                                                      PerfOrMaNce HiGHliGHTS
                                                                      8 reports and
                                                         Target                       A key component to the FTC’s competition related
                                                                         studies
                                                                                      strategy objective is studying and issuing working papers
                                          2012                                        on competition-related topics. During FY 2012, the FTC
                                                                                      published working papers on the economics of competition,
                                                                           9          market structures, and organizational form. The FTC also
                                                         actual
                                                                           ✔          published reports covering health care and energy topics.
                                                                                      Additionally, the agency filed two annual reports, one
                                                                                      recognizing the agency’s continued efforts to protect
                                                                           11         consumers and competition, and the Hart-Scott-Rodino
                                          2011           actual                       Annual Report on the premerger notification program and
                                                                           ✔          merger enforcement.


                                                                           9
                                         2010            actual
                                                                           ✔


                                     key measure 2.3.3 advocacy comments and amicus briefs on competition issues filed with entities
                                     including federal and state legislatures, agencies or courts. (output measure)


                                                                                      PerfOrMaNce HiGHliGHTS
                                                                      10 comments
                                                         *Target                      In FY 2012, the FTC filed advocacy comments and amicus
                                                                        and briefs
                                                                                      briefs on a wide variety of competition issues such as
                                          2012                                        pay-for-delay pharmaceutical settlements, the regulation
                                                                                      of medical, dental, and veterinary professionals, the
                                                                           18         intersection of competition and intellectual property law,
                                                         actual
                                                                           ✔          electricity, and the agency’s Funeral Rule.
                                                                                      *Annual targets for FY12 - FY14 were increased based on
                                                                                      projected future performance as reported in the FTC’s FY
                                                                           16         2012 Strategic Plan Addendum.
                                          2011           actual
                                                                           ✔

                                                                           17
                                         2010            actual
                                                                           ✔




             16                                      Federal Trade Commission | Performance and Accountability Report
                                                                                                                     MANAGEMENT’S DISCUSSION & ANALYSIS
Objective 2.4: Protect american consumers in the global marketplace by providing
sound policy recommendations and technical advice to foreign governments and
international organizations to promote sound competition policy
key measure 2.4.1 Policy advice provided to foreign competition agencies, directly and through
international organizations, through substantive consultations, written submissions, or comments.
(output measure)

                                                     PerfOrMaNce HiGHliGHTS
                  *Target      60 policy inputs
                                                     The FTC’s policy advice remains highly regarded and sought
                                                     after by new and more experienced competition agencies,
    2012                                             including in international fora. In FY 2012, the FTC provided
                                     146             policy advice to foreign competition agencies in over 100
                  actual
                                      ✔              instances through consultations, written submissions, or
                                                     comments.

                                      112            * Annual targets for FY12 - FY14 were increased based on
    2011          actual                             projected future performance as reported in the FTC’s FY
                                      ✔              2012 Strategic Plan Addendum.

                                      76
    2010          actual
                                      ✔

STRATEGIC GOAL 3: ADVANCE PERFORMANCE

Objective 3.1: Provide effective human resources management
key measure 3.1.2 the extent employees think the organization has the talent necessary to achieve
organizational goals. (outcome measure)


                                  Exceed the          PerfOrMaNce HiGHliGHTS
                              government-wide         The Federal Human Capital Survey includes 98 questions
                            results on the Federal    that measure how effectively agencies manage their
                 Target
                               Human Capital          workforces. The FTC was at least five points higher than
                               Survey’s Talent        the government-wide average on 65 of the 98 questions,
                             Management Index         and only one item fell more than five points below the
   2012                                               government-wide average on any question. In Talent
                                                      Management, the government-wide results were 59% and
                                                      the FTC received 70%, which is third place compared to
                                                      37 other departments and agencies with more than 1,000
                 actual              ✔                full-time employees.




   2011          actual              ✔




   2010          actual              ✔




                                                  fiscal year   2012                                                 17
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     Objective 3.2: Provide effective infrastructure and security management
                                     key measure 3.2.1 a favorable Continuity of operations (CooP) rating. (output measure)

                                                                                       PerfOrMaNce HiGHliGHTS
                                                     Target         75.0% rating       The FTC participated in the government-wide Eagle
                                                                                       Horizon Exercise to test and verify the effectiveness of
                                        2012                                           the FTC COOP. The FTC’s overall score of 90% for the
                                                                                       Eagle Horizon 2012 Exercise reflects the strong overall
                                                                       90.0%
                                                     actual                            commitment and continued support of the FTC COOP.
                                                                        ✔              This score was the highest achieved by the FTC for any
                                                                                       previous COOP testing exercise conducted by the Federal
                                                                                       Emergency Management Agency (FEMA). Continued
                                                                       75.0%           efforts to better define the FTC’s essential functions and
                                        2011         actual                            ensure that effective procedures are in place are reflected in
                                                                        ✔
                                                                                       the outstanding overall exercise score.

                                                                       85.0%
                                        2010         actual
                                                                        ✔


                                     key measure 3.2.2 availability of information technology systems. (outcome measure)


                                                                                       PerfOrMaNce HiGHliGHTS
                                                                   99.00% system
                                                     Target                            In FY 2012, the information technology services pool
                                                                     availability
                                                                                       averaged 99.86% availability, exceeding the target.
                                        2012
                                                                      99.86%
                                                     actual
                                                                        ✔

                                                                      99.82%
                                        2011         actual
                                                                        ✔

                                                                      99.77%
                                        2010         actual
                                                                        ✔




             18                                      Federal Trade Commission | Performance and Accountability Report
                                                                                                                        MANAGEMENT’S DISCUSSION & ANALYSIS
  Objective 3.3: Provide effective information resources management
  key measure 3.3.1 the percentage of Commission-approved documents in the ftC’s ongoing and newly
  initiated proceedings available via the internet within 15 days of becoming part of the public record.
  (output measure)



                                                       PerfOrMaNce HiGHliGHTS
                   Target         80.0% rating         Making public documents easily available on the
                                                       public FTC website in a timely manner increases public
     2012                                              awareness of the FTC’s activities. Examples of public
                                                       documents approved by the FTC and placed on the
                                     80.2%             website include (1) complaints and the FTC’s opinions and
                   actual
                                       ✔               orders filed in adjudicative proceedings; (2) the Federal
                                                       Register notices in rulemaking, guide issuance, regulatory
                                                       review, consent agreement, and other proceedings in
                                                       which the FTC solicits public comments; (3) reports by
                                     82.0%             the FTC and its staff; (4) advocacy filings; (5) final consent
     2011          actual
                                       ✔               orders and accompanying complaints; and (6) the FTC’s
                                                       complaints, briefs, and proposed orders filed in federal
                                                       court litigation.
                                                       In FY 2012, the agency posted 80.2% of documents
                                     93.8%             tracked under this measure on the FTC’s public website
     2010          actual                              within 15 days of becoming part of the public record.
                                       ✔


  Objective 3.4: Provide effective financial and acquisition management
  key measure 3.4.2 the percentage of Bureaus/offices that establish and maintain an effective, risk-based
  internal control environment. (outcome measure)


                                                       PerfOrMaNce HiGHliGHTS
                   Target            100.0%
                                                       The Statements of Assurance submitted by the agency’s
     2012                                              major components provide the basis for measuring the
                                     100.0%            effectiveness of the agency’s risk-based internal control
                   actual                              environment. Based on these Statements of Assurance,
                                       ✔               100% of the major components establish and maintain an
                                                       effective, risk-based internal control environment.
                                     100.0%
     2011          actual
                                       ✔
                                     100.0%
     2010          actual
                                       ✔

Performance Measures Summary
The Performance Measure Summary Table in the             was not available for 2 measures. Based on these results,
Performance Section of this report shows actual          the FTC has made significant progress toward reaching
results for all performance measures and shows unit      its objectives, as fully described in the Performance
of measure. Of the 40 total performance measures, 21     Section.
were exceeded, 8 were met, 9 were not met, and data




                                                 fiscal year   2012                                                     19
                                     AGENCY MISSION CHALLENGES
MANAGEMENT’S DISCUSSION & ANALYSIS

                                     The FTC stands prepared to face the challenges of            PROTECTING CONSUMER PRIVACY AND
                                     today’s marketplace as a champion for consumers              IMPROVING DATA SECURITY:
                                     and competition. As a small law enforcement agency           The FTC will continue to take a leading role in efforts
                                     with a broad mandate, many of the FTC’s challenges           to protect consumers from unfair, deceptive, or other
                                     are defined by the conditions of the marketplace, and        illegal practices related to their privacy, while preserving
                                     thus are ever changing. For example, as consumers            the many benefits that technological advances offer.
                                     and businesses encounter difficulties with financial         The agency will stop unfair and deceptive consumer
                                     scams, deceptive or fraudulent advertising, online           privacy and data security practices through law
                                     privacy and data security, and anticompetitive business      enforcement. It will promote stronger privacy
                                     practices in the technology, health care and other           protections through policy initiatives on a range
                                     industries, the FTC steps forward to protect consumers       of topics such as data brokers, mobile devices, and
                                     and maintain competition. Agency management has              comprehensive online data collection. The FTC will
                                     identified significant mission challenges in Strategic       also participate in interagency groups, promote self-
                                     Goal 1 (Protect Consumers) and Strategic Goal 2              regulatory efforts, provide technical assistance to
                                     (Maintain Competition). Management’s identification          the Congress on draft legislation, and participate in
                                     was performed separately from the Inspector General’s        international privacy initiatives. (Objectives 1.1, 1.2, 1.3,
                                     (IG) assessment of management and performance                and 1.4)
                                     challenges (see the Other Accompanying Information
                                     Section). However, because management concurs with           STOPPING HARMFUL USES OF
                                     the IG assessment, certain aspects of the challenges         TECHNOLOGY:
                                     described below are also addressed by the IG. Agency         Technology provides countless benefits to consumers,
                                     mission challenges are presented below as they relate        including choice, convenience, and increased access
                                     to the agency’s strategic goals. A reference to the          to goods, services, and information. It also enables,
                                     most applicable strategic objectives is also provided        however, new vehicles for fraudulent, deceptive, and
                                     so that readers may refer to descriptions of related         unfair practices in the marketplace. If consumers are
                                     performance targets and actual results listed by objective   not adequately protected, not only can they suffer
                                     within the Performance Section.                              economic injury, but they can lose confidence in these
                                                                                                  new technologies. To respond to these challenges,
                                     Strategic Goal 1: Protect                                    the FTC will examine malware and spyware threats
                                                                                                  to mobile devices, promote technologies to protect
                                     Consumers: Prevent Fraud,
                                                                                                  consumers online, and target online and mobile threats
                                     Deception, and Unfair Business                               for enforcement, including mobile spam, mobile
                                     Practices in the Marketplace                                 cramming, deceptive and unfair apps, and malware
                                     Under the Protect Consumers goal, the FTC will               distributed through social networks.
                                     continue to give priority to addressing the following
                                     challenges: protecting consumer privacy and improving        Technological advances have made it difficult for
                                     data security, stopping harmful uses of technology,          consumers and law enforcement to identify the location
                                     promoting compliance in new media, protecting                of fraudsters pitching scams over the telephone. Some
                                     vulnerable Americans from fraud, protecting                  companies remain virtually anonymous by falsifying
                                     consumers in the financial services marketplace,             the phone number on a caller ID display. At the same
                                     combating identity theft, targeting deceptive advertising    time, technology has made it cheap and efficient to
                                     affecting consumers’ health, protecting children in the      make large numbers of illegal pre-recorded calls, often
                                     marketplace, and evaluating environmental marketing          from overseas. The FTC will continue to take aggressive
                                     claims.                                                      law enforcement action to stop illegal “robocalls”




             20                                          Federal Trade Commission | Performance and Accountability Report
that deliver prerecorded messages and to halt other            and other illegal practices involving mortgage




                                                                                                                              MANAGEMENT’S DISCUSSION & ANALYSIS
telemarketing calls that violate the National Do Not           advertising, servicing, lending, and other financial
Call Registry. Further, the FTC will work with                 services. These practices can have severe consequences
consumer groups, legitimate industry, technologists,           for consumers, including unanticipated high-cost
policymakers, and other stakeholders to develop                mortgages, ruined credit histories, and loss of their
solutions to the rise in illegal robocalls. (Objectives 1.1,   homes. The agency also will fight deceptive and abusive
1.2, 1.3, and 1.4)                                             debt collection practices. The FTC will continue to
                                                               gather information on the consumer protection issues
PROMOTING COMPLIANCE IN NEW                                    related to buying or leasing motor vehicles, and when
MEDIA:                                                         appropriate, take action against deceptive practices in
As new media open new avenues for companies to                 this area. The FTC will also continue to work to protect
communicate with consumers, the FTC will promote               consumers from financial frauds that emanate from
compliance. The agency will conduct outreach to                outside the United States, including phantom payday
businesses that engage in viral, mobile, and affiliate         loan scams and fake mortgage relief scams. Further,
marketing, stressing that existing advertising principles      the FTC will continue to closely coordinate with the
apply to new media and methods of marketing. The               Consumer Financial Protection Bureau to ensure that
FTC will also monitor the marketplace and initiate             consumers are protected in the financial marketplace
investigations where appropriate. (Objectives 1.1, 1.2,        and to avoid any duplicative efforts between the
1.3, and 1.4)                                                  agencies. (Objectives 1.1, 1.2, 1.3, and 1.4)

PROTECTING VULNERABLE                                          COMBATING IDENTITY THEFT:
AMERICANS FROM FRAUD:                                          Identity theft exacts a heavy financial and emotional
Frauds such as those offering health insurance or              toll from its victims, and the FTC will continue to
income opportunities through jobs, investment,                 assist the millions of Americans who are victimized
government grants, or other scams affect everyone              each year. The FTC will continue to be the repository
but pose an even greater risk to those from poor and           for identity theft complaints and make them available
underserved communities. The FTC will continue to              to federal criminal law enforcement agencies. Our
combat such frauds. The FTC also will work to protect          trained counselors will continue to advise identity theft
vulnerable consumers from deceptive work-at-home,              victims who call our toll free number about rights
get-rich-quick, and related schemes, including promises        and remedies available to them under federal law. The
of non-existent jobs and phony government grants. It           agency also will publicize its victim assistance guide for
also will combat fraud targeting seniors and examine           pro-bono attorneys, train local law enforcement to spot
ways to better assist older victims. (Objectives 1.1, 1.2,     and prosecute identity theft, and update educational
1.3, and 1.4)                                                  materials to address new and emerging issues, such as
                                                               medical and children’s identity theft. (Objectives 1.1, 1.2,
PROTECTING CONSUMERS IN THE                                    1.3, and 1.4)
FINANCIAL SERVICES MARKETPLACE:
Fraud operators have seized upon new schemes to                TARGETING DECEPTIVE ADVERTISING
take advantage of consumers in the financial services          AFFECTING CONSUMERS’ HEALTH:
marketplace. The FTC will continue to use the tools            Consumers can fall prey to fraudulent health advertising
and authorities available to it to protect consumers           when they are desperate for medical help. The
of financial services. Agency law enforcement actions          FTC, therefore, will continue to challenge deceptive
will target firms that make deceptive offers to assist         advertising of health products. The agency will focus on
consumers in reducing or renegotiating secured debt,           disease prevention and treatment claims; claims aimed
such as mortgage or car loans, and unsecured debt, such        at baby boomers, seniors, and the uninsured; and claims
as credit card bills. The FTC will work to stop payday         exploiting emerging health threats. (Objectives 1.1, 1.2,
lending operations that employ deceptive conduct to            1.3, and 1.4)
take advantage of financially distressed consumers
seeking these loans. The FTC will combat deceptive


                                                       fiscal year   2012                                                     21
MANAGEMENT’S DISCUSSION & ANALYSIS

                                                                                                        FT




                                     PROTECTING CHILDREN IN THE                                   EVALUATING ENVIRONMENTAL
                                     MARKETPLACE:                                                 MARKETING CLAIMS:
                                     Children and teens are particularly vulnerable to            Green claims, such as carbon offset, renewable
                                     deceptive, unfair, and age-inappropriate advertising.        material, and renewable energy claims, have increased
                                     The agency is conducting a review of the Children’s          in popularity. These claims can be extremely useful
                                     Online Privacy Protection Act (COPPA) Rule that              for consumers; however, the complexity of the issues
                                     requires websites to get verifiable parental consent         involved creates the potential for confusing, misleading,
                                     before collecting information from children under 13         and fraudulent claims. In October 2012, the FTC
                                     years old. Agency staff is assessing new technologies,       revised and updated the “FTC Guides for the Use of
                                     including mobile applications, to determine whether          Environmental Marketing Claims,” commonly known as
                                     they are encompassed by, and conducted in accordance         the Green Guides. The agency will bring cases and law
                                     with, COPPA’s parameters. In the alcohol advertising         enforcement sweeps to address deceptive environmental
                                     arena, the FTC plans to propose improvements to              marketing claims, working where possible with state and
                                     self-regulatory standards, bring enforcement actions         local partners. (Objectives 1.1, 1.2, 1.3, and 1.4)
                                     targeting unfair or deceptive practices, and issue another
                                     report to the Congress on self-regulation. Further,
                                     the agency will monitor the marketing of violent
                                     entertainment to children and the ability of teens under
                                     age 17 to purchase age-restricted products containing
                                     violent content. (Objectives 1.1, 1.2, 1.3, and 1.4)


             22                                          Federal Trade Commission | Performance and Accountability Report
                                                            care competitors. The Affordable Care Act of 2010




                                                                                                                        MANAGEMENT’S DISCUSSION & ANALYSIS
Strategic Goal 2: Maintain
                                                            encourages healthcare providers to create integrated
Competition: Prevent                                        health care delivery systems, called Accountable Care
Anticompetitive Mergers and                                 Organizations, to improve the quality of care and lower
Other Anticompetitive Business                              health care costs. The FTC worked with the other
Practices in the Marketplace                                relevant U.S. agencies (the Antitrust Division of the
                                                            Department of Justice and the Centers for Medicare
Under the Maintain Competition goal, the FTC will
                                                            and Medicaid Services) to develop a Joint Statement
continue to give priority to the challenges of promoting
                                                            of Antitrust Enforcement Policy for Accountable Care
competition and preventing anticompetitive activity
                                                            Organizations, which makes clear that the antitrust
in the health care and pharmaceutical industries, high
                                                            laws are not a barrier to bona fide collaboration to
technology sectors, and energy industries. The agency
                                                            improve healthcare and reduce costs. Upon request,
will also work on promoting sound competition policy
                                                            FTC staff reviews certain proposed ACOs. The FTC
at the international level and advocating for competition
                                                            retains the ability to challenge collaborations that are
before the U.S. courts, legislatures, and government
                                                            anticompetitive. (Objectives 2.1, 2.2, and 2.3)
agencies.
                                                            CONTINUING EMPHASIS ON HIGH
PROMOTING COMPETITION                                       TECHNOLOGY:
IN HEALTH CARE AND                                          The continuing importance of technology is a
PHARMACEUTICALS:                                            crucial marketplace challenge that is placing greater
The rapidly rising cost of health care, which continues     demands on antitrust enforcement. The FTC antitrust
to account for an increasingly significant share of the     investigations increasingly involve high-technology
gross domestic product, is a matter of concern for          sectors of the economy. In enforcing the antitrust laws,
consumers, employers, insurers, and the nation as a         the FTC analyzes mergers and acquisitions filed under
whole. To ensure that consumers receive the benefits        the Hart-Scott-Rodino (HSR) Act, and also monitors
of competition in health care, the FTC has made             the industry for non-reportable transactions that might
antitrust enforcement in this area a priority. Pay-for-     raise antitrust concerns. The FTC takes action against
delay patent settlement agreements between brand            those mergers that are likely to reduce or eliminate
and generic drug manufacturers to delay generic             competition in the high technology sector. In addition,
competition are causing consumers significant harm          the FTC is vigilant where a firm may be illegally using
because they deprive consumers of access to lower           a dominant market position to stifle competition and
cost generic drugs. According to FTC economists,            strengthen an existing monopoly in order to raise prices,
these anticompetitive deals, unless stopped, will cost      reduce the quality or choice of goods and services,
consumers $35 billion over ten years. When appropriate,     or reduce innovation. Furthermore, issues in antitrust
the FTC investigates and challenges patent settlements      matters increasingly intersect with intellectual property
between brand and generic companies and supports            concerns, raising difficult questions about how to
legislation to eliminate this problem. The agency also      harmonize these two bodies of law. (Objective 2.1
addresses rising prescription drug prices by monitoring     and 2.3)
pharmaceutical and medical device company mergers.
In addition, the FTC stops anticompetitive agreements       PREVENTING ANTICOMPETITIVE
between physicians and hospital service organizations       ACTIVITY IN ENERGY INDUSTRIES:
and monitors hospital and other mergers that may raise      The price of gasoline and other energy sources
the cost of health care. The agency issues guidance         continues to be a great concern for consumers,
about antitrust law to prevent groups of health             businesses, and governments. The agency meets this
care providers from creating and exercising market          challenge by closely monitoring gasoline markets and
power, which undermines efforts to improve quality          moving quickly to address any anticompetitive merger
and control costs. The FTC focuses these efforts so         or nonmerger activity. Through its review of HSR
that misunderstandings about the law do not deter           merger filings and investigation of non-reportable
potentially beneficial collaborations among health          transactions, the FTC protects consumers in these


                                                   fiscal year   2012                                                   23
                                     markets. The FTC also continuously examines price             crude oil or petroleum products to a federal department
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     movements and other activity through its Gasoline and         or agency. Such actions could violate Section 5 of the
                                     Diesel Price Monitoring Project to identify any conduct       FTC Act, the Commission’s Prohibition of Energy
                                     that may not reflect purely competitive decisions based       Market Manipulation Rule, or Section 811 or Section
                                     on the forces of supply and demand. The FTC also              812 of the Energy Independence and Security Act
                                     monitors energy markets for anticompetitive nonmerger         of 2007. To prepare and support agency staff in
                                     activity such as illegal agreements among competitors,        meeting these challenges, the FTC devotes considerable
                                     agreements between manufacturers and product dealers,         resources to monitoring and studying energy markets—
                                     monopolization, and other anticompetitive activities.         often in response to congressionally mandated
                                     The FTC continues to investigate whether certain oil          requirements—thus developing the professional
                                     producers, refiners, transporters, marketers, physical or     expertise and body of knowledge needed to address
                                     financial traders, or others (1) have engaged in practices,   emerging concerns. The FTC has issued reports on
                                     including manipulation, that have lessened or may lessen      the factors that influence the prices that American
                                     competition in the production, refining, transportation,      consumers pay for gas. These reports, the most recent
                                     distribution, or wholesale supply of crude oil or             of which was released in 2011, show that the price
                                     petroleum products; or (2) have provided false or             of oil is still the most important factor in gas prices.
                                     misleading information related to the wholesale price of      (Objectives 2.1 and 2.3)




                                                                                      A




             24                                          Federal Trade Commission | Performance and Accountability Report
                                                             During FY 2012, the SAT updated guidance




                                                                                                                       MANAGEMENT’S DISCUSSION & ANALYSIS
MANAGEMENT                                                   for program managers to use in completing self-

ASSURANCES                                                   assessments of the processes and controls within their
                                                             areas of responsibility. Senior managers throughout the
(On Internal Controls, Financial                             agency completed self-assessments that disclosed no
Systems, and Compliance with                                 significant control weaknesses. The SAT evaluated the
                                                             results of the managers’ assessments and concurred
Laws and Regulations)
                                                             that no material weaknesses or nonconformances were
                                                             identified. The results of these evaluations and other
IMPLEMENTATION OF THE FEDERAL
                                                             information—such as independent audits or reviews
MANAGERS’ FINANCIAL INTEGRITY                                performed by the Office of Inspector General (OIG)
ACT (FMFIA) AT THE FTC                                       and the Government Accountability Office (GAO) (e.g.,
                                                             Federal Information Security Management Act review),
The FTC considers internal controls to be an integral        independent audits of service providers’ operations
part of all systems and processes that the agency utilizes   and financial systems (e.g., reviews conducted in
in managing its operations and carrying out activities       accordance with Statement on Standards for Attestation
toward achieving strategic goals and objectives. The         Engagements (SSAE) No. 16), internal analyses, and
FTC holds agency managers accountable for efficiently        other relevant evaluations and control assessments—
and effectively performing their duties in compliance        were considered by the SAT and the agency head in
with applicable laws and regulations and for maintaining     determining whether there are any management control
the integrity of their activities through the use of         deficiencies or nonconformances that must be disclosed
controls.                                                    in the annual assurance statement.

The FTC’s Senior Assessment Team (SAT) provides              In FY 2012, the FTC continued to follow its Internal
strategic direction and oversight over the agency’s          Control Review Plan established in FY 2010 to conduct
internal control program, to promote and facilitate          internal control reviews of agency bureaus and offices
compliance with applicable guidance (e.g., Office of         at least once every three years. The objective of the
Management and Budget [OMB] Circular A-123,                  reviews is to assist management in identifying high-
“Management’s Responsibility for Internal Control”),         risk areas and implement appropriate risk management
and communicates the results of reviews to senior            strategies where necessary. Three additional reviews
management and the head of the agency.                       were initiated or underway this year. The Chairman’s
                                                             assurance statement that follows is supported by the
Some of the functions of the SAT are developing and          processes and reviews described above, which were
documenting an internal control review plan, identifying     carried out in FY 2012. Management assurances tables
key processes and related control activities, performing     appear in the Other Accompanying Information
a preliminary risk assessment of such processes,             Section.
reviewing and assessing the overall control environment,
ensuring timely implementation of any corrective
actions needed to address identified weaknesses,
and establishing guidance for program managers in
monitoring and assessing management controls within
their areas of responsibility.




                                                    fiscal year   2012                                                 25
                                     CHAIRMAN’S FMFIA STATEMENT OF ASSURANCE
MANAGEMENT’S DISCUSSION & ANALYSIS




             26                                 Federal Trade Commission | Performance and Accountability Report
SUMMARY OF MATERIAL WEAKNESSES                             Additionally, the FTC has performed four Assessing




                                                                                                                       MANAGEMENT’S DISCUSSION & ANALYSIS
AND NONCONFORMANCES                                        and Authorizing (A&A) efforts and currently has twenty
As noted in the Chairman’s FMFIA Statement of              one systems authorized to operate.
Assurance, the FTC has no material weaknesses or
nonconformances to report for FY 2012. No new              DEBT COLLECTION IMPROVEMENT
material weaknesses or significant nonconformances         ACT
were identified for the past eight years, nor were there   The Debt Collection Improvement Act of 1996
any existing unresolved weaknesses requiring corrective    prescribes standards for the administrative collection,
action.                                                    compromise, suspension, and termination of federal
                                                           agency collection actions and referrals to the proper
FEDERAL INFORMATION SECURITY                               agency for litigation. The FTC monitors, administers
MANAGEMENT ACT (FISMA)                                     and collects on debts less than 180 days delinquent.
As mandated by FISMA, the agency continues to              All eligible debts more than 180 days old have been
maintain an information security program to manage         transferred to the U.S. Department of the Treasury
information technology in accordance with National         for cross-servicing. In addition, recurring payments
Institute of Standards and Technology (NIST)               were processed by Electronic Funds Transfer (EFT)
requirements. Continuous monitoring is one of many         in accordance with the EFT provisions of the Debt
approaches that the FTC employs to protect agency          Collection Improvement Act.
information systems and the data that is collected,
stored, and transmitted during the course of business.     PROMPT PAYMENT ACT
The Office of the Chief Information Officer (OCIO)         The Prompt Payment Act requires federal agencies to
continues to protect agency information                    make timely payments to vendors, including any interest
and information assets by:                                 penalties for late invoice payments. In FY 2012, the
                                                           FTC processed 13,850 invoices totaling nearly
•   Participating in the Department of Homeland            $89 million that were subject to prompt payment.
    Security (DHS) Cyber Assurance Program (CAP).          Of these invoices, 99.5 percent were paid on time.
    The FTC participates in the DHS Cyber Hygiene          During FY 2012, the FTC paid a total of $1,949 in
    program that assesses and validates the FTC’s          interest penalties, or .002 percent of the total dollar
    external network for known vulnerabilities and         amount invoiced.
    configuration errors. DHS provides the FTC with a
                                                           AGENCY FINANCIAL MANAGEMENT
    full report of weaknesses and suggested mitigations.
                                                           SYSTEMS STRATEGY
•   Deploying redundant networking capabilities at
                                                           The FTC’s overall strategy for its financial management
    FTC Regional Offices. During FY 2012, bandwidth
                                                           systems framework is driven by the objectives of
    upgrades and redundant communication links
                                                           operational effectiveness and efficiency, reliability and
    have been completed. This change facilitates
                                                           timeliness of data, and support of requirements of the
    the movement of data to and from the regional
                                                           agency’s strategic goals. The agency continues to work
    offices while reducing the possibility of network
                                                           with its shared service provider in enhancing its Core
    disruptions.
                                                           Financial System (CFS) and the related feeder systems
•   Moving the FTC’s public-facing websites to off-
                                                           and business processes. In FY 2012, the FTC upgraded
    site hosting facilities. The FTC has contracted with
                                                           its Oracle-based CFS to Release 12, which has provided
    a GSA Certified Cloud Provider (CSP) to host all
                                                           operational efficiencies through a new centralized rules-
    FTC public websites, and will benefit from the
                                                           based accounting engine.
    increased availability and scalability the solution
    provides. Additionally, the FTC is compliant with
                                                           The FTC also plans to fully integrate its procurement
    the “cloud first” mandate as required by the “25
                                                           system with its CFS. Such integration will strengthen
    Point Implementation Plan to Reform Federal
                                                           internal controls, improve efficiency of the
    Information Technology Management.”
                                                           procurement process, and provide agency staff with
                                                           timely information regarding budget execution and the
                                                           availability of funds.


                                                   fiscal year   2012                                                  27
                                     financial
MANAGEMENT’S DISCUSSION & ANALYSIS

                                     Introduction
                                     The financial highlights presented below are an analysis        Federal Accounting Standards Advisory Board
                                     of the information that appears in the FTC’s FY 2012            (FASA B). For the 16th straight year, the FTC is proud
                                     financial statements. The agency’s financial statements,        to have received an unqualified (clean) opinion on our
                                     which appear in the Financial Section of this report, are       audited financial statements. The chart below presents
                                     audited by an independent accounting firm. The FTC              a snapshot of the changes in key financial statement line
                                     management is responsible for the fair presentation             items that occurred during FY 2012 and is followed by
                                     of information contained in the principal financial             an explanation of the more significant fluctuations in
                                     statements. The financial statements and financial data         each of FTC’s financial statements.
                                     presented below have been prepared from the agency’s
                                     accounting records in accordance with Generally
                                     Accepted Accounting Principles (GAAP). GAAP for
                                     federal agencies are the standards prescribed by the

                                     Differences between amounts presented in this section and the financial statements are due to rounding.

                                                                                                                                                    Percentage
                                      CONDENSED BALANCE SHEET (Dollars shown in thousands)                            FY 2012           FY 2011
                                                                                                                                                       Change
                                        Assets:
                                                  fund balance with treasury                                          $192,786          $112,225          72%
                                                  cash and other monetary assets                                        28,360            44,944         -37%
                                                  investments                                                                 -           35,443        -100%
                                                  accounts receivable,net                                               31,986            11,400         181%
                                                  General property & equipment, net                                     18,385            19,371          -5%
                                        Total Assets                                                                  $271,517          $223,383          22%


                                        Liabilities:
                                                  accrued redress receivables due to claimants                         $27,219           $11,229         142%
                                                  redress collected not yet disbursed                                   84,935            84,190           1%
                                                  accounts payable and other                                            30,609            34,768         -12%
                                        Total Liabilities                                                             $142,763          $130,187          10%


                                        Net Position:
                                                  cumulative results of operations-other funds                         128,754            93,196          38%
                                        Total Net Position                                                            $128,754           $93,196          38%
                                        Total Liabilities and Net Position                                            $ 271,517         $223,383          22%


                                                                                                                                                    Percentage
                                               COST SUMMARY (Dollars shown in thousands)                              FY 2012           FY 2011
                                                                                                                                                       Change
                                                  Gross costs                                                         $286,054          $298,649          -4%
                                                  less: earned revenue                                                 (101,619)        (106,217)         -4%
                                        Net Cost of Operations                                                        $184,435          $192,432          -4%



             28                                                 Federal Trade Commission | Performance and Accountability Report
Financial Analysis




                                                                                                                            MANAGEMENT’S DISCUSSION & ANALYSIS
assets.
The FTC’s Balance Sheet shows total assets of $271            Investments decreased by $35 million due to the
million at the end of FY 2012, an increase of $48 million     discontinuation of the redress investment account.
or 22 percent compared to total assets of $223 million in     General property & equipment, net decreased as
FY 2011. The increase is explained through the analysis       depreciation and disposals exceeded capital asset additions
of the individual asset categories.                           during the year. These additions included data storage
                                                              expansion and network infrastructure enhancements.
Fund balance with Treasury increased by $80 million,
due primarily to $45 million in funds being reserved
for the planned relocation of the FTC offices currently
at 1800 M Street and 601 New Jersey Avenue and $21
million that was returned to the FTC’s deposit account
from its discontinued redress investment account. Cash
and other monetary assets decreased by $17 million, due
primarily to the remaining funds of a prior large judgment
distributed in FY 2012. Accounts receivable, net increased
by $21 million, which was primarily due to the estimated
collectability of two large redress judgments and one large
civil penalty that were incurred in FY 2012.




   ASSETS BY TYPE                 (Dollars shown in millions)


                         Accounts
                         receivable, net, $32



                                                      12%                               Fund balance with
             Cash and other                                                             treasury, $193
             monetary assets, $28

                                                10%



                                            7%
           General Property and
           equipment, net, $18
                                                                    71%




                                                      fiscal year   2012                                                    29
                                     L
MANAGEMENT’S DISCUSSION & ANALYSIS
                                                                                      Redress collected not yet disbursed is the liability offset
                                                                                      to collections made on redress cases and is basically
                                                                                      unchanged from the prior year. $57 million in collections
                                                                                      is held in the FTC’s deposit account and $28 million in
                                                                                      collections is held at financial institutions.

                                                                                      Accounts payable and other decreased by $4 million in FY
                                                                                      2012, due to two obligations totaling $4 million that were
                                                                                      accrued in FY 2011, but did not incur accruals for FY
                                                                                      2012.




                                     LIABILITIES BY TYPE (Dollars shown in millions)

                                                 Accounts payable and
                                                 Other, $31


                                                                                                               Redress collected not yet
                                                                                                               disbursed, $85
                                                                          22%




                                        Accrued redress
                                                                                            59%
                                        receivables due to              19%
                                        claimants, $27




             30                                    Federal Trade Commission | Performance and Accountability Report
N                                      R




                                                                                               MANAGEMENT’S DISCUSSION & ANALYSIS
FY 2012 NET COSTS BY STRATEGIC GOAL
(Dollars shown in thousands)


                                   Strategic Goal 1           Strategic Goal 2
                                Protect Consumers        Maintain Competition        Total

       Gross costs                        $164,767                   $ 121,287    $ 286,054
       less: earned revenue                   (13,794)                 (87,825)    (101,619)
  Net Cost of Operations                  $150,973                   $ 33,462     $ 184,435




                                fiscal year   2012                                             31
                                     Budgetary resourCes.                                      and general fund appropriations of $186 million,
MANAGEMENT’S DISCUSSION & ANALYSIS
                                     The Statement of Budgetary Resources (SBR) provides       comprising 36 and 64 percent of new budget authority,
                                     information on budgetary resources made available         respectively, in FY 2011.
                                     to the agency and the status of these resources at the
                                     end of the fiscal year. New budgetary authority (total    The SBR includes distributed offsetting receipts, which
                                     budgetary resources excluding unobligated balances        are the non-entity and non-budgetary funds recorded in
                                     brought forward and prior year recoveries) was $313       the FTC’s miscellaneous receipt account. These receipts
                                     million in FY 2012, an increase of $21 million or seven   are composed of disgorgements to the Treasury from
                                     percent from the $292 million received in FY 2011.        undistributed funds from the redress program and
                                     The increase in the new budget authority was primarily    court-appointed receivers. Distributed offsetting receipts
                                     for funding the planned relocation of FTC offices.        were $15 million in FY 2012, compared to $13 million
                                                                                               in FY 2011.
                                     In FY 2012, spending authority derived from offsetting
                                     collections totaled $103 million ($88 million for HSR
                                     fees, $14 million for DNC Registry fees and $1 million
                                     from a federal agency receivable) and general fund
                                     appropriations totaled $210 million, comprising 33 and
                                     67 percent of new budget authority, respectively.
                                     This compares to offsetting collections of $106 million




                                       NEW BUDGET AUTHORITY FOR FY 2011                                    (Dollars shown in millions)




                                                  Spending authority
                                                  from ofsetting                                                      General fund
                                                  collections, $103                                                   appropriations, $210
                                                                                  33%




                                                                                                     67%




             32                                         Federal Trade Commission | Performance and Accountability Report
Limitations of Financial




                                                                                                                          MANAGEMENT’S DISCUSSION & ANALYSIS
Statements
FTC management has prepared its FY 2012 financial             the same books and records. These statements should
statements from the books and records of the agency           be read with the understanding that they are for a
in accordance with the requirements of OMB Circular           component of the U.S. government, a sovereign entity.
A-136, financial reporting requirements, as amended.          One implication is that unfunded liabilities cannot be
The financial statements represent the financial position     liquidated without legislation that provides resources to
and results of operations of the agency pursuant              do so.
to the requirements of chapter 31 of the U.S. Code
Section 3515(b). While these statements have been             Financial Management Indicators
prepared from the agency’s books in accordance with
                                                              The following table shows standard indicators
the formats prescribed by the OMB, the statements are
                                                              developed by the Chief Financial Officers Council
in addition to the financial reports used to monitor and
                                                              and used by the OMB to monitor agencies’ financial
control budgetary resources, which are prepared from
                                                              management practices.



   fiNaNcial MaNaGeMeNT iNdicaTOrS fOr fY 2012

  debT MaNaGeMeNT

  Debt Transferred to Treasury                                100%



  fuNdS MaNaGeMeNT

  Fund Balance with Treasury (identifies the difference       100% reconciled
  between the fund balance reported in Treasury reports
  and the agency fund balance with Treasury recorded
  in its general ledger on a net basis)


  PaYMeNT MaNaGeMeNT

 Percentage Invoices Paid on Time (per Prompt                 99.5%
 Payment Act)

 Percentage Interest Penalties Paid to Total Dollars          0.002%
 Invoiced

 Percentage of total dollars outstanding in current           100%
 status* (good standing) for Individually Billed Travel
 Account holders

 Percentage of total dollars outstanding in current           100%
 status* (good standing) for Centrally Billed Travel
 accounts

 Percentage of total dollars outstanding in current           100%
 status* (good standing) for Purchase Cards




                                                       fiscal year   2012                                                 33
performance section




                        THIS PAGE INTENTIONALLY LEFT BLANk




       34             Federal Trade Commission | Performance and Accountability Report
fiscal year
2012
              performance SECTION
                      INTRODUCTION TO PERFORMANCperformance
performance section

                      The Performance Section presents, by goals and                       that result from merger and nonmerger actions taken
                      objectives, detailed information on the performance                  to maintain competition. The FTC, however, has not
                      results of the Federal Trade Commission’s (FTC)                      developed outcome measures in all cases, and uses input
                      programs. This section also includes: a discussion of                and output measures that either support outcomes, lead
                      strategies and factors affecting performance, a summary              to outcomes, or otherwise provide valuable indicators
                      of methods used to verify and validate performance                   of how the FTC is progressing toward achieving its
                      data, trend data, performance targets, and resources                 strategic goals and objectives. Under the consumer
                      utilized data for Goal 1 and Goal 2. Since Goal 3 applies            protection goal, for example, Performance Measure
                      to overall performance across the agency, the resources              1.1.1 counts consumer complaints added to the FTC’s
                      utilized for Goal 3 are distributed to Goal 1 and Goal               database, and Performance Measure 1.1.2 indicates
                      21. This section also contains the results of a program              the percentage of the agency’s consumer protection
                      evaluation in the Office of International Affairs.                   law enforcement actions that targeted the subject
                      For a summary of the agency’s mission and a                          of consumer complaints. While these measures are
                      description of the organizational structure, see the                 not outcome-oriented, they bring the FTC closer to
                      Management’s Discussion and Analysis Section.                        determining its role in the ultimate desired outcome
                                                                                           of a marketplace free of unfair practices that cause
                      The goals, objectives, and performance measures                      consumer injury and free of fraud and deception.
                      reported in this PAR are based on the agency’s
                      strategic plan, which became effective in FY 2010.
                                                                                           Verification and Validation of
                      In FY 2012 the agency updated the strategic plan
                      with an addendum, reflecting interim adjustments                     Performance Data
                      to several performance measures and targets.                         The financial data and performance results described in
                      The performance tables that follow present seven                     this report enable the FTC to administer its programs,
                      fiscal years of performance results and targets,                     gauge their success, and make adjustments necessary to
                      except for those performance measures first added                    improve program quality for the public. The Message
                      in the latest strategic plan update. These newest                    from the Chairman on p. IV provides that the FTC’s
                      performance measures are presented starting in FY                    financial and performance data presented in this
                      2010. Measures or performance targets that changed                   report are complete and reliable. New for FY 2012,
                      as a result of the addendum are noted throughout the                 Appendix A provides details on the data quality of
                      section where applicable. The addendum to the                        each performance measure. Additionally, the following
                      strategic plan is available at                                       steps outline how the agency ensures the performance
                      www.ftc.gov/opp/gpra/spfy09fy14add.pdf.                              information it reports is complete and reliable:

                      Relationship of Outputs                                                   • The FTC has adopted a central internal
                                                                                                  repository for performance data entry,
                      to Outcomes                                                                 reporting and review. The electronic data tool
                      The FTC continuously reviews its performance                                reduces human error, increases transparency,
                      framework and focuses on tracking and reporting the                         and increases review by senior management.
                      most appropriate and meaningful outcome measures to
                                                                                                • The Office of the Inspector General holds
                      show effectiveness, efficiency, and results. For example,
                                                                                                  annual meetings with BC and BCP to review
                      outcome-based Performance Measures 2.1.2 and 2.1.5
                                                                                                  their performance measure methodology and
                      estimate the millions of dollars in consumer savings
                                                                                                  analysis.
                      1
                       goal 3’s costs are distributed to goal 1 and goal 2 predominately
                      by goal 1’s and goal 2’s fte usage, except for those non-pay costs
                      that are clearly attributable to a specific goal.



       36                                    Federal Trade Commission | Performance and Accountability Report
     • The agency has developed policy and                  quality checks are in place, and accurately reporting




                                                                                                                         performance section
       documented the procedures used to ensure             performance management data.
       timely reporting of complete, accurate,
       and reliable actual results relative to the key
                                                            Strategic Human Capital
       performance measures.
                                                            Management
     • The agency holds program managers
       accountable to set meaningful and realistic          The FTC’s strategic human capital management
       targets that also challenge the agency to leverage   ensures that the agency has the diverse, skilled
       its resources. This includes ensuring ongoing        workforce needed to advance its mission, achieve its
       monitoring of performance targets so they            strategic goals and objectives, and meet performance
       are updated to reflect changes in key factors        measure targets. The agency conducts human capital
       that impact the agency’s ability to achieve such     planning in concert with long-term strategic planning
       results. Further, when appropriate, program          and annual performance planning to keep human
       managers are required to explain how they will       capital goals, policies, programs, and initiatives aligned
       improve performance when targets are not met.        with the strategic and performance plans.

     • The agency conducts quarterly performance            Human capital planning encompasses leadership and
       measurement reviews with management                  knowledge management, a results-oriented performance
       as well as periodic senior management and            culture, talent management, and job satisfaction, which
       commission review throughout the fiscal year.        are evaluated annually by the U.S. Office of Personnel
       This process includes substantiating that actual     Management’s Employee Viewpoint Survey. More
       results reported are indeed correct whenever         detailed information on human capital performance
       those results reveal significant discrepancies or    goals and results are provided on page 94.
       variances from the target.

                                                            Program Evaluation: ASEAN
Agency program managers also monitor and maintain
                                                            Competition and Consumer
automated systems and databases that collect, track,
and store performance data, with support provided by        Protection Program
the FTC’s Office of the Chief Information Officer.          The Association of Southeast Asian Nations
In addition to the general controls in place over the       (ASEAN) Competition and Consumer Protection
network that ensure only authorized staff can access        Program, funded by the U.S. Agency for International
key systems, each application (system)—such as the          Development (USAID) and implemented by the FTC
Consumer Sentinel Network—incorporates internal             and the Department of Justice, provided technical
validation edits to ensure the accuracy of data contained   assistance to ASEAN and certain of its member states
therein. These application edits include checks for         to develop sound competition and consumer protection
reasonableness, consistency, and accuracy. Crosschecks      policy and law enforcement capacity. USAID found
between other internal automated systems also provide       that the Program was very effective, especially in
assurances of data reasonableness and consistency.          Vietnam, and was well utilized by institutions such
In addition to internal monitoring of each system,          as the Vietnam Competition Authority (VCA) and
experts outside of the business units (e.g., the Bureaus    the ASEAN Secretariat. Particular strengths of the
of Consumer Protection and Competition) routinely           project that were identified included the utilization of
monitor the data collection. For example, senior            internal U.S. government technical expertise; the use
economists from the Bureau of Economics review              of a regional approach, in this case by working through
statistical data used by the Bureau of Competition to       ASEAN to institutionalize competition policy and law
calculate performance results.                              as a key ASEAN objective; using that to garner interest
                                                            and create multilateral pressure for the adoption of
The Financial Management Office is responsible for          international best practices in the field; and the cost-
providing direction and support on data collection          effective combination of different technical assistance
methodology and analysis, ensuring that data                mechanisms such as resident advisors, training, and

                                                     fiscal year   2012                                                  37
                      workshops, and an internship/fellowship opportunity at   In addition to the high marks given to the Program
performance section
                      the FTC.                                                 by its recipient institutions, evidence of beneficial
                                                                               impact at the outcome level is provided by the World
                      Providing technical assistance to develop effective      Economic Forum’s Global Competitiveness Index,
                      competition and consumer protection law and policy       in which Vietnam improved its rank for “Effectiveness
                      in less developed countries is important because         of Anti-Monopoly Policy” from 100th out of 131
                      competition and consumer protection law and policy       countries in 2007-2008 when the ACCP first began its
                      can enhance consumer welfare by facilitating lower       focus there, to 58th out of 139 countries in the
                      prices, market entry, consumer choice, and innovation.   2010-2011 rankings. However, other variables that
                      Sound competition enforcement also helps realize the     effective competition policy is expected to affect,
                      goals of trade agreements by helping define the “rules   including scores for “intensity of local competition,”
                      of the game” for foreign investors and providing         remained largely unchanged in Vietnam over that
                      some assurance that competition law will not be used     period.
                      to punish successful businesses or protect domestic
                      interests.




                        leGeNd fOr uPcOMiNG PerfOrMaNce SecTiON TableS

                       ✔       Signifies that the target is met or exceeded


                       ✖       Signifies that the target is not met




       38                                Federal Trade Commission | Performance and Accountability Report
                                                                                                               performance section
Performance Measure Summary Tables
The tables that follow capture FY 2012 targeted performance compared to actual results and units of measure.


STRATEGIC GOAL 1: PROTECT CONSUMERS

 Objective 1.1 identify fraud, deception, and unfair practices that cause the greatest
 consumer injury




                                                               Target               3.0 million complaints



 Performance measure 1.1.1 Complaints collected and
 entered into the Consumer Sentinel Network database.


                                                                                     5.8 million complaints
                                                               actual
                                                                                              ✔




                                                               Target                  70.0% of actions


         key measure 1.1.2 The percentage of the FTC’s
 consumer protection law enforcement actions that
 target the subject of consumer complaints to the FTC.

                                                                                       90.6% of actions
                                                               actual
                                                                                              ✔




                                                               Target               See (a) and (B) below


 Performance measure 1.1.3 The rate of customer
 satisfaction with the FTC’s Consumer Response Center.
                                                                                        (a) Exceeded
                                                                                              ✔
                                                               actual
                                                                                         (B) Exceeded
                                                                                              ✔
 Target: (a) For the website, exceed average citizen satisfaction rate as published in the E-Government
 Satisfaction Index
 (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
 Interagency Committee




                                                   fiscal year   2012                                          39
performance section
                      Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices through
                      law enforcement


                                                                                   Target            80.0–90.0% of cases
                               key measure 1.2.1 The percentage of all cases
                      filed by the FTC that were successfully resolved
                      through litigation, a settlement, or issuance of a default
                                                                                                       100.0% of cases
                      judgment.                                                    actual
                                                                                                               ✔

                                                                                            Statistically significant decrease in the
                                                                                   Target
                      Performance measure 1.2.2 The FTC’s effectiveness in                        prevalence of the practice.
                      stopping prohibited business practices in three high
                      priority areas over the next five years.
                                                                                   actual                  On track



                                                                                   Target               90.0% of cases
                      Performance measure 1.2.3 The percentage of redress
                      cases in which the FTC distributes redress dollars
                      designated for distribution to consumers within six
                      months.                                                                           95.0% of cases
                                                                                   actual
                                                                                                               ✔

                      Performance measure 1.2.4 Investigations or cases            Target         30 investigations or cases
                      in which the FTC obtains foreign-based evidence or
                      engages in mutual assistance that contributes to FTC
                      law enforcement actions, or in which we cooperate with                      56 investigations or cases
                      foreign agencies and/or multilateral organizations.          actual
                                                                                                               ✔




       40                                Federal Trade Commission | Performance and Accountability Report
                                                                                                                performance section
Objective 1.3: Prevent consumer injury through education



                                                         Target               50 million messages

Performance measure 1.3.1 Consumer protection
messages accessed online or in print.
                                                                             39.4 million messages
                                                         actual
                                                                                       ✖

                                                                     Exceed average citizen satisfaction rate
                                                                     as published in the American Customer
                                                         Target
                                                                        Satisfaction Index E-Government
                                                                                Satisfaction Index
        key measure 1.3.2 Customer satisfaction rate
with an FTC consumer education website or microsite.
                                                                                    Exceeded
                                                         actual
                                                                                       ✔


                                                         Target               12,000 organizations

Performance measure 1.3.3 Organizations requesting
consumer education publications.
                                                                              11,298 organizations
                                                         actual
                                                                                        ✖




                                                fiscal year   2012                                              41
performance section
                      Objective 1.4: enhance consumer protection through research, reports, rulemaking,
                      and advocacy


                                                                                     Target   8 workshops and conferences
                      Performance measure 1.4.1 Workshops and conferences
                      convened or cosponsored that address consumer
                      protection problems.
                                                                                              14 workshops and conferences
                                                                                     actual
                                                                                                           ✔


                                                                                     Target      6 comments and briefs
                      Performance measure 1.4.2 Advocacy comments and
                      amicus briefs on consumer protection issues filed with
                      entities including federal and state legislatures, agencies,
                      or courts.                                                                 8 comments and briefs
                                                                                     actual
                                                                                                           ✔


                                                                                     Target       75.0% of respondents
                      Performance measure 1.4.3 The percentage of
                      respondents finding the FTC’s advocacy comments and
                      amicus briefs “useful.”
                                                                                     actual                N/A




                             key measure 1.4.4 The percentage of proposed            Target       75.0% of rulemakings
                      Administrative Procedure Act (APA) rulemakings,
                      conducted solely by the FTC, completed within nine
                      months of receipt of final comments in the Final Notice
                      of Proposed Rulemaking.                                        actual                N/A




       42                               Federal Trade Commission | Performance and Accountability Report
                                                                                                            performance section
Objective 1.5: Protect american consumers in the global marketplace by providing
sound policy and technical input to foreign governments and international
organizations to promote sound consumer policy


                                                           Target              60 policy inputs
         key measure 1.5.1 Policy advice provided to
foreign consumer protection and privacy agencies,
directly and through international organizations,
through substantive consultations, written submissions,
                                                                               65 policy inputs
or comments.                                               actual
                                                                                      ✔

                                                                      8 technical assistance missions or
                                                           Target
                                                                         international Fellows hosted
Performance measure 1.5.2 Technical assistance to
foreign consumer protection and privacy authorities.
                                                                      18 technical assistance missions or
                                                           actual         international Fellows hosted
                                                                                      ✔




                                                       national do not Call
                                                       registry
                                                  The FTC manages the National Do Not Call
                                                  Registry, which protects consumers from
                                                  receiving unwanted commercial telemarketing
                                                  calls from legitimate marketers, who honor
                                                  the system and recognize the importance of
                                                  respecting consumer choice. The Registry
 empowers consumers to take charge of the commercial telemarketing calls they receive, and
 currently has over 217 million active telephone number registrations. It’s fast and free to register
 a number and registrations never expire. Consumers can register online at: www.donotcall.gov, or
 call toll-free: 888-382-1222 (TTY 866-290-4236), from the number they wish to register.




                                                 fiscal year   2012                                         43
                      STRATEGIC GOAL 2: MAINTAIN COMPETITION
performance section

                      Objective 2.1: Take action against anticompetitive mergers and practices that may
                      cause significant consumer injury

                                key measure 2.1.1 Actions to maintain
                       competition, including litigated victories, consent          Target   40.0–60.0% of substantial investigations
                       orders, abandoned transaction remedies, restructured
                       transaction remedies, or fix-it-first transaction remedies
                       in a significant percentage of substantial merger and                    43.1% of substantial investigations
                                                                                    actual
                       nonmerger investigations.                                                                ✔

                                                                                    Target                $500.0 million
                       Performance measure 2.1.2 Consumer savings of at
                       least $500 million through merger actions to maintain
                       competition.                                                                       $504.9 million
                                                                                    actual
                                                                                                                ✔

                                                                                    Target                 $25.0 billion
                       Performance measure 2.1.3 Actions against mergers
                       likely to harm competition in markets with a total of at
                       least $25 billion in sales.                                                         $20.2 billion
                                                                                    actual
                                                                                                                ✖

                                                                                    Target                   1300.0%
                       Performance measure 2.1.4 Consumer savings of at least
                       six times the amount of FTC resources allocated to the
                       merger program. (Efficiency Measure)                                                  1492.4%
                                                                                    actual
                                                                                                                ✔

                                                                                    Target                 $450 million
                       Performance measure 2.1.5 Consumer savings of at
                       least $80 million through nonmerger actions taken to
                       maintain competition.                                                              $439.8 million
                                                                                    actual
                                                                                                                ✖

                                                                                    Target                  $12 billion
                       Performance measure 2.1.6 Actions against
                       anticompetitive conduct in markets with a total of at
                       least $8 billion in annual sales.                                                   $11.7 billion
                                                                                    actual
                                                                                                                ✖

                                                                                    Target                  2000.0%
                       Performance measure 2.1.7 Consumer savings of at least
                       four times the amount of FTC resources allocated to the
                       nonmerger program. (Efficiency Measure)                                               1,831.7%
                                                                                    actual
                                                                                                                ✖

                       Performance measure 2.1.8 The percentage of cases            Target               90.0% of cases
                       in which the FTC had at least one substantive contact
                       with a foreign antitrust authority in which the agencies
                       followed consistent analytical approaches and reached                                 100.0%
                       compatible outcomes.                                         actual
                                                                                                                ✔


       44                                Federal Trade Commission | Performance and Accountability Report
                                                                                                                  performance section
Objective 2.2: Prevent consumer injury through education

                                                             Target                 24.0 million hits
       key measure 2.2.1 Competition resources
accessed via the FTC’s website.
                                                                                    23.2 million hits
                                                             actual
                                                                                           ✖


Objective 2.3: enhance consumer benefit through research, reports, and advocacy


                                                                        4 workshops, seminars, conferences, and
                                                             Target
                                                                                       hearings
        key measure 2.3.1 Workshops, seminars,
conferences, and hearings convened or cosponsored
that involve significant competition-related issues.                      3 workshops, seminars, conferences,
                                                             actual                 and hearings
                                                                                           ✖

                                                             Target              8 reports and studies

        key measure 2.3.2 Reports and studies issued
on key competition-related topics.
                                                                                 9 reports and studies
                                                             actual
                                                                                           ✔


        key measure 2.3.3 Advocacy comments and              Target             10 comments and briefs
amicus briefs on competition issues filed with entities
including federal and state legislatures, agencies or
courts.                                                                         18 comments and briefs
                                                             actual
                                                                                           ✔

                                                             Target              75.0% of respondents
Performance measure 2.3.4 The percentage of
respondents finding the FTC’s advocacy comments and
amicus briefs “useful.”                                                          83.3% of respondents
                                                             actual
                                                                                           ✔

                                                             Target                  1.7 million hits
Performance measure 2.3.5 The volume of traffic on
www.ftc.gov relating to competition research, reports,
and advocacy.                                                                       3.4 million hits
                                                             actual
                                                                                           ✔




                                                   fiscal year   2012                                             45
performance section
                      Objective 2.4: Protect american consumers in the global marketplace by providing
                      sound policy recommendations and technical advice to foreign governments and
                      international organizations to promote sound competition policy


                              key measure 2.4.1 Policy advice provided to     Target                60 policy inputs
                      foreign competition agencies, directly and through
                      international organizations, through substantive
                                                                                                    146 policy inputs
                      consultations, written submissions, or comments.        actual
                                                                                                           ✔
                                                                                           10 technical assistance missions or
                                                                              Target
                                                                                               international Fellows hosted
                      Performance measure 2.4.2 Technical assistance
                      provided to foreign competition authorities.                         27 technical assistance missions or
                                                                              actual          international Fellows hosted
                                                                                                           ✔



                      STRATEGIC GOAL 3: ADVANCE PERFORMANCE

                      Objective 3.1: Provide effective human resources management

                                                                                          Exceed the government-wide results
                                                                                         on the Federal Human Capital Survey’s
                       Performance measure 3.1.1 The extent employees         Target
                                                                                         Results-Oriented Performance Culture
                       believe their organizational culture promotes                                     Index
                       improvement in processes, products and services,
                       and organizational outcomes.
                                                                                                       Exceeded
                                                                              actual
                                                                                                           ✔
                                                                                          Exceed the government-wide results
                                                                              Target     on the Federal Human Capital Survey’s
                               key measure 3.1.2 The extent employees think                    Talent Management Index
                       the organization has the talent necessary to achieve
                       organizational goals.
                                                                                                       Exceeded
                                                                              actual
                                                                                                           ✔




       46                               Federal Trade Commission | Performance and Accountability Report
                                                                                                             performance section
Objective 3.2: Provide effective infrastructure and security management


                                                           Target                75.0% rating
       key measure 3.2.1 A favorable Continuity of
Operations (COOP) rating.
                                                                                 90.0% rating
                                                           actual
                                                                                      ✔

                                                           Target         99.00% system availability
       key measure 3.2.2 Availability of information
technology systems.
                                                                          99.86% system availability
                                                           actual
                                                                                      ✔


Objective 3.3: Provide effective information resources management

        key measure 3.3.1 The percentage of                Target            80.0% of documents
Commission-approved documents in the FTC’s ongoing
and newly initiated proceedings available via the
Internet within 15 days of becoming part of the public                       80.2% of documents
record.                                                    actual
                                                                                      ✔


Objective 3.4: Provide effective financial and acquisition management


                                                                      Unqualified opinion on the financial
                                                           Target
                                                                                  statements
Performance measure 3.4.1 Independent auditor’s
financial statement audit results.
                                                                              Unqualified opinion
                                                           actual
                                                                                      ✔


                                                           Target         100.0% of Bureaus/Offices
        key measure 3.4.2 The percentage of Bureaus/
Offices that establish and maintain an effective, risk-
based internal control environment.
                                                                          100.0% of Bureaus/Offices
                                                           actual
                                                                                      ✔

                                                                         23.0% of total small business
                                                           Target
                                                                               eligible dollars
Performance measure 3.4.3 Performance against the
Small Business Administration’s government-wide small
business procurement goals.                                              57.7% of total small business
                                                           actual               eligible dollars
                                                                                      ✔




                                                 fiscal year   2012                                          47
                      STRATEGIC
                                                                                Obj
performance section

                      GOAL 1: PROTECT
                      CONSUMERS
                      Prevent fraud, deception, and unfair business practices
                      in the marketplace.


                      I. Strategic View
                      As the nation’s premier consumer protection agency,
                      the FTC strives to protect consumers by preventing
                      fraud, deception, and unfair business practices in the
                      marketplace. The agency implements five objectives to
                      achieve this goal.


                      oBJeCtive 1.1: identify fraud, deCePtion,
                      and unfair PraCtiCes that Cause the
                      greatest Consumer inJury.
                      The FTC identifies practices that cause consumer injury
                      by analyzing consumer complaint data it collects and
                      maintains in its Consumer Sentinel Network database,
                      holding public discussions, and monitoring the
                      marketplace.
                      oBJeCtive 1.2: stoP fraud, deCePtion,
                      unfairness, and other unlawful
                      PraCtiCes through law enforCement.
                      The FTC uses information gathered under Objective
                      1.1 to target its law enforcement efforts. Its law
                      enforcement program aims to stop and deter fraud
                      and deception, protect consumers’ privacy, increase
                      compliance with its consumer protection statutes and
                      rules, and return funds to harmed consumers.
                      oBJeCtive 1.3: Prevent Consumer inJury
                      through eduCation.
                      The FTC targets its education efforts to give consumers
                      the information they need to protect themselves from
                      injury and to explain to businesses how to comply with
                      applicable laws.




       48                                Federal Trade Commission | Performance and Accountability Report
To fulfill this objective, the FTC is using new             collected by the FTC via spam@uce.gov. Consumer




                                                                                                                      performance section
technologies creatively and building on its broad base of   complaint and spam records older than five years are
private and public sector partners. The agency continues    purged biannually. The agency augments identification
to collect consumer complaint information directly          of targets from its databases with other strategies for
through four principal sources: (1) a toll-free helpline    generating enforcement leads, such as ad monitoring,
(1-877-FTC-HELP); (2) an identity theft hotline             internet surfs (monitoring the internet for potentially
(1-877-ID-THEFT); (3) the National Do Not Call              false or deceptive advertising for a targeted product
Registry (1-888-382-1222); and (4) the online consumer      or service), and direct referrals from government and
complaint forms that support each of these efforts,         private sector partners.
as well as online forms dedicated to complaints from
members of the U.S. armed forces and to cross-border
                                                            Performance Results
fraud complaints. In addition, the FTC continues to
gather consumer complaint information from other            Performance Measure 1.1.1 ensures that the agency
sources, including other law enforcement agencies,          assimilates a large number of consumer complaints,
the Better Business Bureaus, and private entities.          including complaints about DNC violations. The agency
The agency makes this and other information accessible      receives these complaints from a variety of sources,
through the secure website of the Consumer Sentinel         including direct consumer complaints to the FTC and
Network (CSN), a unique investigative database of           complaints received by the FTC’s partners. In this
consumer complaints that is accessible to over 2,000        manner, the FTC collects robust information to inform
law enforcement partner agencies worldwide. The             its law enforcement efforts. Key Measure 1.1.2 ensures
CSN encompasses more than 20 million consumer               that FTC law enforcement actions target the subject
fraud, identity theft, financial, and Do Not Call (DNC)     of concerns identified by consumers. Performance
complaints that the agency has collected since July 2006.   Measure 1.1.3 ensures that the agency’s consumer
The FTC staff and law enforcement partners also have        response center is providing satisfactory service
the ability to search more than 312 million spam records    responding to consumers.




                                                   fiscal year   2012                                                 49
performance section




                                                       TO




                      raNK            caTeGOrY                    NuMber Of           PerceNT     cOMPared
                                                                  cOMPlaiNTS          Of TOTal     TO 2010
                                                                                     cOMPlaiNTS

                       1              identity Theft                  279,156              15%    i   From 19%


                       2             debt collection                  180,928              10%    i   From 11%


                                Prizes, Sweepstakes and
                       3
                                        lotteries
                                                                      100,208               6%    h   From 5%



                       4     Shop-at-Home and catalog Sales           98,306                5%    h   From 4%


                       5           banks and lenders                  89,341                5%    h   From 2%


                       6            internet Services                 81,805                5%        fg

                       7        auto related complaints               77,435                4%    h   From 1%



                       8             impostor Scams                   73,281                4%        fg

                       9     Telephone and Mobile Services            70,024                4%    h   From 3%


                              advance-fee loans and credit
                       10
                                   Protection/repair
                                                                      47,414                3%    h   From 2%




       50                      Federal Trade Commission | Performance and Accountability Report
                                                                                                     performance section
PERFORMANCE MEASURE 1.1.1

ComPlaints ColleCted and entered into the Consumer sentinel
network dataBase. (inPut measure – numBers shown in millions)**


   2014      *Target    3.0
                                TarGeT exceeded.
   2013      *Target    3.0     In FY 2012, the FTC added 5.8 million entries into its database,
                                exceeding the target of 3.0 million.
             *Target    3.0     The increased number of complaints in FY 2012 was driven by a
   2012                         continuing increase in the number of external data contributors
             actual     5.8     and consumers continuing to contact the FTC in ever increasing
                                numbers.

             Target     2.6     * Targets for FY12 - FY14 were increased based on projected future
                                performance as reported in the FTC’s FY 2012 Strategic Plan
   2011
                                Addendum.
             actual     4.0
                                **Effective FY 2011, “and inquiries” was dropped from this
                                performance measure.
             Target     2.5
   2010
             actual     3.1


             Target     1.8
  2009
             actual     3.3


             Target     1.8
  2008
             actual     3.1


             Target     1.0
  2007
             actual     1.1


             Target     1.0
  2006
             actual     1.0




                                    fiscal year   2012                                               51
performance section
                        K




                      2014   *Target      70.0%
                                                     TarGeT exceeded.
                      2013   *Target      70.0%      In FY 2012, 90.6%, or 58 of 64, of BCP’s actions targeted the subject
                                                     of consumer complaints to the FTC. Because BCP augments
                                                     identification of targets from its databases with other strategies for
                             *Target      70.0%
                                                     generating enforcement leads—such as ad monitoring, Internet surfs,
                      2012                           and direct referrals from government and private sector partners—
                             actual       90.6%      the results vary from year to year.
                                                     * Targets for FY12 - FY14 were increased based on projected future
                             Target       65.0%      performance as reported in the FTC’s FY 2012 Strategic Plan
                      2011                           Addendum.
                             actual       80.4%


                             Target       65.0%
                      2010
                             actual       95.9%


                             Target       65.0%
                      2009
                             actual       79.0%


                             Target       65.0%
                      2008
                             actual       71.0%


                             Target       50.0%
                      2007
                             actual       76.0%


                             actual        n/a
                      2006
                             Target        n/a




       52                    Federal Trade Commission | Performance and Accountability Report
                                                                                                                 performance section
PERFORMANCE MEASURE 1.1.3

the rate of Customer satisfaCtion with the ftC’s Consumer resPonse Center.
(outCome measure)


    2014           Target       See (A) and (B)
                                                    TarGeT MeT.
    2013           Target       See (A) and (B)     In FY 2012, the average citizen satisfaction score for
                                                    participating federal government websites was 74, and the
                                                    score for the FTC’s website was 75. The standard for call
                   Target       see (a) and (B)     centers was 74, and the FTC’s score was 79.



                                (a) exceeded
                                 (ftC score of
   2012                         75, benchmark
                                  score of 74)
                   actual
                                 (B) exceeded
                                 (ftC score of
                                79, benchmark
                                  score of 74)


                   Target       see (a) and (B)


                                (a) exceeded
                                 (ftC score of
   2011                         75, benchmark
                                  score of 74)
                   actual
                                 (B) exceeded
                                (ftC score of
                                77, benchmark
                                 score of 74)


                   Target       see (a) and (B)


                                (a) exceeded
                                 (ftC score of
   2010                         75, benchmark
                                  score of 74)
                   actual
                                 (B) exceeded
                                 (ftC score of
                                76, benchmark
                                  score of 74)

 Target: (a) For the website, exceed average citizen satisfaction rate as published in the ACSI’s E-Government
 Satisfaction Index.
 (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
 Interagency Committee.




                                                    fiscal year   2012                                           53
                      Obj                                         Performance Results
performance section
                                                                  Key Measure 1.2.1 ensures that the FTC successfully
                                                                  resolves cases, though it aims to file large, precedent
                                                                  setting cases when appropriate, including cases that
                                                                  raise challenging legal and factual issues. Performance
                                                                  Measure 1.2.2 ensures the agency’s success in
                                                                  changing business practices within priority areas and
                                                                  demonstrates the change through research methods.
                                                                  Performance Measure 1.2.3 ensures that the FTC
                                                                  returns redress dollars to consumers as quickly as
                                                                  possible. Dollars are considered “designated for
                                                                  distribution” when the FTC is in receipt of all funds,
                                                                  legal issues are resolved, and a usable claimant list is
                                                              s   ready. Performance Measure 1.2.4 helps gauge law
                                                                  enforcement efforts from an international perspective,
                                                                  including continuing to use and further develop powers
                                                                  authorized under the Undertaking Spam, Spyware, and
                                                                  Fraud Enforcement With Enforcers beyond Borders
                                                                  Act of 2006 (U.S. SAFE WEB Act) to achieve the
                                                                  objective.



                        Key




                      2014    *Target   80.0-90.0%
                                                      TarGeT exceeded.
                      2013    *Target   80.0-90.0%    Of the 128 cases resolved in FY 2012, all were successfully resolved
                                                      through litigation, a settlement, or issuance of a default judgment.
                                                      At the end of FY 2012, an additional 92 cases had not been resolved,
                              *Target   80.0-90.0%
                                                      and remained in litigation.
                      2012
                                                      While the agency significantly exceeded the target, setting the
                              actual      100.0%
                                                      target too high could discourage the filing of large, difficult, or
                                                      precedent-setting cases, including cases that raise challenging legal
                              Target    75.0-85.0%    and factual issues.
                      2011                            * Targets for FY12 - FY14 were increased based on projected future
                              actual      100.0%      performance as reported in the FTC’s FY 2012 Strategic Plan
                                                      Addendum.
                              Target    75.0-85.0%
                      2010
                              actual       99.2%




       54                     Federal Trade Commission | Performance and Accountability Report
                                                                                                                 performance section
PERFORMANCE MEASURE 1.2.2

the ftC’s effeCtiveness in stoPPing ProhiBited Business PraCtiCes in three high
Priority areas over the next five years. (outCome measure)

                      Statistically significant
                         decrease in the          TarGeT ON TracK, NOT YeT MeT.
   2014      Target
                        prevalence of the
                              practice.           The FTC is making progress to meet this 5-year target
                                                  going forward as described below.

                      Statistically significant   The three high priority areas fall under the realm of
                         decrease in the          deceptive “green” marketing claims. They are stopping
   2013      Target
                        prevalence of the         false and misleading claims for: bamboo textiles, energy-
                              practice            efficient windows, and “zero-VOC” paint.
                                                  The FTC is currently conducting two studies to examine
                            statistically         the agency’s effectiveness in stopping such misleading
                       significant decrease       advertising claims. The first study involves websites
             Target
                       in the prevalence of       marketing textiles purportedly made from bamboo. The
                           the practice.          FTC reviewed websites to establish a baseline of those
   2012                                           marketing “bamboo textiles,” charged four sellers with
                                                  making false claims about their products, and then sent 78
                                                  warning letters to companies that continued making these
             actual          on track.            claims. The FTC decided to undertake additional work in
                                                  this area before capturing the sample again. Because this
                                                  additional work is continuing, the FTC does not have final
                            statistically         results to report.
                       significant decrease       The FTC’s second study involves energy efficiency and cost
             Target
                       in the prevalence of       savings claims for replacement windows. The FTC staff
                           the practice.          created a baseline by identifying 29 websites that made
   2011                                           deceptive energy and cost savings claims for replacement
                                                  windows. The FTC issued complaints and entered consent
                                                  orders against five of the largest firms that allegedly made
             actual             n/a
                                                  these claims. The FTC staff then reviewed the websites,
                                                  finding 15 sellers were still making deceptive claims. The
                                                  FTC issued warning letters to those marketers and FTC
                                                  staff followed those letters with telephone calls. The FTC
                            statistically
                                                  staff surveyed the websites again and found that not only
                       significant decrease
             Target                               has there been a statistically significant decrease in the
                       in the prevalence of
                                                  prohibited practices, but the project has put an end to
                           the practice.
                                                  inflated energy and cost savings claims for replacement
   2010                                           windows on the Internet.
                                                  The FTC’s third study will examine the agency’s
                                                  effectiveness in stopping misleading “zero-VOC” claims for
             actual             n/a
                                                  paint.




                                              fiscal year   2012                                                 55
                      PERFORMANCE MEASURE 1.2.3
performance section
                      the PerCentage of redress Cases in whiCh the ftC distriButes redress
                      dollars designated for distriBution to Consumers within six months.
                      (effiCienCy measure)

                       2014     Target    90.0%
                                                   TarGeT exceeded.
                       2013     Target    90.0%    In FY 2012, in 19 of 20 cases or 95.0%, the FTC distributed redress dollars
                                                   designated for distribution to consumers within six months.

                                Target    90.0%    After multiple years of measuring the distribution of redress dollars, the target
                                                   appears to be appropriate.
                       2012
                                actual    95.0%


                                Target    90.0%
                       2011
                                actual    100%


                                Target    90.0%
                       2010
                                actual    96.0%




                                                                         ftC targets overhyPed
                                                                         advertising Claims
                                                                        In May 2012, the FTC announced that Skechers
                                                                        USA, Inc. agreed to pay $40 million to settle
                                                                        charges that the company deceived consumers
                                                                        by making unfounded claims that Shape-ups
                                                                        athletic shoes would help people lose weight
                                                                        and strengthen and tone their buttocks, legs,
                                                                        and abdominal muscles. The FTC also alleged
                                                                        Skechers made deceptive claims about its
                                                                        Resistance Runner, Toners, and Tone-ups shoes.
                        Consumers who bought these “toning” shoes will be eligible for refunds. The Skechers settlement
                        is part of FTC’s ongoing effort to stop overhyped advertising claims, and follows a similar
                        settlement with Reebok International Ltd. in September 2011, in which Reebok paid $25 million for
                        refunds as part of its settlement agreement with the agency. In August 2012, the FTC announced
                        that a settlement administrator is mailing approximately 315,000 checks to consumers who
                        bought these allegedly deceptively advertised toning shoes and apparel from the company. For
                        more information, please visit: www.ftc.gov/opa/2012/05/consumerrefund.shtm (Skechers) and
                        www.ftc.gov/opa/2012/08/reebok.shtm.




       56                             Federal Trade Commission | Performance and Accountability Report
                                                                                                                 performance section
PERFORMANCE MEASURE 1.2.4

investigations or Cases in whiCh the ftC oBtains foreign-Based evidenCe
or engages in mutual assistanCe that ContriButes to ftC law enforCement
aCtions or in whiCh we CooPerate with foreign agenCies and/or multilateral
organizations. (outPut measure)

 2014     Target      30
                              TarGeT exceeded.
 2013     Target      30      In FY 2012, the FTC cooperated with its foreign counterparts on consumer
                              protection and privacy matters to obtain evidence and other assistance for
                              the FTC’s investigations and litigation with numerous jurisdictions including
          Target      30      Australia, Canada, Costa Rica, the Dominican Republic, Germany, Ireland, Israel,
                              and the United Kingdom. Foreign agencies assisted the FTC in activities such
 2012                         as locating investigative targets and defendants, obtaining corporate records,
                              obtaining witness statements, and providing investigative information. The FTC
          actual      56      also provided assistance to numerous foreign entities, including pursuant to the
                              information sharing and investigative assistance provisions of the U.S. SAFE
                              WEB Act of 2006. In several instances, the information the FTC provided to the
                              foreign entity resulted in a parallel proceeding or reciprocal assistance to the
          Target      30
                              FTC.
 2011
          actual      53



          Target      30

 2010
          actual      39




                                                    ftC targets ComPanies
                                                    that misrePresent
                                                    PrivaCy assuranCes
                                                   Google Inc. agreed to pay a record $22.5
                                                   million civil penalty in August 2012 to settle
                                                   FTC charges that it misrepresented to users of
                                                   Apple Inc.’s Safari Internet browser that it would
                                                   not place tracking “cookies” or serve targeted
                                                   ads to those users, violating an earlier privacy
                                                   settlement between the company and the FTC.
  The settlement is part of the FTC’s ongoing efforts to make sure companies live up to the privacy
  promises they make to consumers, and is the largest penalty the agency has ever obtained
  for a violation of a Commission order. In addition to the civil penalty, the order also requires
  Google to disable all the tracking cookies it had previously said it would not place on consumers’
  computers. For more information, visit: www.ftc.gov/opa/2012/08/google.shtm.




                                              fiscal year   2012                                                 57
                      Obj                                                Performance Results
performance section
                                                                         Consumer and business education is crucial to prevent
                                                                         and reduce consumer harm. Performance Measure
                                                                         1.3.1 ensures that the FTC continue to promote
                                                                         educational activity and that the educational materials
                                                                         are aimed at new trends and at particularly vulnerable
                                                                         populations. Key Measure 1.3.2 ensures that the
                                                                         agency’s consumer education websites are effective
                                                                         and helpful for consumers. Performance Measure 1.3.3
                                                                         ensures that the FTC is publicizing its activities in the
                                                                         best way possible and that the agency has a wide array
                                                                         of partners to leverage resources.




                                                                       identity theft
                                                                       eduCational
                                                                       materials
                                                                        If your identity is stolen, what will you do? Do
                                                                        you know your rights? An identity thief can hijack
                                                                        your tax refund, alter your medical records, or
                                                                        prevent you from getting credit or a job. Kids
                                                                        can also be victims of identity theft, and thieves
                                                                        can even borrow money in your child’s name. In
                                                                        June 2012, the FTC offered updated information
                      explaining how to protect your child’s information and your own, and the immediate steps to
                      take to limit the damage identity theft can cause. “Taking Charge: What To Do If Your Identity
                      Is Stolen” is a step-by-step guide that includes sample letters, forms, and essential contact
                      information. A brochure, “Identity Theft: What To Know, What To Do” explains the basic steps of
                      protecting information and responding to identity theft. “Safeguarding Your Child’s Future” tells
                      parents how to protect their children’s information, find out if a credit report has been created for
                      them, and respond to problems. Information is also available in three new one-minute videos. For
                      more information, visit: www.ftc.gov/bcp/edu/microsites/idtheft2012.



       58                           Federal Trade Commission | Performance and Accountability Report
                                                                                                        performance section
PERFORMANCE MEASURE 1.3.1

Consumer ProteCtion messages aCCessed online or in Print. (outPut measure –
numBers shown in millions)


  2014     Target     50.0
                               TarGeT NOT MeT.
  2013     Target     50.0     In FY 2012, the FTC accomplished approximately 80% of its target of
                               50 million messages. Of the nearly 39.4 million consumer protection
                               messages accessed, more than 27.5 million were accessed online,
           Target     50.0
                               more than 1.1 million were accessed via video, and more than 10.7
  2012                         million were print publications distributed by the FTC. Of the
           actual     39.4     messages accessed, identity theft information perennially is the most
                               popular, followed by credit-based information. The mid-summer
           Target     50.0     release of new identity theft materials has boosted print distribution
                               numbers, as these materials are being marketed to libraries and
  2011                         community organizations.
           actual     41.4
                               While the number of print publications distributed remained
                               relatively static over many years, as more consumers and businesses
           Target     50.0     went online, the number of publications accessed through the
  2010                         Internet soared before leveling off in recent years. Also, the
           actual     43.9     results underestimate the FTC’s impact. The agency’s partners
                               are increasingly opting to post the FTC’s information on their own
                               websites, and the agency has also increasingly taken advantage of
           Target     55.0
                               the outreach potential of the “blogosphere.” The FTC is unable to
  2009                         measure the number of its consumer protection messages accessed
           actual     43.1     on partner websites or blogs.

           Target     50.0
  2008
           actual     49.2


           Target     45.0
  2007
           actual     47.0


           Target     25.0
  2006
           actual     53.0




                                    fiscal year   2012                                                  59
performance section
                                                                       Phantom deBt
                                                                       ColleCtion Cases
                                                                         The FTC has taken action against two operations
                                                                         that allegedly collected payday loan “phantom
                                                                         debts” that consumers did not owe. In February
                                                                         2012, the FTC brought a case against American
                                                                         Credit Crunchers, LLC, and in April 2012, the
                                                                         FTC brought a case against Broadway Global
                                                                         Master Inc., to halt their alleged fraudulent debt
                                                                         collection practices. In the American Credit
                                                                         Crunchers case, the FTC alleges consumers
                      received millions of collections calls from India, and that since January 2010, the operation took
                      in more than $5 million from victims. In the Broadway Global Master case, the FTC alleges that
                      the defendant made more than 2.7 million calls to at least 600,000 different phone numbers
                      nationwide, fraudulently collecting more than $5.2 million from consumers. Court orders have
                      temporarily stopped the illegal conduct and frozen both operations’ assets while the FTC moves
                      ahead with the cases and seeks refunds for consumers. For more information, visit:
                      www.ftc.gov/opa/2012/02/acc.shtm and www.ftc.gov/opa/2012/04/broadway.shtm.




       60                           Federal Trade Commission | Performance and Accountability Report
                                                                                                             performance section
  Key

                                                                                                        e.



                Exceed average citizen satisfaction
2014   Target        rate as published in the         TarGeT MeT.
                 E-Government Satisfaction Index
                                                      In FY 2012, the FTC continued to evaluate
                                                      www.OnGuardOnline.gov, a joint effort of
                Exceed average citizen satisfaction   the federal government and the technology
2013   Target        rate as published in the         industry, created, maintained, and marketed by
                 E-Government Satisfaction Index      the FTC to help computer users guard against
                                                      Internet fraud, secure their computers, and
                exceed average citizen satisfaction   protect their personal information. The average
                     rate as published in the         citizen satisfaction score for participating
       Target                                         federal government websites was 74, and the
                 e-government satisfaction index
                          (a score of 74)             score for www.OnGuardOnline.gov was 81.
2012                                                  The continued measurement of the website
                                                      over time has allowed the FTC to assess the
                            exceeded                  effect of website improvements on customer
       actual                                         satisfaction.
                         (ftC score of 81)



                exceed average citizen satisfaction
                     rate as published in the
       Target
                 e-government satisfaction index
                          (a score of 74)
2011

                            exceeded
       actual
                         (ftC score of 81)



                exceed average citizen satisfaction
                     rate as published in the
       Target
                 e-government satisfaction index
                          (a score of 74)
2010

                           exceeded
       actual
                        (ftC score of 77)




                                     fiscal year   2012                                                      61
                      PERFORMANCE MEASURE 1.3.3
performance section
                      organizations reQuesting Consumer eduCation PuBliCations. (outPut measure)


                        2014      *Target            12,600
                                                                      TarGeT NOT MeT.
                                                                     In FY 2012, 11,298 organizations requested publications
                        2013      *Target            12,300
                                                                     from the FTC, down from expected levels. It should be
                                                                     noted, however that the order site was inoperable for
                                                                     six weeks to protect against a security threat. Based
                                  *Target            12,000
                                                                     on estimates of orders lost during that time period, the
                        2012                                         goal would likely have been met had this action not
                                                                     been necessary. Nonetheless, in FY 2012 the agency did
                                  actual             11,298          see increased interest in new identity theft materials
                                                                     developed, including, “Taking Charge: What to Do If
                                                                     Your Identity Is Stolen.”
                                  Target             11,300          * Targets for FY12 - FY14 were increased based on
                                                                     projected future performance as reported in the FTC’s
                        2011
                                                                     FY 2012 Strategic Plan Addendum.
                                  actual             14,818



                                  Target             11,000

                        2010
                                  actual             15,372




                                                                  p




       62                         Federal Trade Commission | Performance and Accountability Report
                                                                        performance section
Obj          Performance Results
             Public policy that enhances consumer protection
             is based on a thorough understanding of complex
             issues, which arises from dialogue, study, and empirical
             research. Such policy also appreciates that stakeholders
             other than government, such as industry associations
             or private standard-setting organizations, are at
             times better positioned to address certain consumer
             protection issues. Performance Measures 1.4.1 through
             1.4.3, and Key Measure 1.4.4, allow the agency to gauge
             the success of this objective and help ensure that the
             agency augments its enforcement and education efforts
             by encouraging discussions among all interested parties,
             through careful study of and empirical research on
             novel or challenging consumer protection problems,
             by urging adoption of policies and legal principles
             that promote consumers’ interest, and by conducting
             rulemaking as appropriate. These activities help guide
             the FTC’s consumer protection policy decisions, as
             well as those of other state, federal, and international
             policymakers.




      fiscal year   2012                                                63
                      PERFORMANCE
performance section
                                                         2014       *Target      8
                      MEASURE 1.4.1                                                    TarGeT exceeded.
                                                                                       In FY 2012, the FTC exceeded
                                                         2013       *Target      8     its target and convened or
                      workshoPs and
                                                                                       cosponsored 14 workshops and
                      ConferenCes Convened or                                          conferences that addressed
                                                                    *Target      8
                      CosPonsored that address                                         consumer protection problems.
                                                         2012                          These events brought together
                      Consumer ProteCtion                           actual      14     approximately 1,500 participants.
                      ProBlems. (outPut measure)
                                                                                       * Targets for FY12 - FY14 were
                                                                   **Target      8     increased based on projected
                                                         2011                          future performance as reported in
                                                                                       the FTC’s FY 2012 Strategic Plan
                                                                    actual      14     Addendum.
                                                                                       ** This target change took effect for
                                                                    Target       6     FY 2011 reporting.
                                                         2010
                                                                    actual       11


                                                                    Target       6
                                                         2009
                                                                    actual       9


                                                                    Target       6
                                                         2008
                                                                    actual       16


                                                                    Target       6
                                                         2007
                                                                    actual      10


                                                                    Target      n/a
                                                         2006
                                                                    actual      n/a




       64                         Federal Trade Commission | Performance and Accountability Report
                                                                                              performance section
PERFORMANCE
                          2014    Target        6
MEASURE 1.4.2                                         TarGeT exceeded.
                                                      In FY 2012, the FTC filed advocacy
advoCaCy Comments         2013    Target        6     comments and amicus briefs on
                                                      consumer protection issues such
and amiCus Briefs on                                  as mortgage disclosures, the
Consumer ProteCtion                                   placement of unauthorized charges
issues filed with                 Target        6     on telephone bills, the regulation
                                                      of reloadable prepayment cards,
entities inCluding                                    debt collection practices under the
federal and state         2012                        Fair Debt Collection Act, and the
                                                      constitutionality of the Fair Credit
legislatures, agenCies,                               Reporting Act.
                                  actual        8
or Courts.                                            The agency exceeded the target
(outPut measure)                                      for filing consumer protection-
                                                      related briefs and comments. By
                                                      contrast, in FY 2011 the agency filed
                                  Target        6     only three consumer protection-
                                                      related briefs and comments, and
                                                      did not meet the target. These
                          2011                        performance results highlight the
                                                      inherent unpredictability of the
                                  actual        3     types and number of issues that
                                                      might arise before state and federal
                                                      government bodies and therefore
                                                      the types of comments and briefs
                                                      that the agency might file in
                                                      response.
                                  Target        6
                                                      The agency will continue to monitor
                                                      the target of this relatively new
                          2010                        measure and will reassess it after
                                                      additional performance cycles.
                                  actual        6




                                 fiscal year   2012                                           65
                      PERFORMANCE
performance section
                      MEASURE 1.4.3                       2014      *Target    75.0%
                                                                                         daTa NOT available.
                                                                                         The FTC mails advocacy recipients
                      the PerCentage of                                                  a survey designed to gauge the
                                                          2013      *Target    75.0%     usefulness of agency advocacy
                      resPondents finding the                                            comments and amicus briefs.
                      ftC’s advoCaCy Comments                                            “Usefulness” is assessed by the
                                                                                         recipient. The target percentage
                      and amiCus Briefs “useful.”                   *Target    75.0%     recognizes that comments
                      (outCome measure)                                                  critiquing a recipient’s proposed
                                                          2012                           action may not be assessed
                                                                                         positively. In FY 2012, no survey
                                                                                         responses were received regarding
                                                                    actual      n/a      the four advocacy comments.
                                                                                         Consideration of these four
                                                                                         comments by advocacy recipients
                                                                                         had not concluded by the end
                                                                    Target     50.0%     of FY 2012, highlighting the
                                                                                         unpredictability of whether a
                                                                                         survey response will be received.
                                                          2011
                                                                                         The FTC also provided four
                                                                    actual     100.0%    amicus briefs to courts regarding
                                                                                         consumer protection matters;
                                                                                         as noted in the Data Quality
                                                                                         Information Appendix, surveys are
                                                                                         not sent to courts. The agency will
                                                                                         continue to monitor the target of
                                                                    Target     50.0%     this relatively new measure and
                                                                                         will reassess it after additional
                                                                                         performance cycles.
                                                          2010                           * Targets for FY12 - FY14 were
                                                                                         increased based on projected
                                                                                         future performance as reported in
                                                                    actual     100.0%    the FTC’s FY 2012 Strategic Plan
                                                                                         Addendum.




                      Key
                                                          2014       Target     75.0%
                                                                                         There is no data to consider under
                                                          2013       Target     75.0%    this measure, as the FTC had no
                                                                                         APA rulemakings to consider in FY
                                                                                         2012.
                                                                     Target     75.0%
                                                          2012
                                                                     actual      n/a


                                                                     Target     75.0%
                                                          2011
                                                                     actual     83.3%


                                                                     Target     75.0%
                                                          2010
                                                                     actual    100.0%




       66                          Federal Trade Commission | Performance and Accountability Report
                The agency also focuses on understanding cutting-edge




                                                                              performance section
Obj
                issues in technology and globalization that present
                challenges to American consumer interests. The agency
                influences policy development and implementation by
                advising multilateral organizations, regional entities, and
                foreign government agencies through substantive
                consultations and written comments. And finally, the
                FTC provides technical assistance to newer consumer
                protection agencies to enhance their ability to apply
                sound consumer protection policies.

                Performance Results
                The FTC uses two measures to assess the performance
                of this objective. Key Measure 1.5.1 and Performance
                Measure 1.5.2 address the scope of agency contact with
                international counterparts and help determine if agency
                efforts are sufficiently broad-based.




      2014    *Target          60
Key                                  TarGeT exceeded.
                                     In FY 2012, the FTC provided
                                     policy advice in over 60
      2013    *Target          60
                                     instances, through consultations,
                                     presentations, and written
                                     comments. An increased focus
              *Target          60    on Internet policy and consumer
                                     privacy, both by foreign agencies
      2012                           and by a growing range of
                                     international organizations, has
              actual           65    sustained a strong demand for the
                                     FTC’s policy advice and technical
                                     input on consumer policy and
                                     related issues.
              Target           40
                                     * Targets for FY12 - FY14 were
      2011                           increased based on projected
                                     future performance as reported in
              actual           52    the FTC’s FY 2012 Strategic Plan
                                     Addendum.


              Target           40

      2010
              actual           64




         fiscal year    2012                                                  67
                      PERFORMANCE
performance section
                      MEASURE 1.5.2                      2014       Target          8       TarGeT exceeded.
                                                                                            In FY 2012, the FTC conducted
                      teChniCal assistanCe                                                  13 technical assistance missions
                                                                                            and hosted five international
                      to foreign Consumer                                                   fellows supporting the consumer
                                                         2013       Target          8       protection mission. The FTC
                      ProteCtion and
                                                                                            received funding from the
                      PrivaCy authorities.                                                  U.S. Agency for International
                      (outPut measure)                                                      Development to conduct consumer
                                                                   Target           8       protection technical assistance
                                                                                            missions in Central America, the
                                                         2012                               Dominican Republic, Vietnam,
                                                                                            and the ASEAN region as well
                                                                                            as to place a resident advisor in
                                                                   actual           18
                                                                                            South Africa. Four of the technical
                                                                                            assistance missions, the resident
                                                                                            advisor, and one international
                                                                                            fellow were funded by the
                                                                   Target           8
                                                                                            U.S. Agency for International
                                                                                            Development.
                                                         2011
                                                                   actual           15




                                                                   Target           8

                                                         2010

                                                                   actual          23




                      Resources Utilized—                          2007      2008        2009    2010      2011     2012
                      Strategic Goal 1
                                                     Full-Time
                      (DOLLARS SHOwN IN              Equivalents
                                                                    570      591         597      621       633      625
                      MILLIONS.)
                                                     Obligations    $126     $140        $152     $168     $166      $161


                                                     Net Cost      $105      $124        $131    $144      $155      $151


                                                    Note: Differences between these obligations and net costs and the
                                                    financial statements are due to rounding.




       68                         Federal Trade Commission | Performance and Accountability Report
                                                                                                          performance section
STRATEGIC
                                                           Obj


GOAL 2: MAINTAIN
COMPETITION
Prevent anticompetitive mergers and other
anticompetitive business practices in the marketplace.
I. Strategic View
A key function of the FTC is to protect and strengthen
the free and open markets that are the cornerstone of a
vibrant economy. Aggressive competition among sellers
in an open marketplace gives consumers the benefit
of lower prices, higher quality products and services,
maximum choice, and innovation leading to beneficial
new products and services. The FTC seeks to promote
vigorous competition by using the antitrust laws to
prevent anticompetitive mergers and to stop business
practices that diminish competition, such as agreements
among competitors about prices or other aspects of
competition (referred to as nonmerger enforcement).
The agency applies four related objectives to achieve
this broad-reaching goal.


                                                          the ftC ProteCts
                                                          against
                                                          antiComPetitive
                                                          taCtiCs that keeP out
                                                          ComPetition
                                                      The FTC is particularly vigilant where a firm may
                                                      be illegally using a dominant market position
   to stifle competition and raise prices, reduce product quality or choice, or reduce innovation.
   For example, in November 2011, the FTC settled charges that PoolCorp, the largest distributor
   of swimming pool products in the United States, used its monopoly power to thwart new
   distributors from entering the market by blocking them from buying pool products directly from
   manufacturers. According to the FTC, PoolCorp threatened manufacturers of pool products that
   PoolCorp would not sell their products at any of its distribution centers if the manufacturers
   sold their products to new distributor-rivals. The FTC charged that these anticompetitive tactics
   raised the costs incurred by its distributor-rivals, resulting in higher prices and reduced choices
   for consumers. The FTC’s settlement order prohibits PoolCorp from conditioning the purchase or
   sale of pool products, coercing manufacturers to stop selling or to limit their sales to any other
   distributor, and discriminating or retaliating against a manufacturer for selling, or intending to
   sell pool products to any other distributor. The FTC also required that PoolCorp put in place an
   antitrust compliance program to ensure it does not violate the terms of the order.



                                                   fiscal year   2012                                     69
                      Obj                                 II. Strategic Analysis
performance section
                                                          oBJeCtive 2.1: take aCtion against
                                                          antiComPetitive mergers and PraCtiCes
                                                          that may Cause signifiCant Consumer
                                                          inJury.
                                                          Taking action against anticompetitive mergers and
                                                          anticompetitive business conduct is the first step in
                                                          effective antitrust enforcement.


                                                          Our Strategy
                                                          The FTC seeks to identify and take action against
                                                          anticompetitive mergers and practices with as much
                                                          accuracy as possible. While certain business conduct
                                                          (such as price fixing among competitors) is clearly
                                                          anticompetitive, mergers and many other forms of
                                                          business conduct can benefit, harm, or have no effect
                                                          on consumers. Consequently, both under- and over
                                                          enforcement can harm consumers’ interests. The
                                                          agency seeks to take enforcement action against
                                                          transactions or practices that harm, or are likely to
                                                          harm, consumers. At the same time, the agency seeks
                                                          to avoid taking actions that prevent businesses from
                                                          completing transactions or engaging in practices
                                                          that fundamentally benefit consumers or have no
                                                          competitive effect. The FTC also tries to identify
                                                          enforcement targets as efficiently as possible so that




                                             p



       70              Federal Trade Commission | Performance and Accountability Report
it can devote the bulk of its resources to further          This is referred to as a “second request.” Because the




                                                                                                                        performance section
investigation of, and possible challenge to, the most       parties may consummate a transaction after substantially
problematic mergers and practices. A related, but           complying with the second request and waiting for a
important, consideration is to conduct each inquiry         short time period (usually 30 days), a second request
in a way that minimizes the cost or inconvenience to        investigation typically requires a significant investment
businesses, while still enabling the agency to gather       of resources by the FTC. The agency must act quickly
sufficient information to support each enforcement          to gather and review information to make a decision
decision. Given the agency’s limited resources, the         on whether to pursue enforcement action to block a
FTC directs much of its attention and resources to          merger within the timeframe set out by the HSR Act
certain segments of the economy that are particularly       and rules.
important to consumers and in which it has particular
expertise. These include health care, pharmaceuticals,      To stop potentially anticompetitive mergers and
technology, energy, and real estate.                        practices through law enforcement, the FTC seeks
                                                            legal remedies under the antitrust laws through
MERGER ACTIVITIES                                           federal court action, administrative proceedings,
The premerger notification requirements of the              or negotiated settlements. For mergers, the most
Hart-Scott-Rodino (HSR) Act provide the FTC with            effective and cost efficient strategy has been to prevent
an effective starting point for identifying potentially     anticompetitive mergers before they occur. The agency
anticompetitive mergers, acquisitions, and joint            has implemented this strategy primarily through its
ventures (collectively referred to as mergers) before       authority to seek federal court injunctions preventing
they are consummated. The HSR Act requires                  these transactions. In many cases, the merging parties
companies to report certain proposed mergers to the         elect not to defend a court challenge and instead
FTC and the DOJ, which jointly enforce the HSR              agree to resolve competitive concerns through a
Act, and wait for a specified period (usually 30 days)      consent agreement. This approach is suitable when
to allow for antitrust review. FTC staff examines each      the competitive problem relates to only a portion of
transaction to determine whether it poses a threat to       the transaction, such that a divestiture of assets will
competition. In most cases, a reasonable judgment can       be sufficient to preserve or restore competition while
be made about whether the merger has the potential to       allowing other competitively neutral or beneficial
be anticompetitive based on the materials filed with the    aspects of the merger to go forward. In other instances,
HSR Act notification. In other cases, a formal request      the parties may abandon a transaction after assessing
for additional information may be issued by the FTC.        the likely outcome of an FTC court challenge.




                                                           sCrutinizing energy
                                                           mergers
                                                   The Federal Trade Commission is committed
                                                   to promoting competition in the energy sector.
                                                   In May 2012, the FTC accepted a consent order
                                                   which required Kinder Morgan, Inc., one of the
                                                   largest U.S. transporters of natural gas and
                                                   other energy products, to sell three natural gas
   pipelines, two gas processing plants and associated storage capacity in the Rocky Mountain
   region. This divestiture settled FTC charges that Kinder Morgan’s $38 billion acquisition of El
   Paso Corporation would be anticompetitive, harming competition in the markets for the pipeline
   transportation and processing of natural gas.




                                                   fiscal year   2012                                                   71
                      When a merger already has been consummated, the             NONMERGER ACTIVITIES
performance section
                      FTC generally relies on administrative litigation to        In the nonmerger area, agency staff reviews complaints
                      restore competition lost as a result of the merger.         received from consumers, businesses, Congressional
                      While the major HSR Act amendments in 2001                  offices, and elsewhere to identify potentially
                      reduced the number of mergers subject to the                anticompetitive nonmerger business practices.
                      advance reporting requirement, they did not change          In addition, the FTC has pursued a “positive agenda”
                      the standard of legality for mergers. Whereas the vast      of planned initiatives; that is, the agency has taken a
                      majority of potentially problematic mergers continue        systematic and proactive approach to identify specific
                      to be subject to the revised HSR filing requirements,       conduct likely to pose the greatest threat to consumer
                      smaller merger transactions may still be anticompetitive.   welfare. The focus continues to be on the types of
                      Consequently, the FTC continues to devote attention to      practices, such as agreements among competitors, which
                      the identification of unreported, usually consummated,      are most likely to harm consumers.
                      mergers that could harm consumers. In FY 2012, the
                      agency successfully resolved a challenge to one such        In deploying its enforcement resources, the agency
                      transaction. This effort involves monitoring trade press,   focuses on sectors of the economy, such as health
                      industry sources, and the internet to stay informed of      care, energy, real estate, or high technology, that have
                      industry developments; following up on case leads from      a significant impact on consumers’ daily lives. Also,
                      Congressional offices, other Executive Branch agencies,     the agency considers the deterrent effects of antitrust
                      and state and local governments; and encouraging            enforcement on businesses and whether the FTC has
                      consumers, businesses, and attorneys to notify the          enforcement experience in an area that will enable the
                      FTC of possible anticompetitive mergers.                    agency to make an impact quickly and efficiently. Finally,
                                                                                  consideration is given to whether the matter presents an
                                                                                  opportunity to contribute positively to the development
                                                                                  of antitrust law.




                                                                                  p




                         prices that were otherwise likely to result from the acquisitions.



       72                                Federal Trade Commission | Performance and Accountability Report
In nonmerger matters, the FTC seeks to take action            harm before an adjudicative body. When the FTC




                                                                                                                            performance section
against ongoing activity that harms competition. The          concludes that the likelihood of such harm indicates
FTC may initiate administrative proceedings before an         a law violation, and no settlement is possible, the FTC
Administrative Law Judge to adjudicate the issues and         authorizes its staff to litigate the matter. The frequency
establish a basis for an order that the parties “cease and    with which the agency prevails in litigation or secures
desist” from anticompetitive conduct. The FTC also has        a consent order to restore competition is an important
the authority to seek relief in federal courts, although it   indicator of its success in producing tangible benefits
historically has used this option sparingly in nonmerger      for consumers.
matters. Again, the agency is often able to negotiate a
consent agreement with the parties that remedies the          This is not to say that the FTC, or any law enforcement
problem without need for litigation.                          agency, should win every case. The FTC issues
                                                              complaints when, based on the findings of staff
In both merger and nonmerger matters, thorough                investigations, it has “reason to believe” a merger or
investigation and sophisticated legal and economic            conduct is anticompetitive. Some cases involve very
analysis are of critical importance to ensure accurate        close issues, on which reasonable minds can and do
assessment of the potential for competitive harm              differ. Other cases may be very difficult from a litigation
resulting from the transaction or conduct in question         standpoint, but are still worth pursuing.
and, if necessary, demonstrate the likelihood of



                                                          key ruling in a
                                                          “Pay-for-delay”
                                                          PharmaCeutiCal
                                                          Patent settlements
                                                          Case
                                                      One of the FTC’s top priorities is restricting
                                                      anticompetitive “pay-for-delay” patent
   settlements, as these agreements between branded manufacturers and generic competitors
   delay the availability of low-cost generic drugs. As a part of this effort in 2011, the FTC filed an
   amicus brief before the U.S. Court of Appeals for the Third Circuit in support of private class
   action plaintiffs that challenged the legality of these patent settlements between branded and
   generic manufacturers of the high blood pressure medication K-Dur 20. The FTC’s brief argued
   that the district court’s analysis conflicted with basic antitrust principles because it would allow
   branded companies to pay generic companies to stay out of the market until patent expiration. In
   July 2012, the Third Circuit reversed the district court ruling, as the FTC had urged, and held that
   a reverse payment from a branded drug manufacturer to a generic competitor is “prima facie
   evidence of an unreasonable restraint of trade.”

   FTC Chairman Jon Leibowitz issued the following statement about the ruling: “The Third Circuit
   Court of Appeals seems to have gotten it just right: These sweetheart deals are presumptively
   anticompetitive. As our Bureau of Economics has estimated, they cost American consumers $3.5
   billion a year in higher health care costs. Restricting these arrangements, as many in Congress
   have proposed, would reduce federal government debt by $5 billion over 10 years, according to
   the Congressional Budget Office. It’s time for the pharmaceutical companies to return to the side
   of consumers.”




                                                     fiscal year   2012                                                     73
                      The FTC’s antitrust challenges are defended by highly       setting the range at too high a level could be detrimental
performance section
                      competent and well-financed counsel. In addition, the       if the effect were to deter the agency from bringing
                      FTC’s responsibilities include taking action to help        important, but risky, cases, while setting the range at
                      shape the development of the antitrust laws. To fulfill     too low a level could be detrimental as well, if the effect
                      this duty, the agency inevitably must bring cases that      were to incentivize the agency to bring marginal cases.
                      pose litigation risks, especially where there is no clear
                      precedent and the FTC is seeking to establish a new         Of the remaining measures under this objective, six
                      legal principle. The FTC also helps consumers and           relate directly to Performance Measure 2.1.1 in that
                      businesses by bringing cases to clarify, or improve upon,   they measure the impact of the agency’s actions, in
                      existing precedent.                                         terms of the magnitude of the affected markets and the
                                                                                  associated consumer benefits, as well as the efficiency
                                                                                  with which these same actions were undertaken.
                      Performance Results
                                                                                  Whereas the consumer savings measures are designed
                      The key performance measure under this objective            to assess the ultimate outcome, or impact, of the
                      relates to actions taken in a significant percentage of     FTC’s actions in protecting consumers and promoting
                      substantial merger and nonmerger investigations.            vigorous competition, by quantifying the impact of the
                      This translates into obtaining a positive result (i.e.,     FTC’s enforcement actions on consumer welfare, the
                      litigated victories, consent orders, or abandoned           volume of commerce measures are intended to give an
                      transactions) in 40 to 60 percent of investigations that    indication of the economic significance of the relevant
                      involved a second request or compulsory process, in         product markets.
                      the case of merger investigations, or which involved at
                      least 150 hours of investigative effort, in the case of     For both merger and nonmerger actions, the FTC
                      nonmerger investigations.                                   measures the volume of commerce and estimates
                                                                                  consumer savings in markets in which it obtains a
                      Success on this key outcome measure indicates that          positive result as an indicator of the scope of the FTC’s
                      the FTC is effectively screening HSR reported mergers       antitrust enforcement activities. External factors, such
                      and nonmerger investigations to identify those that         as level of merger activity, and internal ones, such as
                      raise significant antitrust issues and warrant further      the duration of nonmerger investigations, may cause
                      investigation and possible enforcement action, while        these results to fluctuate significantly from year to year.
                      at the same time permitting deals or conduct that           Consequently, the two volume-of-commerce targets
                      are neutral or beneficial to consumers to proceed           (Performance Measures 2.1.3 and 2.1.6) and the two
                      unimpeded. This measure evaluates appropriate               consumer savings targets (Performance Measures 2.1.2
                      investigation, case selection, and resolution, as well as   and 2.1.5) are assessed each year by calculating the
                      the crafting of sufficient and effective remedies.          average of current year plus the previous four years.
                                                                                  In addition to measuring consumer savings in absolute
                      The target range of 40 to 60 percent set for key            terms, the agency uses efficiency measures that state
                      Performance Measure 2.1.1 reflects the reality that         the FTC will try to save consumers more than the
                      the FTC conducts substantial merger and nonmerger           amount of agency resources allocated to the merger and
                      investigations when it believes that a merger or            nonmerger programs (Performance Measures 2.1.4 and
                      conduct may be anticompetitive, but that not all such       2.1.7).
                      investigations should lead to an enforcement action or
                      a positive result. Indeed, the existence of a minimum       The final measure under this objective addresses
                      and maximum value recognizes the possibility that           the international dimension of the agency’s law
                      the FTC may find itself under- or over-enforcing            enforcement efforts by tracking the percentage of cases
                      the competition laws, while the magnitude of the            in which the FTC had at least one substantive contact
                      spread between these two values serves to identify a        with a foreign antitrust authority in which the agencies
                      band within which the agency’s performance can be           followed consistent analytical approaches and reached
                      reasonably expected to vary. From this perspective,         compatible outcomes.




       74                                 Federal Trade Commission | Performance and Accountability Report
                                                                                                         performance section
       Key




2014   Target   40.0–60.0%   TarGeT MeT.
                             The agency took action to maintain competition in 25 of the 58
                             substantial merger and nonmerger investigations that were closed
                             in FY 2012. These 25 actions consist of 19 consents, five merger
2013   Target   40.0–60.0%   transactions that were withdrawn or abandoned as a consequence
                             of the antitrust concerns raised during the investigation, and one
                             matter won on appeal. This corresponds to 20 merger matters and five
                             nonmerger matters.
                             On the merger side this includes successful second request or
       Target   40.0–60.0%   compulsory process investigations in matters involving, for example,
                             pharmaceuticals (Valeant/OrthoDermatologists/Dermik Laboratories,
                             and Teva/Cephalon), hospitals, long-term care pharmacies, and
2012                         physician groups (Rockford Memorial/St. Anthony Medical Center,
                             Omnicare/PharMerica and Renown Health/Reno Heart Physicians),
                             high technology (Western Digital/Hitachi), manufacturing (Graco/
       actual     43.1%      Illinois Tool Works) and energy mergers (Kinder Morgan/El Pasoand
                             Amerigas/ETP).
                             On the nonmerger side, the FTC took action against anticompetitive
                             tactics that harmed consumers by thwarting competition. In November
                             2011, the FTC issued a settlement order prohibiting PoolCorp (the
                             U.S.’s largest swimming pool products distributor) from restricting the
       Target   40.0–60.0%   purchase or sale of pool products to any other distributor. In August
                             2012, the FTC settled price-fixing charges with a group of pharmacy
                             owners in Puerto Rico. Also, in FY 2012 the FTC successfully concluded
                             its litigation against Realcomp II Ltd. (a Michigan-based realtor group)
2011                         when the U.S. Supreme Court denied Realcomp’s request to reconsider
                             an FTC finding that the realtor group violated competition law by
                             restricting the publication of certain low-cost real estate listings. The
       actual     34.1%*     denial leaves in place a Sixth Circuit ruling from April 2011 backing the
                             FTC’s decision that Realcomp’s policy of blocking nontraditional, low-
                             cost listings from being published through their realtor data service
                             narrowed consumer choice and hindered the competitive process by
                             improperly limiting consumers’ access to information about those
                             properties.
       Target   40.0-60.0%   Of the 33 substantial investigations that were closed without an action,
                             which includes litigation losses, 21 involved a nonmerger matter and 12
                             a merger matter.
2010                         *This is a correction to results reported in the FY 2011 PAR. The results
                             should have been based on 15 out of 44 cases, or 34%. The FY 2011 PAR
                             reports actuals on 14 of 44 cases, or 32%.
       actual     40.0%




                                    fiscal year   2012                                                   75
performance section
                      performance




                      2014      Target          $500.0
                                                             TarGeT exceeded.
                      2013      Target          $500.0       In FY 2012, the FTC has saved consumers an estimated
                                                             $504.9 million, as calculated using the average consumer
                                                             savings for the current fiscal year and the previous four
                                Target          $500.0
                                                             years.
                      2012
                                actual          $504.9       * This is a correction to results reported in the FY 2011
                                                             PAR. The results should have been based on a savings
                                                             of $532.2 (million). The FY 2011 PAR reports savings of
                                Target          $500.0       $531.5 (million).
                      2011
                                actual          $532.2*


                                Target          $500.0
                      2010
                                actual          $586.0


                                Target          $500.0
                      2009
                                actual          $791.0


                                Target          $500.0
                      2008
                                actual          $360.0


                                Target          $500.0
                      2007
                                actual          $805.0


                                Target           n/a
                      2006
                                actual           n/a




       76                    Federal Trade Commission | Performance and Accountability Report
PERFORMANCE MEASURE 2.1.3




                                                                                                             performance section
aCtions against mergers likely to harm ComPetition in markets with a total of
at least $25 Billion in sales. (outCome measure - numBers shown in Billions)

 2014   Target   $25.0
                         TarGeT NOT MeT.
 2013   Target   $25.0   The FTC’s positive merger results affected markets in which the total estimated
                         volume of commerce was approximately $20.2 billion, or 80.8% of the
                         annual target, as calculated using the average of the current fiscal volume of
        Target   $25.0
                         commerce year and the previous four years. During FY 2012, the FTC obtained
 2012                    positive results in 20 merger matters, resulting in 15 consent agreements, and
        actual   $20.2   five transactions that were either abandoned or restructured based on the
                         antitrust concerns raised by staff during the course of the investigation. In the
        Target   $25.0   case of consent agreements, the actions taken by the FTC consist primarily of
                         structural remedies, accompanied in some cases by conditions restricting the
 2011                    future conduct of the merged entity.
        actual   $22.7
                         It should be noted that there were four additional merger investigations,
                         which were resolved with a consent, fix-it-first, restructured, or abandoned
        Target   $25.0
                         transactions, but were excluded from this measure because they did not
 2010                    involve the use of compulsory process.
        actual   $22.5


        Target   $25.0
 2009
        actual   $22.3


        Target   $25.0
 2008
        actual   $14.9


        Target   $25.0
 2007
        actual   $42.6


        Target   $40.0
 2006
        Actual   $13.4




                                        fiscal year   2012                                                   77
performance section
                      performance




                      2014   *Target        1300.0%
                                                        TarGeT exceeded.
                      2013   *Target        1300.0%     During FY 2012, the agency saved consumers over 14 times the amount of
                                                        resources devoted to the merger program, as calculated using the five-year
                             *Target        1300.0%     average consumer savings obtained under Performance Measure 2.1.2 ($504.9
                                                        million) divided into the amount of resources used in the current fiscal year.
                      2012                              This result is in large part determined by the presence of several enforcement
                             actual        1,492.4%     actions over the last four years in the pharmaceutical industry, which involved
                                                        significantly sized relevant product markets.
                             Target         600.0%      * Targets for FY12 - FY14 were increased based on projected future
                      2011                              performance as reported in the FTC’s FY 2012 Strategic Plan Addendum.
                             actual        1,419.0**%
                                                        ** This is a correction to results reported in the FY 2011 PAR. The results should
                                                        have been based on a savings of $532.2 (million), or 1419%. The FY 2011 PAR
                             Target         600.0%      reports savings of $531.5 (million), or 1417%.
                      2010
                             actual        1,670.0%


                             Target         600.0%
                      2009
                             actual         2,132.0%


                             Target         600.0%
                      2008
                             actual         1,121.0%


                             Target         600.0%
                      2007
                             actual        2,500.0%


                             Target           n/a
                      2006
                             actual           n/a




       78                              Federal Trade Commission | Performance and Accountability Report
                                                                                                             performance section
performance




2014   *Target   $450.0
                          TarGeT NOT MeT.
2013   *Target   $450.0   In FY 2012, the FTC obtained estimated savings to consumers of
                          approximately $439.8 million, as calculated using the average consumer
       *Target   $450.0   savings of the current fiscal year and the previous four years.

2012                      In FY 2011 and FY 2010, the agency exceeded the target on this measure by
       actual    $439.8   more than 455%, and 533% respectively. The reason that the agency exceeded
                          the target by such a large margin is attributable to one particular case, which
                          involved Intel Corporation, the world’s leading computer chip maker, who was
       Target    $80.0    charged with illegally using its dominant market position for a decade to stifle
2011                      competition and strengthen its monopoly. The targets for FY 2012 through FY
       actual    $444.9   2014 were modified in response to the agency greatly exceeding the target
                          due to this case. Therefore, subsequent years’ results may not meet the target.
       Target    $80.0    Additionally, nonmerger/conduct cases historically take a longer time than
2010                      merger cases to investigate and bring to a final enforcement action. For
       actual    $508.0   example, we are currently in the midst of litigation in four nonmerger cases
                          which did not conclude in FY 2012. In the coming years, the FTC will consider
                          whether the new targets were appropriately set.
       Target    $80.0
                          * Targets for FY12 - FY14 were increased based on projected future
2009
                          performance as reported in the FTC’s FY 2012 Strategic Plan Addendum.
       actual    $188.0


       Target    $80.0
2008
       actual    $28.0


       Target    $80.0
2007
       actual    $75.0


       Target     n/a
2006
       actual     n/a




                                        fiscal year   2012                                                   79
performance section
                      performance




                      2014      *Target          $12.0
                                                             TarGeT NOT MeT.
                      2013      *Target          $12.0       The FTC’s positive nonmerger results affected markets
                                                             in which the total estimated volume of commerce was
                                *Target          $12.0       approximately $11.7 billion. During FY 2012, the FTC
                                                             obtained positive results in four nonmerger matters.
                      2012
                                actual           $11.7       In FY 2011 and FY 2010, the agency exceeded the target on
                                                             this measure by more than 45% each year. As mentioned
                                                             under Performance Measure 2.1.5, the reason the agency
                                Target           $8.0        had exceeded the target by such a margin is in large part
                      2011                                   attributable to one particular case, which involved Intel
                                actual           $11.6       Corporation. The targets for FY 2012 through FY 2014 were
                                                             modified in response to the agency greatly exceeding the
                                                             target due to this case. Therefore, subsequent years’ results
                                Target           $8.0
                                                             may not meet the target under this measure.
                      2010
                                actual           $11.7       Additionally, as mentioned in Measure 2.1.5, nonmerger/
                                                             conduct cases historically take a longer period of time
                                                             than merger cases to investigate and bring to a final
                                Target           $8.0        enforcement action. For example, we are currently in the
                      2009                                   midst of litigation in four nonmerger cases which did not
                                actual           $14.6       conclude in FY 2012.
                                                             In the coming years, the FTC will consider whether the new
                                Target           $8.0        targets were appropriately set.
                      2008                                   * Targets for FY12 - FY14 were increased based on projected
                                actual           $0.4        future performance as reported in the FTC’s FY 2012
                                                             Strategic Plan Addendum.
                                Target           $8.0
                      2007
                                actual           $2.6


                                Target           $20.0
                      2006
                                actual            $1.4




       80                    Federal Trade Commission | Performance and Accountability Report
                                                                                              performance section
performance
              2014   *Target   2000.0%
                                               TarGeT NOT MeT.
              2013   *Target   2000.0%         During FY 2012, as in FY 2011 and FY
                                               2010 where the agency greatly exceeded
                                               its target, the agency saved consumers
                     *Target   2000.0%
                                               over 18 times the amount of resources it
              2012                             devoted to the nonmerger enforcement
                     actual     1831.7%        program. As mentioned under
                                               Performance Measure 2.1.5, the reason
                     Target     400.0%         the agency had previously exceeded the
                                               target by such a margin is in large part
              2011                             attributable to one particular case, which
                     actual     1917.7%        involved Intel Corporation. The targets for
                                               FY 2012 through FY 2014 were modified in
                     Target     400.0%         response to the agency greatly exceeding
                                               the target due to this case. Therefore,
              2010
                                               subsequent years’ results may not meet
                     actual    2418.0.0%
                                               the target under this measure.

                     Target     400.0%         Additionally, as mentioned in Measure
                                               2.1.5, nonmerger/conduct cases historically
              2009                             take a longer period of time then merger
                     actual    1,035.0%        cases to investigate and bring to a final
                                               enforcement action. For example, we are
                     Target     400.0%         currently in the midst of litigation in four
                                               nonmerger cases which did not conclude
              2008                             in FY 2012.
                     actual     164.0%
                                               In the coming years, the FTC will
                                               consider whether the new targets were
                     Target     400.0%
                                               appropriately set.
              2007
                     actual     424.0%         * Targets for FY12 - FY14 were increased
                                               based on projected future performance
                                               as reported in the FTC’s FY 2012 Strategic
                     Target       n/a          Plan Addendum.
              2006
                     actual       n/a



performance
              2014   Target    90.0%
                                             TarGeT exceeded.
              2013   Target    90.0%         In FY 2012, the FTC had 51 substantive
                                             contacts in 26 enforcement matters
                                             with counterpart agencies around the
                     Target    90.0%         world including in Australia, Canada,
                                             China, France, Germany, Japan, Korea,
              2012                           Mexico, Singapore, Turkey, and the United
                     actual    100.0%        Kingdom. The reviewing agencies reached
                                             compatible outcomes in the 15 cases that
                                             were completed within the fiscal year. While
                                             the agency will continue to strive for 100%
                     Target    90.0%
                                             success, the target reflects the possibility
              2011                           of inconsistent outcomes, particularly as
                                             new antitrust agencies begin to assert their
                     actual    100.0%        jurisdiction.
                                             The agency will continue to monitor the
                                             target of this relatively new measure and
                     Target    90.0%
                                             will reassess it after additional performance
              2010                           cycles.

                     actual    100.0%




                        fiscal year   2012                                                    81
                      Obj                                 in this area. The FTC advocates market-based solutions
performance section
                                                          through the publication of studies and reports,
                                                          and participation in state and federal legislative and
                                                          regulatory fora.

                                                          The agency also participates as an amicus curiae
                                                          (friend of the court) in judicial proceedings when
                                                          substantial questions of antitrust law or competition
                                                          policy are involved, especially when the FTC may add a
                                                          different perspective to the deliberations because of its
                                                          specialized knowledge or experience.

                                                          Finally, in an effort to continue educating consumers
                                                          and businesses on the important role of competition in
                                                          providing the most valuable and efficient mix of price,
                                                          choice, and innovation, the FTC continues to publish
                                                          reference and case-related documents. Another way
                                                          the FTC achieves this goal is to improve how topical
                                                          information, case materials, and reference documents
                                                          are organized on its web site in an effort to aid visitors
                                                          in searching for and finding relevant information and
                                                          to continuously update the growing body of reference
                                                          material.


                                                          Performance Results
                                                          The FTC uses one measure to assess its performance
                                                          in preventing consumer injury through education.
                                                          The key measure (Performance Measure 2.2.1) tracks
                                                          the volume of traffic on the FTC website on antitrust-
                                                          related pages that are relevant to policymakers, the
                                                          business and legal communities, and the public at
                                                          large. This performance measure is an indicator of
                                                          the flow of information provided to the public.
                                                          Successful outreach and education efforts, as reflected
                                                          by this measure, will help consumers, because increased
                                                          knowledge and understanding of the antitrust laws will
                                                          help businesses stay in compliance. This measure also
                                                          will help ensure that the agency engages in consumer,
                                                          business, and international education that advances
                                                          the culture of competition, which enhances consumer
                                                          welfare.

                                                          The results of this measure would seem to indicate a
                                                          significant continued public interest in the FTC and its
                                                          Maintain Competition strategic goal. In addition, the
                                                          broad and increasing distribution of educational and
                                                          policy materials through electronic channels represents
                                                          important leveraging of the agency’s resources.


       82              Federal Trade Commission | Performance and Accountability Report
                                                                                                       performance section
     kEY MEASURE 2.2.1

ComPetition resourCes aCCessed via the ftC’s weBsite. (outPut measure -
numBers shown in millions)


    2014        *Target      24.0
                                        TarGeT NOT MeT.
    2013        *Target      24.0       During FY 2012, the FTC’s online competition resources
                                        registered nearly 23.2 million hits. These resources include
               *Target       24.0       pages that relate to individual investigations (such as
                                        complaints, orders, comments, and press releases), policy
    2012                                and research oriented content (such as reports, policy
                actual       23.2       guides, and fact sheets, workshop or conference webpages,
                                        the online competition enforcement database, advocacy
                Target       10.0       filings, and amicus briefs), and business and consumer
                                        education material.
    2011
                actual       22.6       In FY 2011, the agency exceeded the target on this
                                        measure by more than 100 percent. Accordingly, higher
                                        targets were set for FY 2012 through FY 2014 based on
                Target       10.0       past performance. The FTC will consider whether the new
   2010                                 targets were appropriately set.
                actual       21.5       * Targets for FY12 - FY14 were increased based on projected
                                        future performance as reported in the FTC’s FY 2012
                Target       15.0       Strategic Plan Addendum.
   2009
                actual       11.9


                Target       15.0
   2008
                actual       12.5


                Target       15.0
   2007
                actual       15.7


                Target       10.0
   2006
                actual       10.6




                                    fiscal year   2012                                                 83
                      Obj                                 strategy to enhance consumer welfare. The agency
performance section
                                                          uses the information it develops internally to refine
                                                          the theoretical framework for analyzing competition
                                                          issues and the empirical understanding of industry
                                                          practices, which contributes substantially to an effective
                                                          response to changing marketplace conditions. The
                                                          information gained through this authority, combined
                                                          with the agency’s professional expertise on competition
                                                          issues, also contributes to a better understanding of
                                                          business practices and their competitive and economic
                                                          implications by various entities, including the business
                                                          sector, the legal community, other enforcement
                                                          authorities, the judiciary, foreign competition agencies,
                                                          and governmental decision makers and policymakers
                                                          at the federal, state, and local levels. And finally, the
                                                          FTC files comments with federal and state government
                                                          bodies advocating policies that promote the interests
                                                          of consumers and highlight the role of consumer and
                                                          empirical research in their decision making. The FTC
                                                          also files amicus briefs to aid courts’ considerations of
                                                          consumer protection issues.



                                                       T




       84              Federal Trade Commission | Performance and Accountability Report
                                                            in conjunction with Performance Measures 2.3.4, and




                                                                                                                       performance section
Performance Results
                                                            2.3.5, help to ensure that the agency is engaging in
The key measures used to gauge the FTC’s                    appropriate types and sufficient levels of research,
success under this objective are the ones relating          reports, and advocacy and that they are relevant to
to conducting public hearings, conferences, and             consumers, policymakers, businesses, and the legal
workshops (Performance Measure 2.3.1), issuing              community. The target for these measures sets a
reports and studies on competition related issues           minimum level of activity that the agency is expected to
(Performance Measure 2.3.2), and making advocacy            achieve.
filings (Performance Measure 2.3.3). These measures,



                                        2014           Target      4
kEY MEASURE 2.3.1                                                         TarGeT NOT MeT.
                                        2013           Target      4      During FY 2012, the FTC held three
                                                                          competition and economics-related
workshoPs, seminars,
                                                       Target      4      conferences. Held annually in November,
ConferenCes, and                                                          the FTC’s Microeconomics Conference
                                        2012                              brings together scholars and leaders
hearings Convened
                                                       actual      3      from universities throughout the world,
or CosPonsored that                                                       other government agencies, and other
involve signifiCant                                    Target      4      organizations to discuss antitrust,
                                                                          consumer protection, and policy issues
ComPetition-related                     2011                              which FTC economists encounter in their
issues. (outPut measure)                               actual      4      work. During FY 2012 the FTC organized
                                                                          a conference on the economics of drip
                                                       Target      4      pricing.
                                        2010                              Additionally, in September 2012, the
                                                       actual      6      FTC hosted a joint conference with
                                                                          the Department of Justice’s Antitrust
                                                                          Division on most-favored-nation clauses
                                                       Target      4      (MFNs), which explored the use of
                                       2009                               MFN clauses and the implications for
                                                       actual      8      antitrust enforcement and policy. The
                                                                          most commonly used MFN provisions
                                                                          guarantee a customer that it will receive
                                                       Target      4      prices that are at least as favorable as
                                        2008                              those provided to other buyers of the
                                                       actual      5      same seller, for the same products or
                                                                          services.
                                                       Target      4      Although the agency did not meet the
                                        2007                              target in FY 2012, it should be noted
                                                                          that a fourth conference, the planning
                                                       actual      7
                                                                          and organization for which was done in
                                                                          FY 2012, was held on October 2, 2012
                                                       Target     n/a     to discuss competition and consumer
                                                                          protection issues in the pet medications
                                       2006                               industry.
                                                       actual     n/a




                                                 fiscal year    2012                                                   85
performance section
                                                      2014       Target      8
                      kEY MEASURE 2.3.2                                            TarGeT exceeded.
                                                      2013       Target      8     During FY 2012, the FTC published
                                                                                   working papers on the economics of
                      rePorts and studies                                          competition, market structures, and
                                                                 Target      8
                      issued on key                                                organizational form. The FTC also
                                                      2012                         published reports covering health care
                      ComPetition-related                        actual      9     and energy. Additionally, the agency
                      toPiCs. (outPut measure)                                     filed two annual reports, one recognizing
                                                                 Target      8     the agency’s continued efforts to
                                                                                   protect consumers and competition, and
                                                      2011                         the Hart-Scott-Rodino Annual Report on
                                                                 actual      11    the premerger notification program and
                                                                                   merger enforcement.
                                                                 Target      8
                                                      2010
                                                                 actual      9


                                                                 Target      8
                                                      2009
                                                                 actual     20


                                                                 Target      8
                                                      2008
                                                                 actual      7


                                                                 Target      8
                                                      2007
                                                                 actual      18


                                                                 Target     n/a
                                                      2006
                                                                 actual     n/a




       86                          Federal Trade Commission | Performance and Accountability Report
                                                                                                     performance section
                            2014    *Target       10
kEY MEASURE 2.3.3                                       TarGeT exceeded.
                                                        In FY 2012, the FTC filed advocacy
                            2013    *Target       10    comments and amicus briefs on
advoCaCy Comments                                       competition issues such as pay-for-
and amiCus Briefs on                                    delay pharmaceutical settlements,
                                                        the regulation of medical, dental, and
ComPetition issues filed
                                    *Target       10    veterinary professionals, the intersection
with entities inCluding                                 of competition and intellectual property
federal and state                                       law, electricity, and the agency’s Funeral
                            2012                        Rule.
legislatures, agenCies or
                                                        The target for filing competition-
Courts. (outPut measure)            actual        18    related briefs and comments was
                                                        increased to ten because the agency
                                                        had greatly exceeded the target in
                                                        both FY 2010 and 2011. The agency
                                                        exceeded the FY 2012 target as well.
                                    Target        6     These performance results highlight the
                                                        inherent unpredictability of the types
                                                        of and number of competition issues
                            2011                        that might arise before federal and state
                                                        government bodies and therefore the
                                                        types of comments and briefs that the
                                    actual        16
                                                        agency might file in response.
                                                        The agency will continue to monitor the
                                                        target of this relatively new measure
                                                        and will reassess it after additional
                                    Target        6     performance cycles.
                                                        * Targets for FY12 - FY14 were increased
                            2010                        based on projected future performance
                                                        as reported in the FTC’s FY 2012
                                                        Strategic Plan Addendum.
                                    actual        17




                                   fiscal year   2012                                                87
                      PERFORMANCE
performance section
                                                       2014     *Target     75.0%
                      MEASURE 2.3.4                                                  TarGeT exceeded.
                                                       2013     *Target     75.0%    The FTC mails advocacy recipients
                      the PerCentage of                                              a survey designed to gauge the
                                                                                     usefulness of agency advocacy
                      resPondents finding                       *Target    75.0%     comments and amicus briefs.
                      the ftC’s advoCaCy              2012                           “Usefulness” is assessed by the
                                                                 actual    83.3%     recipient. The target percentage
                      Comments and amiCus
                                                                                     recognizes that comments critiquing
                      Briefs “useful.” (outCome                                      a recipient’s proposed action may not
                                                                 Target    50.0%     be assessed positively. In FY 2012, 5 of
                      measure)
                                                                                     6 survey responses classified the FTC’s
                                                       2011                          submissions as useful. The agency
                                                                 actual    100.0%    will continue to monitor the target of
                                                                                     this relatively new measure and will
                                                                                     reassess it after additional performance
                                                                 Target    50.0%     cycles.
                                                                                     * Targets for FY12 - FY14 were
                                                      2010                           increased based on projected future
                                                                 actual    100.0%    performance as reported in the FTC’s
                                                                                     FY 2012 Strategic Plan Addendum.




                               p



       88                          Federal Trade Commission | Performance and Accountability Report
                                                                                                               performance section
PERFORMANCE                          2014       Target      1.7
MEASURE 2.3.5                        2013       Target      1.7
                                                                  TarGeT exceeded.
                                                                  This performance measure relates
                                               Target       1.7   to the volume of traffic on the FTC’s
the volume of traffiC on            2012                          web pages that relate to competition
www.ftC.gov relating to                        actual       3.4   research, reports, and advocacy. In FY
                                                                  2012, approximately 3.4 million visits met
ComPetition researCh,                          Target       1.7
                                                                  the criteria set by this measure.
rePorts, and advoCaCy.               2011
                                               actual       1.8
(outPut measure –
                                               Target       1.7
numBers shown in                    2010
                                               actual       2.2
millions)
                                               Target       1.1
                                    2009
                                               actual       1.6

                                               Target       1.1
                                    2008
                                               actual       1.2

                                               Target       1.1
                                    2007
                                               actual       1.1

                                               Target       n/a
                                    2006
                                               actual       n/a




                                                  the ftC BloCks
                                                  antiComPetitive
                                                  hosPital mergers
                                                   Preserving competition in the health care
                                                   industry is important to the FTC. In 2012, the
                                                   Commission ruled that ProMedica Health
                                                   System, Inc.’s consummated acquisition of rival
                                                   St. Luke’s hospital in Lucas County, Ohio, was
  anticompetitive and would likely result in higher health care costs for patients, employers, and
  employees. The Commission’s order requires ProMedica to divest St. Luke’s Hospital to an FTC-
  approved buyer.

  In a second case, the FTC secured a preliminary injunction in Federal District Court blocking
  OSF Healthcare System’s acquisition of rival health care provider Rockford Health System. The
  FTC alleged that the merger would raise prices for hospital services in Rockford, Illinois. OSF
  abandoned its acquisition plans after the district court ruling.

  Finally, the Supreme Court recently agreed that this fall it will hear arguments in the FTC’s
  challenge to Phoebe Putney Health System, Inc.’s proposed acquisition of its sole rival in Albany
  Georgia, Palmyra Park Hospital, Inc. The FTC and the Attorney General of the State of Georgia
  allege that the deal will create a monopoly and allow the combined Phoebe/Palmyra to raise
  prices for general acute-care hospital services charged to commercial health plans, harming
  patients and local employers and employees.




                                             fiscal year   2012                                                89
                      Obj initiatives. The FTC also pursues the development of
performance section
                          an international market-based competition model that
                          focuses on the maximization of consumer benefit.
                          The agency influences policy development and
                          implementation by advising multilateral organizations,
                          regional entities, and foreign government agencies
                          through substantive consultations and written
                          comments. And finally, the FTC provides technical
                          assistance to newer competition agencies to enhance
                          their ability to apply sound competition policies.


                                                                           Performance Results
                                                                           The FTC uses two performance measures to assess
                                                                           performance for this objective. Key Measure 2.4.1
                                                                           and Performance Measure 2.4.2 address the scope of
                                                                           our contact with international counterparts and help
                                                                           determine if our efforts are sufficiently broad-based.




                                                                        ftC Joines aPeC
                                                                        Cross-Border PrivaCy
                                                                        rules system
                                                                        In July 2012, the Asia Pacific Economic
                                                                        Cooperation (APEC) approved the United States
                                                                        as the first participant in the Cross-Border Privacy
                                                                        Rules System, and named the FTC as its first
                       privacy enforcement authority. The APEC privacy system is a cross-border initiative designed to
                       enhance the protection of consumer data that moves between the United States and other APEC
                       members, through a voluntary but enforceable code of conduct implemented by participating
                       businesses. President Obama and representatives from the other APEC economies endorsed the
                       system in November 2011 “to reduce barriers to information flows, enhance consumer privacy,
                       and promote interoperability across regional data privacy regimes.” The FTC, the Department of
                       Commerce, U.S. corporations, and privacy advocacy organizations worked together with their
                       counterparts in other APEC economies to formulate the APEC privacy rules. These rules will
                       be enforced pursuant to the APEC Cross-Border Privacy Enforcement Arrangement, which is a
                       multilateral mechanism that facilitates information sharing and assistance for cross-border data
                       privacy enforcement. In addition to the United States, the 21 APEC members include Australia,
                       Brunei, Canada, Chile, China, Hong Kong, Indonesia, Japan, Korea, Malaysia, Mexico, New Zealand,
                       Papua New Guinea, Peru, the Philippines, Russia, Singapore, Taiwan, Thailand, and Vietnam.




       90                            Federal Trade Commission | Performance and Accountability Report
                                                                                                  performance section
kEY MEASURE 2.4.1          2014     *Target      60    TarGeT exceeded.
                                                       In FY 2012, the FTC provided policy
                                                       advice to foreign competition
PoliCy adviCe Provided
                                                       agencies in over 100 instances through
to foreign ComPetition     2013     *Target      60    consultations, written submissions, or
agenCies, direCtly and                                 comments. The FTC’s policy advice
                                                       remains highly regarded and sought
through international                                  after by new and more experienced
organizations,                      *Target      60    competition agencies, including in
                                                       international fora.
through suBstantive
                           2012                        * Targets for FY12 - FY14 were increased
Consultations,
                                                       based on projected future performance
written suBmissions,                actual       146   as reported in the FTC’s FY 2012
or Comments. (outPut                                   Strategic Plan Addendum.

measure)
                                    Target       40

                           2011
                                    actual       112




                                    Target       40

                           2010

                                    actual       76




PERFORMANCE
                           2014    Target        10
MEASURE 2.4.2                                          TarGeT exceeded.
                                                       In FY 2012, the FTC conducted 21
teChniCal assistanCe                                   technical assistance missions and hosted
                           2013    Target        10
                                                       six international Fellows. Thirteen of
Provided to foreign                                    the technical assistance missions and
ComPetition authorities.                               two international Fellows were funded
                                   Target        10    through outside sources such as the U.S.
(outPut measure)
                                                       Agency for International Development
                           2012                        and the U.S. Trade and Development
                                   actual        27    Agency.



                                   Target        10

                           2011
                                   actual        27


                                   Target        10

                           2010
                                   actual        60




                                  fiscal year   2012                                              91
                      RESOURCES UTILIZED—STesources2
performance section
                      (DOLLARS SHOwN IN MILLIONS.)
                                           2007            2008           2009            2010            2011           2012

                       Full-Time
                                            489             502            509             512            522             506
                       Equivalents

                       Obligations          $94            $103            $113           $123            $123            $119


                       Net Cost             ($47)           $2             $68             $43            $43             $33


                      Note: Differences between these obligations and net costs and the financial statements are due to rounding.




       92                               Federal Trade Commission | Performance and Accountability Report
GOAL 3: ADVANCE
                                                          Obj




                                                                        performance section
PERFORMANCE
Advance the FTC’s Performance Through
Organizational, Individual, And Management
Excellence.


I. Strategic View
The FTC recognizes that a strong foundation of
organizational, individual, and management excellence
is a driver of mission success. The agency applies
four objectives to achieve this goal. The objectives
align with four key functional areas: human resources,
infrastructure and security, information resources, and
finance and acquisition.
oBJeCtive 3.1: Provide effeCtive human
resourCes management.
The FTC uses an integrated approach that ensures
human capital programs and policies are linked to
our mission, goals, and strategies, while providing for
continuous improvement in efficiency and effectiveness.




                                                   fiscal year   2012   93
                      Our Strategy                                                 Performance Results
performance section
                      The FTC recognizes that its employees are its                Two performance measures, Performance Measure
                      greatest asset and places great emphasis on the              3.1.1 and Performance Measure 3.1.2, are used to
                      importance of human resources management to the              gauge achievement of this objective. These measures
                      successful accomplishment of its mission. One of             are based on results from the Federal Employee
                      the key strategies used to achieve this objective entails    Viewpoint Survey administered by the U.S. Office of
                      implementing programs and processes that will enable         Personnel Management. The survey focuses on federal
                      the agency to recruit quickly, develop, and retain a         employees’ perceptions of critical areas of their work
                      qualified, diverse workforce through an integrated           life and workforce management, and measures factors
                      workforce plan. The FTC also uses the integrated             that influence whether employees want to join, stay,
                      workforce plan to identify and fulfill current and future    and help their agency meet its mission. In FY 2012, the
                      human resources needs to carry out its mission and           FTC had a survey response rate of 54.9 percent (541 of
                      creates an agency-wide performance culture focused           986 employees responded) and, compared to 37 other
                      on individual and organizational accountability toward       federal agencies with over 1,000 employees, received
                      the achievement of the FTC’s programmatic goals and          first place marks on Results-Oriented Performance
                      priorities. Finally, the agency achieves this objective by   Culture, third place marks on both Leadership and
                      providing human resources management training and            Knowledge Management and on Talent Management,
                      outreach to staff.                                           and sixth place marks on Job Satisfaction. Of the 98
                                                                                   items on the survey, the FTC had 59 items with high
                      The agency continues to enhance its performance              positive ratings that are considered strengths; and zero
                      culture focused on accountability toward achieving the       items with a negative rating that would be considered a
                      FTC’s programmatic goals and priorities. In FY 2012,         challenge. Additionally, 65 items were five percentage
                      we revised the employee performance management               points or more above the government-wide average,
                      system and implemented new performance standards             and only one item was five percentage points or more
                      agency-wide to help employees better understand how          below the government-wide average.
                      their work contributes to the organization’s ability to
                      achieve its goals and fulfill its mission. The revised
                      system encourages rating officials to select and focus
                      on those Strategic Plan goals and objectives that are
                      most relevant to an employee’s performance and
                      formalize the connection in the performance plan.
                      The employee performance plan and appraisal form
                      was also updated to show how each employee’s plan
                      links to the agency’s Strategic Plan, Chairman’s goals
                      and initiatives, Bureau or Office objectives and
                      initiatives, or other management or accountability
                      initiatives in support of the FTC mission.
                      Rating officials are responsible for describing the
                      relationship between the employee’s principle duties
                      andresponsibilities and the agency’s goals and objectives
                      or the Bureau or Office organizational goals and
                      objectives. In this way, the FTC focuses on duties
                      that contribute toward accomplishing organizational
                      goals and objectives, ensures that each employee’s
                      performance plan aligns with the agency’s goals
                      and objectives and furthers the objectives of the
                      organization, and involves employees in management’s
                      ongoing effort to improve overall effectiveness in
                      accomplishing the agency’s mission and goals.

       94                                 Federal Trade Commission | Performance and Accountability Report
PERFORMANCE MEASURE 3.1.1




                                                                                                         performance section
the extent emPloyees Believe their organizational Culture Promotes
imProvement in ProCesses, ProduCts and serviCes, and organizational outComes.
(outCome measure)

                      Exceed the government-wide
                      results on the Federal Human         TarGeT MeT.
   2014     Target
                     Capital Survey’s Results-Oriented
                       Performance Culture Index           The government-wide results were 52% and
                                                           the FTC received 66%.

                      Exceed the government-wide           Compared to 37 other departments and
                      results on the Federal Human         agencies with more than 1,000 full-time
   2013     Target
                     Capital Survey’s Results-Oriented     employees, the FTC took third place in
                       Performance Culture Index           Leadership and Knowledge Management and
                                                           first place in Results-Oriented Performance
                                                           Culture.
                      exceed the government-wide
                       results on the federal human
            Target
                     Capital survey’s results-oriented
                        Performance Culture index
   2012

            actual              exceeded



                      exceed the government-wide
                       results on the federal human
            Target
                     Capital survey’s results-oriented
                        Performance Culture index
   2011

            actual              exceeded



                      exceed the government-wide
                       results on the federal human
            Target
                     Capital survey’s results-oriented
                        Performance Culture index
   2010

            actual              exceeded




                                         fiscal year     2012                                            95
                           kEY MEASURE 3.1.2
performance section
                      the extent emPloyees think the organization has the talent neCessary to aChieve
                      organizational goals. (outCome measure)

                                               Exceed the government-wide results on
                         2014     Target      the Federal Human Capital Survey’s Talent       TarGeT MeT.
                                                         Management Index
                                                                                              The government-wide results were
                                                                                              59% and the FTC received 70%.
                                               Exceed the government-wide results on
                         2013     Target      the Federal Human Capital Survey’s Talent       Compared to 37 other departments
                                                         Management Index                     and agencies with more than 1,000
                                                                                              full-time employees, the FTC took
                                                                                              third place in Talent Management.
                                              exceed the government-wide results on
                                  Target     the federal human Capital survey’s talent
                                                        management index
                         2012

                                  actual                     exceeded


                                              exceed the government-wide results on
                                  Target     the federal human Capital survey’s talent
                                                        management index
                         2011

                                  actual                     exceeded


                                              exceed the government-wide results on
                                  Target     the federal human Capital survey’s talent
                                                        management index
                         2010

                                  actual                     exceeded



                      Obj                                                Ensuring that the FTC has optimal information
                                                                         technology (IT) infrastructure operations and
                                                                         performance is key to meeting the agency’s business
                                                                         goals. The ability of the agency’s Office of the Chief
                                                                         Information Officer (OCIO) to deliver value to the
                                                                         agency is dependent upon its ability to identify and
                                                                         provide a host of critical services of improved quality,
                                                                         at lower business risk, and with increased agility. To this
                                                                         end, OCIO is working to deploy a sophisticated suite
                                                                         of infrastructure operations performance monitoring
                                                                         tools, technology, and processes that will help achieve
                                                                         the agency goals.

                                                                         Measuring and improving service delivery to bring
                                                                         positive business experiences and outcomes for the
                                                                   e
                                                                         FTC is imperative. With ever-changing technology,
                                                                         including the potential for use of cloud computing,
                                                                         this must be accomplished in a growing, complex, and
                                                                         dynamic IT infrastructure and application environment.

       96                          Federal Trade Commission | Performance and Accountability Report
                                                          A second Performance Measure, Key Measure 3.2.2,




                                                                                                                     performance section
Performance Results
                                                          assesses performance of this objective by collecting and
Two performance measures are used to gauge                tracking the availability of key information technology
achievement of this objective. First, the FTC utilizes    applications, systems, and components. By tracking
a comprehensive program comprised of tests, training,     unplanned outage periods, the agency monitors the
and exercises to validate our COOP capabilities.          reliability and availability of 31critical information
The annual government-wide Eagle Horizon exercise         technology services.
serves to assess and validate all the components of
continuity plans, policies, procedures, systems, and
facilities used to respond to and recover from an
emergency situation and identify issues for subsequent
improvement. An analysis of the plan and exercise
is conducted with a combination of Federal Emergency
Management Agency (FEMA), self and peer review.
An overall score is derived for the exercise using
the average numeric rating for each element of the
review. The FTC’s target is based on prior performance
and the target of 75 percent represents management’s
commitment to reaching a realistic yet ambitious
milestone.




        kEY MEASURE 3.2.1

a favoraBle Continuity of oPerations (CooP) rating. (outPut measure)


   2014      Target     75.0%
                                  TarGeT exceeded.
   2013      Target     75.0%     The FTC’s overall score of 90% for the Eagle Horizon 2012 Exercise reflects the
                                  strong overall commitment and continued support of the FTC COOP. Continued
                                  efforts to better define FTC’s essential functions and ensure that effective
             Target     75.0%
                                  procedures are in place are reflected in the outstanding overall exercise score.
  2012
             actual     90.0%


             Target     75.0%
   2011
             actual     75.0%


             Target     75.0%
  2010
             actual     85.0%




                                                 fiscal year   2012                                                  97
performance section
                                                      2014      Target     99.50%
                      kEY MEASURE 3.2.2                                                TarGeT exceeded.
                                                      2013      Target     99.50%      The FTC’s information technology
                      availaBility of                                                  services pool averaged 99.86%
                                                                                       availability, exceeding the target of
                      information teChnology                                           99.00%. During FY 2012, the FTC
                                                                Target     99.00%
                      systems. (outCome                                                upgraded our network storage system
                                                                                       and continued making enhancements
                      measure)                        2012                             to our infrastructure-monitoring tool.
                                                                                       Completing these initiatives helped
                                                                actual     99.86%      to facilitate expanding storage for the
                                                                                       FTC’s critical applications and also
                                                                                       provided early warning notifications
                                                                                       regarding changes to application
                                                                Target     98.50%      performance. Infrastructure Support,
                                                                                       reflected by this performance metric,
                                                                                       is one of the OCIO’s strategic focus
                                                      2011                             areas. To maintain this level of support,
                                                                                       the OCIO will continue to replace
                                                                actual     99.82%      outdated hardware and software with
                                                                                       new components that provide greater
                                                                                       availability and quicker recovery.

                                                                Target     98.0%       Note: Results for this performance
                                                                                       measure are presented to two decimals
                                                                                       because rounding the number
                                                      2010                             materially changes the result.

                                                                actual     99.77%




                      Obj                                             step in the transition, the FTC has developed an
                                                                      electronic recordkeeping certification review (ERCR)
                                                                      process that is being used to review the ability of
                                                                      the FTC’s information systems to house agency
                                                                      records with authenticity, reliability, and integrity for
                                                                      the mandated retention period. During FY 2012, the
                                                                      agency completed its review of and certified the Matter
                                                                      Management System (a system that records, tracks,
                                                                      and reports administrative and statistical information
                                                                      on FTC law enforcement and regulatory matters).
                                                                      In FY 2012, the FTC continued its review of Sentinel
                                                                      Network Services (formerly the Consumer Response
                                                                      Systems and Services), a collection of online consumer
                                                                      protection services.




                                                                  d
                                                                  ,




       98                         Federal Trade Commission | Performance and Accountability Report
In addition, as part of effective information resources




                                                                                                                         performance section
                                                               Performance Results
management, the FTC is identifying and implementing
business process improvements through effective use of         One performance measure, Performance Measure 3.3.1,
technology. For example, the FTC has developed and             is used to gauge success of this objective. This key
is using a web based e-filing system for public filings in     performance measure is the percentage of Commission-
all administrative litigation proceedings under Part 3 of      approved documents in the FTC’s ongoing and newly
the FTC Rules of Practice. Designed in the footprint           initiated proceedings available on www.ftc.gov within
of systems used by the federal courts, the FTC’s e-filing      15 days of becoming part of the public record. The
system enables parties to the agency’s administrative          FTC selected this measure because timely availability
proceedings to file public documents electronically            of public documents facilitates public awareness of and
rather than in paper format.                                   participation in Commission activities. Examples of
                                                               documents approved by the Commission are Federal
                                                               Register notices in rulemakings and other proceedings
                                                               that seek public comments, consent agreements,
                                                               complaints and orders in administrative litigation,
                                                               and complaints and proposed orders in litigation in the
                                                               federal courts.




kEY MEASURE 3.3.1
                                           2014       Target       80.0%     TarGeT MeT.
the PerCentage of                                                            In FY 2012, the target for this
                                                                             performance measure increased to
Commission-aPProved                                                          80.0%. In FY 2012, 80.2% of documents
                                           2013       Target       80.0%
doCuments in the ftC’s                                                       tracked under this measure were
                                                                             posted to the Internet within 15 days
ongoing and newly
                                                                             of becoming part of the public record.
initiated ProCeedings                                                        The performance actual is based on
                                                      Target       80.0%
availaBle via the                                                            comprehensive counts as it was in FY
                                                                             2011. The FTC does not plan to adjust
internet within 15 days                   2012                               the target for FY 2013.
of BeComing Part of the
                                                      actual       80.2%
PuBliC reCord.
(outPut measure)

                                                      Target       75.0%


                                           2011

                                                      actual       82.0%




                                                      Target       75.0%


                                          2010

                                                      actual       93.8%




                                                    fiscal year    2012                                                  99
                      Obj                                 were conducted as part of our Internal Control Review
performance section
                                                          Plan established in FY 2010. These planned reviews
                                                          of agency Bureaus and Offices occur at least once
                                                          every three years. The objective of the reviews is to
                                                          assist management in identifying high risk areas and
                                                          implement appropriate risk management strategies
                                                          where necessary. The third review was initiated on an
                                                          ad hoc basis.


                                                          Performance Results
                                                          Three performance measures that assess internal
                                                          administrative and programmatic operations and
                                                          acquisition procedures are used to gauge the
                                                          achievement of this objective. Performance Measure
                                                          3.4.1 tracks the independent auditor’s financial
                                                          statement audit results, and Key Measure 3.4.2 tracks
                                                          the percentage of bureaus/offices that establish and
                                                          maintain an effective, risk-based internal control
                                                          environment. Strong internal controls over financial
                                                          and business processes are critical to the integrity of the
                                                          data reported through the financial reporting system.
                                                          Performance Measure 3.4.3 monitors performance
                                                          against the Small Business Administration’s
                                                          government-wide small business procurement goals.




       100             Federal Trade Commission | Performance and Accountability Report
performance




                                                                                                            performance section
I

                Unqualified opinion on the
2014   Target
                  financial statements         TarGeT MeT.
                                               The agency received a “clean” opinion on its financial
                Unqualified opinion on the     statements. The opinion is determined by the
2013   Target
                  financial statements         independent auditor’s review and tests of internal
                                               controls over operations and financial reporting and the
                unqualified opinion on the     auditor’s determination that the financial statements and
       Target                                  notes are fairly presented.
                  financial statements
2012
       actual      unqualified opinion


                unqualified opinion on the
       Target
                  financial statements
2011
       actual      unqualified opinion


                unqualified opinion on the
       Target
                  financial statements
2010
       actual      unqualified opinion




                                         fiscal year   2012                                                101
performance section
                                                       2013       Target    100.0%
                      kEY MEASURE 3.4.2                                               TarGeT MeT.
                                                       2012       Target    100.0%    The agency’s components perform
                      the PerCentage of                                               assessments of the internal controls
                                                                                      that have been placed into operation
                      Bureaus/offiCes that                        Target    100.0%    within their areas of responsibility.
                      estaBlish and maintain           2011                           These assessments address the
                      an effeCtive, risk-                                             “Standards of Internal Control” issued
                                                                  actual    100.0%    by the Government Accountability
                      Based internal Control                                          Office and are documented. The
                      environment. (outCome                                           Financial Management Office (FMO)
                                                                  Target    100.0%    reviews the assessments and the
                      measure)                                                        Chairman considers these when
                                                       2010
                                                                                      preparing his annual Statement
                                                                  actual    100.0%    of Assurance. These assessments
                                                                                      submitted by the agency’s major
                                                                                      components coupled with FMO’s review
                                                                  Target    100.0%    provide the basis for the measurement
                                                                                      of the effectiveness of the FTC’s risk-
                                                       2010                           based internal control environment.
                                                                  actual    100.0%




                      performance                       2014      Target     23.0%
                                                                                      TarGeT exceeded.
                                                        2013      Target     23.0%    This measure encompasses contracts
                                                                                      to organizations classified as small
                                                                  Target     23.0%    businesses in accordance with
                                                                                      Federal Acquisition Regulation Part
                                                       2012                           19 Small Business Programs. The FY
                                                                  actual     57.7%    2012 performance result reflects the
                                                                                      agency’s full commitment to utilizing
                                                                  Target     23.0%    small businesses wherever possible
                                                                                      based on the nature of the acquisition.
                                                        2011
                                                                  actual     46.3%    The agency has not raised the target
                                                                                      for this performance measure because
                                                                                      the target is established nationwide by
                                                                  Target     23.0%    the Small Business Administration.
                                                       2010
                                                                  actual     58.9%




       102                          Federal Trade Commission | Performance and Accountability Report
fiscal year
2012
              financial SECTION
                    MESSAGE FROM THE CHIEF
financial section

                    FINANCIAL OFFICER
                    I am pleased to once again present the Financial section   •   Continuing our record of no material
                    of this Performance and Accountability Report (PAR).           weaknesses, significant control deficiencies, or
                    This report serves as a snapshot of the progress we            nonconformances with the Federal Managers’
                    made in Fiscal Year (FY) 2012 and as a roadmap to              Financial Integrity Act and other applicable laws
                    performance in the future. During this fiscal year, the        and regulations.
                    Federal Trade Commission (FTC) continued to protect
                    consumers and promote competition while remaining          •   Establishing new procedures to further accelerate
                    fiscally responsible; FY 2012 marks the 16th consecutive       payments to small businesses (in accordance with
                    year that the FTC has received an unqualified (clean)          guidance issued by the Office of Management and
                    opinion on our financial statements.                           Budget) and achieving a prompt pay rate of 99.5
                                                                                   percent for all invoices processed.
                    Our commitment to effective financial management and
                    to upholding high standards of accountability in FY        This section also includes our financial information
                    2012 included the following key accomplishments:           as of September 30, 2012 and shows, through our
                                                                               performance results, how we used our financial
                    •   Returning more than $36 million directly to            resources to protect consumers and maintain
                        consumers who were victims of fraud, following         competition.
                        successful prosecution of defendants resulting in
                        court-ordered judgments or settlements.                Although budgets continue to be tight, our talented and
                                                                               dedicated staff remains committed to the importance
                    •   Receiving, for the fifth consecutive year, the         of good financial management and cost-saving efforts
                        association of Government Accountants’                 that enhance operational efficiency. We will continue
                        Certificate of Excellence in Accountability            to strive for financial and performance management
                        Reporting, given to agencies with the most             excellence to benefit American consumers.
                        transparent, innovative, and user-friendly PARs.
                        In 2012 the agency also received a “Best in Class”
                        award for the most informative Performance
                        Section.

                    •   Substantially exceeding the Small Business
                        Administration’s Government-wide goal to ensure        Steven A. Fisher
                        that small businesses get their fair share of work     Chief Financial Officer
                        with the federal government by awarding over 57        November 15, 2012
                        percent of “eligible dollars” to small businesses.




      104                              Federal Trade Commission | Performance and Accountability Report
                      financial section




fiscal year   2012   105
financial section




      106           Federal Trade Commission | Performance and Accountability Report
                      financial section




fiscal year   2012   107
financial section




      108           Federal Trade Commission | Performance and Accountability Report
                      financial section




fiscal year   2012   109
financial section




      110           Federal Trade Commission | Performance and Accountability Report
PRINCIPAL FINANCIAL STATEMENTS




                                                                                                                     financial section
FINANCIAL STATEMENT DESCRIpTIONS


A brief description of the five principal financial statements presented on the following pages is provided:

     • Balance Sheet – Presents the combined amounts the agency had to use or distribute (assets) versus the
       amounts the agency owed (liabilities), and the difference between the two (net position).
     • Statement of Net Cost – Presents the annual cost of agency operations. The gross cost less any offsetting
       revenue is used to determine the net cost.
     • Statement of Changes in Net Position – Reports the accounting activities that caused the change in net
       position during the reporting period.
     • Statement of Budgetary Resources – Reports how budgetary resources were made available and the status
       of those resources at fiscal year-end.
     • Statement of Custodial Activity – Reports collections and their disposition by the agency on behalf of the
       Treasury General Fund and one other federal agency. The FTC acts as custodian and does not have use of
       these funds.


The accompanying notes to the financial statements describe significant accounting policies as well as detailed
information on select statement lines.




                                                    fiscal year   2012                                              111
                    FEDERAL TRADE COMMISSION
financial section
                    BALANCE SHEET
                    AS OF SEpTEMBER 30, 2012 AND 2011
                    (Dollars shown in thousands)

                                                                                                     2012           2011
                    Assets (Note 2):
                              Intragovernmental:
                                         fund balance with treasury (note 3)                  $ 192,786      $ 112,225
                                         Investments (note 5)                                           -        35,443
                                         accounts receivable, net (note 6)                           995             26
                              total intragovernmental                                             193,781        147,694
                              cash and other monetary assets (note 4)                             28,360         44,944
                              accounts receivable, net (note 6)                                    30,991         11,374
                              General property and equipment, net (note 7)                         18,385         19,371
                    Total Assets                                                              $ 271,517      $ 223,383


                     Liabilities:
                               intragovernmental:
                                         accounts payable                                     $     1,030    $      444
                                         other (note 9)                                             4,706         1,430
                              total intragovernmental                                               5,736          1,874
                              accounts payable                                                      8,353         15,416
                              accrued redress receivables due to claimants                         27,219        11,229
                              redress collected but not yet disbursed                              84,935        84,190
                              other (note 9)                                                       16,520         17,478
                    Total Liabilities (Notes 8 and 9)                                         $ 142,763      $ 130,187


                     Net Position (Note 1(o)):
                              cumulative results of operations - other funds                      128,754        93,196
                    Total Net Position                                                        $ 128,754      $ 93,196
                    Total Liabilities and Net Position                                        $ 271,517      $ 223,383
                    The accompanying notes are an integral part of these statements.




      112                                 Federal Trade Commission | Performance and Accountability Report
FEDERAL TRADE COMMISSION




                                                                                                      financial section
STATEMENT OF NET COST
FOR THE YEARS ENDED SEpTEMBER 30, 2012 AND 2011
(Dollars shown in thousands)


                                                                                2012         2011
 Costs by Strategic Goal:
          protect consumers (pc) strategic goal:
                    gross costs (note 12)                                  $ 164,767    $ 169,334
                    less: earned revenue (note 13)                           (13,794)     (14,233)
          net pc strategic goal costs                                        150,973      155,101


          maintain competition (mc) strategic goal:
                    gross costs (note 12)                                    121,287      129,315
                    less: earned revenue (note 13)                           (87,825)     (91,984)
          net mc strategic goal costs                                         33,462       37,331
 Net Cost of Operations                                                    $ 184,435    $ 192,432
The accompanying notes are an integral part of these statements.




                                                      fiscal year   2012                             113
                    FEDERAL TRADE COMMISSION
financial section

                    STATEMENT OF CHANGES IN NET pOSITION
                    FOR THE YEARS ENDED SEpTEMBER 30, 2012 AND 2011
                    (Dollars shown in thousands)

                                                                                                     2012           2011
                     Cumulative Results of Operations:
                              Beginning balance, adjusted                                     $ 93,196       $ 87,650
                              Budgetary financing sources:
                                        appropriations used                                      210,267         186,219
                              other financing sources (non-exchange):
                                        Imputed financing                                           9,726          11,759
                              total financing sources                                             219,993        197,978
                              less: net cost of operations                                       (184,435)       (192,432)
                              net change                                                           35,558          5,546
                     Total Cumulative Results of Operations                                  $ 128,754       $ 93,196


                     Unexpended Appropriations:
                              Beginning balance, adjusted                                    $          -    $          -
                              Budgetary financing sources:
                                        appropriations received                                  210,267         186,219
                                        less: appropriations used                                (210,267)   (186,219)
                              total Budgetary financing sources                                         -               -
                     Total Unexpended Appropriations                                         $          -    $          -
                     Net Position (Note 1(o))                                                $ 128,754       $ 93,196
                     The accompanying notes are an integral part of these statements.




      114                                Federal Trade Commission | Performance and Accountability Report
FEDERAL TRADE COMMISSION




                                                                                                                  financial section
STATEMENT OF BUDGETARY RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011
(Dollars shown in thousands)

                                                                                         2012           2011
Budgetary Resources:
    unobligated balance, brought forward, october 1                                 $ 20,575       $ 13,128
    recoveries of prior year unpaid obligations                                         4,341          8,231
    unobligated balance from prior year budget authority, net                          24,916         21,359
    appropriations                                                                    210,267        186,219
    spending authority from offsetting collections                                    102,610        106,056
Total Budgetary Resources                                                           $ 337,793      $ 313,634

Status of Budgetary Resources:
    obligations incurred (note 14):                                                 $ 280,015      $ 293,059
    unobligated balance, end of period:
          apportioned (note1(r))                                                       56,434         17,882
          unapportioned                                                                 1,344          2,693
    total unobligated balance, end of period                                           57,778         20,575
Total Status of Budgetary Resources                                                 $ 337,793      $ 313,634

Change in Obligated Balance:
   unpaid obligations, brought forward, october 1                                   $ 87,672       $ 90,622
   uncollected customer payments from federal sources, brought forward, october 1          (115)         (320)
   obligated balance, start of year, net                                               87,557         90,302
   obligations incurred (note 14):                                                    280,015        293,059
   outlays, gross                                                                    (283,770)      (287,778)
   change in uncollected customer payments from federal sources                           (983)            205
   recoveries of prior year unpaid obligations                                          (4,341)        (8,231)
   obligated balance, end of period, net:
        unpaid obligations, end of period                                             79,576           87,672
        uncollected customer payments from federal sources, end of period             (1,098)            (115)
   obligated balance, end of period, net                                            $ 78,478       $   87,557

Budget Authority and Outlays, Net:
   Budget authority, gross                                                          $ 312,877      $ 292,275
   actual offsetting collections                                                      (101,627)      (106,261)
   change in uncollected customer payments from federal sources                           (983)           205
   Budget authority, net                                                            $ 210,267      $ 186,219

    outlays, gross                                                                  $ 283,770      $ 287,778
    actual offsetting collections                                                     (101,627)     (106,261)
    outlays, net                                                                       182,143       181,517
    distributed offsetting receipts                                                     (15,478)      (13,417)
    agency outlays, net                                                             $ 166,665      $ 168,100
The accompanying notes are an integral part of these statements.




                                                      fiscal year   2012                                         115
                    FEDERAL TRADE COMMISSION
financial section

                    STATEMENT OF CUSTODIAL ACTIvITY
                    FOR THE YEARS ENDED SEpTEMBER 30, 2012 AND 2011
                    (Dollars shown in thousands)

                                                                                            PC           MC           2012          2011
                     Revenue Activity (Note 17):
                              sources of collections
                                        premerger filing fees (net of refunds)       $        -   $ 87,544     $ 87,544      $ 91,424
                                        civil penalties and fines                         6,602            -        6,602        23,275
                                        redress (note 18)                                15,261            -        15,261        13,177
                                        other miscellaneous receipts                       217             -          217           240
                              total cash collections                                     22,080       87,544       109,624       128,116
                              accrual adjustments                                         3,634            -         3,634        (9,908)
                     Total Custodial Revenue                                         $ 25,714     $ 87,544     $ 113,258     $ 118,208


                     Disposition of Collection (Note 17):
                              transferred to others:
                                        treasury general fund                        $ 22,080     $        -   $ 22,080      $ 36,692
                                        department of Justice                                 -       87,544        87,544       91,424
                              Increase/(decrease) in amounts yet to be transferred        3,634            -         3,634        (9,908)
                     Total Disposition of Collections                                $ 25,714     $ 87,544     $ 113,258     $ 118,208
                     Net Custodial Activity                                          $        -   $        -   $         -   $         -

                    The accompanying notes are an integral part of these statements.




      116                                Federal Trade Commission | Performance and Accountability Report
                                                                                                                         financial section
NOTES TO THE FINANCIAL
STATEMENTS
Note 1—Summary of Significant
Accounting Policies
(a) REpORTING ENTITY                                       funds that are primarily comprised of proceeds derived
                                                           from court ordered judgments and settlements held for
The Federal Trade Commission (FTC) is an                   subsequent distribution to approved claimants. These
independent United States Government agency,               funds are considered non-entity and are reported as
established by the Federal Trade Commission Act of         such on the Balance Sheet.
1914. The FTC enforces a variety of federal antitrust
and consumer protection laws. The agency is headed         (b) FUND ACCOUNTING STRUCTURE
by five Commissioners, nominated by the President
and confirmed by the Senate, each serving a seven-year     The FTC’s financial activities are accounted for using
term. The President chooses one Commissioner to act        various funds (i.e., Treasury Account Symbols (TAS)).
as Chairman. No more than three Commissioners can          They include the following for which the FTC maintains
be of the same political party.                            financial records:
                                                           general fund
The FTC has three major bureaus: The Bureau of
Consumer Protection (BCP), which supports the              TAS 29X0100 consists of a salaries and expense
strategic goal of protecting consumers, the Bureau of      appropriation used to fund agency operations and
Competition (BC), which supports the strategic goal of     capital expenditures. Offsetting collections received
maintaining competition, and the Bureau of Economics       during the year are also recorded in the general fund.
(BE), which supports both bureaus and strategic goals.     (See Note 13 Exchange Revenues.)
Additionally, various Offices provide mission support      dePosit fund
functions and services.
                                                           TAS 29X6013 consists of monies held temporarily by
                                                           the FTC as an agent for others (e.g., redress funds) prior
The majority of the FTC’s staff is located in
                                                           to distribution through the consumer redress program.
Washington DC; however, the FTC’s regions cover
seven geographic areas. The regional offices work          susPense fund
with BCP and BC to conduct investigations and              TAS 29F3875 consists of premerger filing fees collected
litigation; provide advice to state and local officials    by the FTC under the Hart-Scott-Rodino (HSR)
on the competitive implications of proposed actions;       Antitrust Improvement Act of 1976 that are distributed
recommend cases; provide local outreach services           equally to the FTC as a funding source and to the
to consumers and business persons; and coordinate          Department of Justice (DOJ). (See Note 1(p) Revenues
activities with local, state, and regional authorities.    and Other Financing Sources).
The regional offices frequently sponsor conferences
for small businesses, local authorities, and consumer      misCellaneous reCeiPt aCCounts
groups.                                                    TAS 29 1040 and TAS 29 3220 consist of civil penalties,
                                                           redress disgorgements to the Department of the
The financial statements and notes include the             Treasury (Treasury) and other miscellaneous receipts
accounts of all funds under the FTC’s control.             that by law are not retained by the FTC. Cash balances
As further described throughout these notes, in            are automatically transferred to the general fund of the
addition to appropriations received for salaries and       Treasury at the end of each fiscal year.
necessary expenses, the FTC maintains control over




                                                    fiscal year   2012                                                  117
                    (c) BASIS OF ACCOUNTING AND                                   (d) USE OF ESTIMATES
financial section
                    pRESENTATION
                                                                                  The preparation of financial statements in conformity
                    The accompanying financial statements present the             with GAAP requires management to make estimates
                    financial position, net cost of operations, changes in net    and assumptions that affect the reported amounts
                    position, budgetary resources, and custodial activities of    of assets and liabilities at the date of the financial
                    the FTC. They have been prepared from the accounting          statements and the reported amounts of revenues and
                    records of the FTC. These financial statements may            expenses during the reporting period. Actual results
                    differ from other financial reports submitted pursuant        could differ from those estimates.
                    to the Office of Management and Budget (OMB)
                    directives for the purpose of monitoring and controlling      (e) BUDGET AUTHORITY
                    the use of the FTC’s budgetary resources.
                                                                                  The Congress passes appropriations annually that
                    As noted above, the FTC maintains a single fund to            provide the FTC with authority to obligate funds
                    account for salaries and all necessary expenses. Further,     for necessary expenses to carry out mandated
                    there are no intra-entity transactions with any other         program activities. These funds are available until
                    fund (e.g., deposit fund) that would require eliminating      expended, subject to the OMB apportionment and to
                    entries to present consolidated statements. Accordingly,      Congressional restrictions on the expenditure of funds.
                    the statements are not labeled consolidated nor is the        In addition, the FTC places internal restrictions on fund
                    Statement of Budgetary Resources (SBR) presented as           expenditures to ensure the efficient and proper use of
                    combined.                                                     all funds. Appropriated funding is derived from various
                                                                                  revenues and financing sources. The SBR reflects the
                    Transactions are recorded on both an accrual accounting       single general fund (i.e. TAS 29X0100) for which the
                    basis and a budgetary accounting basis. Under the             FTC has budget authority.
                    accrual method, revenues are recognized when earned,
                    and expenses are recognized when a liability is incurred,     (f) ENTITY/NON-ENTITY ASSETS
                    without regard to receipt or payment of cash. Budgetary
                    accounting facilitates compliance with legal constraints      Assets that an agency is authorized to use in its
                    and controls on the use of Federal funds.                     operations are entity assets. Assets that an agency holds
                                                                                  on behalf of another federal agency or a third party
                    Assets, liabilities, revenues and costs are classified        and are not available for the agency’s use are non-entity
                    in these financial statements according to the                assets.
                    type of entity associated with the transactions.
                    Intragovernmental assets and liabilities are those due        (g) FUND BALANCE wITH TREASURY
                    from or to other Federal entities. Intragovernmental
                    revenues are earned from other Federal entities.              The FTC’s Fund Balance with Treasury (FBWT)
                    Intragovernmental costs are payments or accruals due          includes appropriated funds, deposit funds for
                    to other Federal entities. Transactions and balances not      subsequent disbursement to claimants, and premerger
                    associated with Federal entities are classified as with the   filing fees awaiting disbursement to the DOJ. Funds
                    public.                                                       are carried forward until such time as goods or services
                                                                                  are received and payment is made. All cash receipts
                    The financial statements have been prepared in                are deposited with the Treasury and all disbursements
                    conformity with generally accepted accounting                 for payroll and vendor invoices are disbursed by the
                    principles (GAAP) of the United States of America             Treasury.
                    for federal entities and with the form and content of
                    financial statements specified by the OMB Circular
                    A-136, Financial Reporting Requirements (as revised
                    August 2012). GAAP for federal entities incorporate
                    the standards prescribed by the Federal Accounting
                    Standards Advisory Board (FASAB).


      118                               Federal Trade Commission | Performance and Accountability Report
(h) CASH AND OTHER MONETARY ASSETssets                     (k) ACCRUED LIABILITIES AND




                                                                                                                       financial section
                                                           ACCOUNTS pAYABLE
The FTC’s consumer redress agents process claims
                                                           Accrued liabilities and accounts payable represent a
and disburse redress proceeds to approved claimants.
                                                           probable future outflow or other sacrifices of resources
Upon approval of the redress office, amounts necessary
                                                           as a result of past transactions or events. Liabilities
to cover current disbursement schedules are held as
                                                           are recognized when they are incurred, regardless
cash in interest bearing accounts. These funds are
                                                           of whether they are covered by budgetary resources.
considered non-entity assets and are reported on the
                                                           Liabilities cannot be liquidated without legislation
Balance Sheet along with an offsetting non-entity
                                                           that provides the resources to do so. In addition,
liability.
                                                           the government, acting in its sovereign capacity, can
                                                           abrogate the FTC liabilities (other than contracts).
(i) INvESTMENTS                                            (See Note 8 Liabilities Not Covered by Budgetary
                                                           Resources and Note 9 Other Liabilities.)
In protecting consumers, the FTC collects proceeds
from defendants in accordance with court ordered
                                                           (l) EMpLOYEE HEALTH BENEFITS AND
judgments and settlement agreements for consumer
                                                           LIFE INSURANCE
redress and holds these proceeds in the deposit
fund (TAS 29X6013) established with the Treasury.          FTC employees are eligible to participate in the
Under an agreement with the Treasury, the portion          contributory Federal Employees Health Benefit
of such judgments and settlements that were not            Program (FEHBP) and the Federal Employees
immediately needed for cash disbursements were             Group Life Insurance Program (FEGLIP). The FTC
invested in Treasury securities. These investments         contributes a percentage to each program to pay for
were considered non-entity assets and were reported        current benefits.
on the Balance Sheet along with an offsetting
non-entity liability. After performing an analysis of      (m) EMpLOYEE RETIREMENT BENEFITS
the yield versus the related costs, the FTC discontinued
this practice in August 2012 and all funds that were       FTC employees participate in either the Civil Service
invested in Treasury securities were returned to FTC’s     Retirement System (CSRS) or the Federal Employees
deposit fund as FBWT.                                      Retirement System (FERS). Employees hired after
                                                           December 31, 1983, are covered by FERS and Social
(j) ACCOUNTS RECEIvABLE, NET                               Security, while employees hired prior to January 1,
                                                           1984, were allowed to elect joining FERS or remaining
Entity accounts receivable consist of amounts due          in CSRS. For employees participating in CSRS, the
from other federal entities and from current and           FTC contributes seven percent of the employee’s
former employees and vendors. Non-entity accounts          gross earnings to the CSRS Retirement and Disability
receivable include uncollected civil monetary penalties    Fund. For employees participating in FERS, the FTC
imposed as a result of the FTC’s enforcement activities    contributes 11.9 percent to the Federal Employees’
and uncollected redress judgments. These non-entity        Retirement Fund. Employees participating in FERS
accounts receivable are reported on the Balance Sheet      are covered under the Federal Insurance Contributions
along with an offsetting non-entity liability.             Act (FICA) for which the FTC contributes a matching
Gross receivables are reduced to net realizable value      amount to the Social Security Administration. FTC
by an allowance for uncollectible accounts. (See Note      contributions are recognized as current operating
6 Accounts Receivable, Net.)                               expenses.




                                                   fiscal year   2012                                                 119
                    The Thrift Savings Plan (TSP) is a defined contribution     (n) OTHER pOST-EMpLOYMENT BENEFITS
financial section
                    retirement savings and investment plan for employees
                    covered by either CSRS or FERS. Participating               The FTC employees eligible to participate in the
                    employees may contribute any dollar amount or               FEHBP and the FEGLIP may continue to participate
                    percentage of basic salary to the TSP, not to exceed        in these programs after their retirement. The OPM has
                    an annual dollar amount of $17,000 for 2012. CSRS           provided the FTC with certain cost factors that estimate
                    participating employees do not receive a matching           the true cost of providing the post-retirement benefit
                    contribution from the FTC. FERS employees receive           to current employees. The FTC recognizes a current
                    an agency automatic one percent contribution of gross       cost for these and Other Retirement Benefits (ORB)
                    pay to the TSP. The FTC also matches 100 percent            at the time the employee’s services are rendered. The
                    of the first three percent contributed and 50 percent       ORB expense is financed by OPM, and offset by the
                    of the next two percent contributed. Such the FTC           FTC through the recognition of an imputed financing
                    contributions are recognized as current operating           source. During FYs ended 2012 and 2011, the cost
                    expenses.                                                   factors relating to FEHBP were $5,817 and $6,027,
                                                                                respectively, per employee enrolled. During FYs 2012
                    Although the FTC contributes a portion for pension          and 2011, the cost factor relating to FEGLIP was 0.02
                    benefits and makes the necessary payroll withholdings,      percent of basic pay per employee enrolled.
                    it is not responsible for managing contribution refunds,
                    employee’s retirement benefits, or the retirement           (o) NET pOSITION
                    plan assets. Therefore, the FTC financial statements
                                                                                Cumulative results of operations represent the net
                    do not report CSRS and FERS assets, accumulated
                                                                                results of operations since inception, the cumulative
                    plan benefits, or unfunded liabilities, if any, which
                                                                                amount of prior period adjustments, the remaining
                    may be applicable to employees. Such reporting is the
                                                                                book value of capitalized assets, and future funding
                    responsibility of the Office of Personnel Management
                                                                                requirements.
                    (OPM). However, the FTC recognizes the full cost of
                    providing future pension benefits to covered employees
                                                                                The portion of the FTC’s budget authority that is
                    at the time the employees’ services are rendered. OPM
                                                                                funded by a direct appropriation is fully expended
                    has provided the FTC with certain cost factors that
                                                                                during the year. Therefore, there is no unexpended
                    estimate the true service cost of providing the pension
                                                                                appropriation balance in net position at the end of the
                    benefits to covered employees. During FYs 2012 and
                                                                                year. (See Statement of Changes in Net Position.)
                    2011, the cost factors used to arrive at the service cost
                    for CSRS covered employees were 29.8 percent and
                    30.1 percent of basic pay, respectively. During FYs         (p) REvENUES AND OTHER FINANCING
                    2012 and 2011, the cost factors for FERS covered            SOURCES
                    employees were 13.7 percent and 13.8 percent of basic       The FTC’s funding is derived from spending authority
                    pay, respectively. The pension expense recognized           from offsetting collections revenue and from direct
                    in the financial statements equals this service cost to     appropriation. Spending authority from offsetting
                    covered employees less amounts contributed by these         collections is comprised of collections of premerger
                    employees. If the pension expense exceeds the amount        filing fees under the authority of the HSR Act,
                    contributed by the FTC as employer, the excess is           collection of fees related to the Do-Not-Call (DNC)
                    recognized as an imputed financing cost. The excess         Implementation Act, and amounts received for services
                    total pension expense over the amount contributed by        performed under reimbursable agreements with other
                    the agency must be financed by OPM and is recognized        federal agencies. All of the FTC’s offsetting collections
                    as an imputed financing source on the records of the        are exchange revenues. (See Note 13 Exchange
                    FTC.                                                        Revenues.)




      120                              Federal Trade Commission | Performance and Accountability Report
In addition to exchange revenue, the FTC receives




                                                                           financial section
funding through a direct appropriation from the
general fund of the Treasury to support its operations.
The direct appropriation represented approximately
62 percent of total budgetary resources in FY 2012
and 59 percent in FY 2011.

(q) METHODOLOGY FOR ASSIGNING
COSTS AND ExCHANGE REvENUES
Total net costs are allocated to the Protect Consumers
strategic goal and the Maintain Competition strategic
goal. (See Statement of Net Cost.) Costs and exchange
revenues that are identified specifically with each of
these two strategic goals are charged or credited directly.
Other costs not directly attributable to these two goals
are allocated based on the percentage of direct fulltime
equivalents used by each of these two goals. These
other indirect costs include costs related to the Advance
Performance strategic goal.

(r) UNOBLIGATED BALANCE
The amount reported on the Statement of Budgetary
Resources as Unobligated balance, end of period,
Apportioned for FY 2012 includes $45.1 million that
was designated to fund costs associated with replacing
leases for office space located at 601 New Jersey
Avenue and 1800 M Street and for relocating affected
staff into a new single facility. The FTC experienced
certain delays that were outside of its direct control,
but recently secured a new lease working in partnership
with the General Services Administration and the
Office of Management and Budget. Current plans call
for these funds to be obligated in FY 2013 with the
anticipated occupancy of the FTC’s new leased space in
FY 2014.




                                                     fiscal year   2012   121
                    Note 2—Non-entity Assets
financial section
                    Non-entity Fund Balance with Treasury is comprised of          redress. Cash and other Monetary Assets consist of
                    undisbursed premerger filing fees and deposits held for        amounts on deposit with FTC distribution agents.
                    the consumer redress program. Investments represent            Accounts receivable represent amounts due from
                    funds not required for current distribution for consumer       consumer redress judgments and civil penalties.



                    Non-entity assets consisted of the following as of September 30, 2012 and 2011 (in thousands):
                                                                                                              2012                     2011
                     Intragovernmental:
                              fund balance with treasury                                                 $ 56,575               $     4,093
                              Investments                                                                            -               35,443
                     total intragovernmental:                                                               56,575                   39,536
                              cash and other monetary assets                                                28,360                   44,944
                              accounts receivable, net                                                      30,944                   11,321
                     Total non-entity assets                                                               115,879                   95,801
                     Total entity assets                                                                   155,638                  127,582
                     Total assets                                                                       $ 271,517               $ 223,383




                    Note 3—Fund Balance with Treasury
                    Fund balance includes appropriated funds, which are            also includes non-entity funds arising from undisbursed
                    either unobligated, or obligated as an account payable or      HSR filing fees due to the DOJ and collections of
                    undelivered order and not yet disbursed. Fund balance          redress judgments not yet disbursed to claimants.

                    Fund Balance with Treasury consisted of the following as of September 30, 2012 and 2011 (in thousands):
                                                                                                               2012                     2011
                     Fund balance with Treasury:
                              appropriated funds                                                         $ 136,256              $ 108,132
                              desposit funds - redress                                                      56,575                  3,803
                              suspense fund - hsr filing fees                                                  (45)                   290
                     Total fund balance with Treasury                                                    $ 192,786              $ 112,225

                     Status of fund balance with Treasury:
                               unobligated balance
                                        apportioned                                                       $ 56,434                  $ 17,882
                                           unavailable                                                        1,344                    2,693
                               obligated balance not yet disbursed                                           78,478                   87,557
                               non-Budgetary fund balance with treasury
                                        deposit funds - redress                                             56,575                  3,803
                                        suspense fund - hsr filing fees                                        (45)                   290
                     Total status fund balance with Treasury                                             $ 192,786              $ 112,225




      122                                   Federal Trade Commission | Performance and Accountability Report
Note 4—Cash




                                                                                                                                      financial section
and Other
Monetary Assets
In connection with the consumer
redress program, cash amounts                 Cash and other monetary assets consisted of the following as
                                              of September 30, 2012 and 2011 (in thousands):
necessary to cover current disbursement
schedules are held at financial                                                                                2012           2011
institutions in interest bearing               cash and other monetary assets:
accounts pursuant to court orders                       redress contractors                            $ 28,360           $ 44,944
and are reported as non-entity                 Total cash and other monetary assets                    $ 28,360           $ 44,944
assets. A corresponding liability is
recorded for these assets. The FTC’s
consumer redress agents process
claims and disburse redress proceeds
to claimants upon approval of the
redress office. (See Note 18 Redress
and Divestiture Activities.)

Note 5—Investments
After performing an analysis of the yield versus the related costs, the FTC discontinued this practice in
August 2012 and all funds that were invested in Treasury securities were returned to FTC’s deposit fund as
FBWT. Previously, funds not needed to cover immediate disbursements for consumer redress were invested in
Government Account Series (GAS) securities under an agreement with the Bureau of Public Debt. GAS securities
are non-marketable, market-based Treasury securities that are not traded on any securities exchange but mirror
the prices of particular Treasury securities trading in the government securities market. Additionally, in FY 2011
the investments balance at the beginning of the year included long-time reserved funds that had been from one
judgment related to the FTC’s maintaining competition mission. The invested funds from this judgment were
returned to the defendants during FY 2011. (See Note 18 Redress and Divestiture Activities.)
As of September 30, 2012, investments consisted of the following (in thousands):
                                                       Amortized                                                   Market
                                          Amortization            Interest         Investment      Other
                             Cost                      (Premium)                                                    Value
                                            Method               Receivable           Net       Adjustments
                                                        Discount                                                  Disclosure
 Intragovernmental
 securities:
 non-marketable:
          market-Based       $      -          n/a              -           -         $     -              -          $       -
Total investments            $      -          n/a              -           -         $     -              -          $       -

As of September 30, 2011, investments consisted of the following (in thousands):

                                                       Amortized                                                  Market
                                          Amortization            Interest         Investment      Other
                             Cost                      (Premium)                                                   Value
                                            Method               Receivable           Net       Adjustments
                                                        Discount                                                 Disclosure
 Intragovernmental
 securities:
 non-marketable:
          market-Based     $ 35,443            n/a             -           -        $ 35,443           -          $ 35,443
Total investments          $ 35,443            n/a             -           -        $ 35,443           -          $ 35,443



                                                       fiscal year   2012                                                            123
                    Note 6—Accounts Receivable, Net
financial section
                    Accounts receivable, net balances reflect the FASAB               The method used to estimate the allowance for
                    standard for the recognition of losses using the                  uncollectible receivables consists of individual case
                    collection criterion of “more likely than not.”                   analysis by the attorney case manager with respect to the
                    This criterion results in receivable balances that are            debtor’s ability and willingness to pay, the defendant’s
                    more conservatively stated than those valued by                   payment record, and the probable recovery amount
                    the private sector under GAAP. FASAB states that                  including the value of the sale of assets. Based on the
                    it is appropriate to recognize the nature of federal              aforementioned, cases are referred to the Treasury
                    receivables, which, unlike trade accounts of private              Offset Program for collection activities after the
                    firms or loans made by banks, are not created through             receivable becomes six months delinquent in payment.
                    credit screening procedures. Rather, these receivables
                    arise because of the assessment of fines from
                    regulatory violations. In these circumstances, historical
                    experience and economic realities indicate that these
                    types of claims are frequently not fully collectible.


                    Accounts receivable, net consisted of the following as of September 30, 2012 and 2011 (in thousands):

                                                                                         Allowance for
                                                                     Gross
                                                                                         Uncollectible        2012 Net           2011 Net
                                                                   Receivables
                                                                                           Accounts
                      entity accounts receivable:
                               Intragovernmental                        $     995             $          -         $     995          $     26
                               With the public                                   47                      -                47                53
                      total entity acounts receivable, net              $   1,042             $          -         $ 1,042            $     79


                      non-entity accounts receivable:
                               consumer redress                        $ 983,278              $956,059            $ 27,219            $11,229
                                 civil penalties                            33,719                29,994               3,725                92
                      total non-entity accounts receivable, net        $1,016,997             $986,053            $ 30,944            $11,321
                      Total accounts receivable, net                   $1,018,039             $986,053            $ 31,986            $11,400




      124                                  Federal Trade Commission | Performance and Accountability Report
Note 7—General Property and




                                                                                                                            financial section
Equipment, Net
FTC capitalizes property and equipment with an                     Amounts reported as equipment are comprised
initial cost of $100 thousand or greater and a useful              mostly of computer hardware and other building
life over two years. Such assets are depreciated using             equipment. The FTC does not own buildings,
the straight-line method of depreciation with service              but rather, in partnership with General Services
lives ranging from five to twenty years. Leasehold                 Administration (GSA) leases both federally owned
improvements that cost $100 thousand or greater are                (by GSA) and commercial space. (See Note 10 Leases.)
capitalized and amortized over the remaining life of the           The leasehold improvements below consist
lease. Additionally, internal use software development             of improvements made to the FTC headquarters
and acquisition costs of $100 thousand or greater are              building (owned by the GSA), located in Washington,
capitalized as software development-in-progress until the          DC, and to the FTC commercially leased space also
development stage has been completed and the software              located in Washington, DC.
successfully tested. Upon completion and testing,
software development-in-progress costs are reclassified            Depreciation expense was $3,766 and $3,783 thousand
as internal use software costs and amortized using the             for fiscal years ending September 30, 2012 and 2011,
straight-line method over the estimated useful life of             respectively, and is contained in the accumulated
three to five years. Purchased commercial software that            depreciation.
does not meet the capitalization criteria is expensed.



As of September 30, 2012, general property and equipment, net consisted of the following (in thousands):

                                                       Service            Acquisition      Accumulated          Net
                    Asset Class
                                                        Life                Value          Depreciation      Book Value
 equipment                                             5-20 yrs.            $ 13,447          $    7,363       $ 6,084
 leasehold improvements                               lease term               14,351             5,742           8,609
 software                                              3-5 yrs.                15,275             11,583          3,692
 Total general property and equipment, net                                  $ 43,073         $ 24,688          $ 18,385




As of September 30, 2011, general property and equipment, net consisted of the following (in thousands):

                                                       Service            Acquisition      Accumulated          Net
                     Asset Class
                                                        Life                Value          Depreciation      Book Value
 equipment                                             5-20 yrs.            $ 10,357          $ 7,003          $ 3,354
 leasehold improvements                               lease term               14,403              4,787           9,616
 software                                               3-5 yrs.               16,187              9,786           6,401
 Total general property and equipment, net                                  $ 40,947          $ 21,576          $ 19,371




                                                      fiscal year      2012                                                125
                    Note 8—Liabilities Not Covered by Budgetary Resources
financial section
                    Liabilities not covered by budgetary resources consisted of the following as of September 30, 2012 and 2011 (in thousands):
                                                                                                                     2012                  2011
                     Intragovernmental:
                               undisbursed premerger fees liability                                             $        -           $      290
                               civil penalty collections due to treasury                                             3,725                   92
                               feca liability                                                                         390                   372
                               other unfunded employment related liability                                              7                     15
                     total intragovernmental liabilities not covered by budgetary resources                    $     4,122            $     769
                     accrued redress receivables due to claimants                                                   27,219                11,229
                     redress collected not yet disbursed                                                            84,935                84,190
                     unfunded leave                                                                                 11,529                11,013
                     actuarial feca                                                                                 2,080                 2,208
                     Total liabilities not covered by budgetary resources                                      $ 129,885              $ 109,409
                     Total liabilities covered by budgetary resources                                               12,878                20,778
                     Total liabilities                                                                         $ 142,763              $ 130,187




                    U                                                                    R




      126                                 Federal Trade Commission | Performance and Accountability Report
Note 9—Other Liabilities




                                                                                                                      financial section
Other liabilities consisted of the following as of September 30, 2012 (in thousands):

                                                                         2012                  2012
                                                                                                       2012 Total
                                                                   Non-Current               Current
 Intragovernmental:
           accrued benefits                                            $       -         $      591     $     591
           civil penalty collection due to treasury                            -              3,725         3,725
           feca liability                                                   390                    -          390
 total Intragovernmental                                                    390               4,316         4,706
 accrued salary                                                                -              2,911          2,911
 accrued leave                                                                 -             11,529         11,529
 actuarial feca                                                            2,080                   -        2,080
 Total Other Liabilities                                               $ 2,470          $ 18,756       $ 21,226

Other liabilities consisted of the following as of September 30, 2011 (in thousands):

                                                                         2011                  2011
                                                                                                       2011 Total
                                                                   Non-Current               Current
 Intragovernmental:
           accrued benefits                                            $       -         $      676     $     676
           undisbursed premerger liability                                     -                290           290
           civil penalty collection due to treasury                            -                 92            92
           feca liability                                                   372                    -          372
 total Intragovernmental                                                    372               1,058         1,430
 accrued salary                                                                -              4,257         4,257
 accrued leave                                                                 -             11,013         11,013
 actuarial feca                                                            2,208                   -        2,208
 Total Other Liabilities                                               $ 2,580          $ 16,328       $ 18,908




                                                        fiscal year    2012                                          127
                    Note 10—Leases                                               Note 11—Commitments and
financial section
                    Leases of commercial property are made through
                                                                                 Contingencies
                    and managed by GSA. The FTC has leases on four               The FTC is a party in various administrative proceedings,
                    government-owned properties and nine commercial              legal actions, and claims brought by or against it.
                    properties. The FTC’s current leases expire at               In the opinion of the FTC management and legal
                    various dates through 2023. Certain leases provide           counsel, the ultimate resolution of these proceedings,
                    for tenant improvement allowances and that these             actions, and claims, will not materially affect the financial
                    costs be amortized over the length of the leases.            position or the results of operations of the FTC.
                    Under the terms of the leases, the FTC agrees to
                    reimburse the landlord for the principal balance of
                    the unamortized portion of the tenant improvement            Note 12—Intragovernmental Costs
                    allowance in the event the agency vacates the space          and Exchange Revenues
                    before lease expiration. The FTC rents approximately
                    636,000 square feet of space in both commercial and          Intragovernmental costs represent costs incurred for
                    government-owned properties for use as offices, storage      goods or services provided by another federal entity.
                    and parking. All FTC leases are operating leases. Rent       Public costs represent costs incurred for goods or
                    expenditures for the years ended September 30, 2012          services from a nonfederal entity. Intragovernmental
                    and 2011, were approximately $24,374 and $22,006             earned revenue represents goods or services provided
                    thousand, respectively.                                      by the FTC to another federal entity. Public earned
                                                                                 revenue represents goods or services provided by
                    Future minimum lease payments due under leases               the FTC to a nonfederal entity. The purpose of this
                    of government-owned property as of September                 classification is to enable the federal government to
                    30, 2012, are as follows (in thousands):                     provide consolidated financial statements.
                    Fiscal Year
                     2013                                            $ 6,854
                     2014                                               6,567
                     2015                                                 268
                     2016                                                 270
                     2017                                                 247
                     Thereafter                                           420
                     Total Future Minimum Lease Payments             $ 14,626

                    Future minimum lease payments under leases of commercial
                    property due as of September 30, 2012, are as follows (in
                    thousands):
                    Fiscal Year
                     2013                                            $ 16,251
                     2014                                               16,486
                     2015                                               14,458
                     2016                                               14,481
                     2017                                               12,112
                     Thereafter                                          4,321
                     Total Future Minimum Lease Payments             $ 78,109




      128                               Federal Trade Commission | Performance and Accountability Report
For the FYs ended September 30, 2012 and 2011, intragovernmental and public costs and exchange revenues are as




                                                                                                                         financial section
follows (in thousands):
                                                                                  2012                       2011
 Protect Consumers (PC) Strategic Goal:
                    Intragovernmental gross costs                           $ 43,660                   $ 43,116
                    public costs                                               121,107                    126,218
          total pc strategic goal costs                                       164,767                     169,334
                    Intragovernmental earned revenue                               (42)                      (513)
                    public earned revenue                                      (13,752)                   (13,720)
          total pc strategic goal earned revenue                               (13,794)                   (14,233)
 Total PC strategic goal net costs                                            150,973                     155,101


 Maintain Competition (MC) Strategic Goal:
                    Intragovernmental gross costs                               32,139                     32,926
                    public costs                                                89,148                     96,389
          total mc strategic goal costs                                       121,287                     129,315
                    Intragovernmental earned revenue                              (281)                      (560)
                    public earned revenue                                      (87,544)                   (91,424)
          total mc strategic goal earned revenue                               (87,825)                   (91,984)
 Total MC strategic goal net costs                                             33,462                      37,331
 Net Cost of Operations                                                     $ 184,435                  $ 192,432



Note 13—Exchange Revenues                                     Exchange revenues are also earned through the
                                                              collection of fees for the National DNC Registry.
Exchange revenues are earned through the collection of        This Registry operates under Section 5 of the FTC
fees under the HSR Act. This Act, in part, requires the       Act, which enforces the Telemarketing Sales Rule.
filing of premerger notifications with the FTC and the        Public Law (P.L.) No. 110-188, the Do- Not-Call
Antitrust Division of the DOJ and establishes a waiting       Extension Act of 2007, amended the Do-Not-Call
period before certain acquisitions may be consummated.        Implementation Act (P.L. No. 108-010) and established
Mergers with transaction valuation above $68.2 million        a permanent fee structure. Fees are reviewed annually
require the acquiring party to pay a filing fee. The filing   and adjusted for inflation as appropriate in accordance
fees are based on the transaction amount and follow           with P.L. 110-188. Telemarketers are required to pay
a three-tiered structure: $45, $125 and $280 thousand.        an annual subscription fee and download from the
The FTC collects all HSR premerger fees, retains              DNC Registry database a list of telephone numbers of
one-half, and remits 50 percent to the DOJ Antitrust          consumers who do not wish to receive calls. Fees are
Division pursuant to public law. Revenue is recognized        based on the number of area codes downloaded. On
upon collection of the appropriate fee and verification       October 1, 2011, the minimum charge was raised from
of proper documentation.                                      $55 to $56 to download one area code. The maximum
                                                              charge was raised from $15,058 to $15,503 for all area
                                                              codes within the United States. Revenue is recognized
                                                              when collected and the telemarketer is given access to
                                                              the requested data.




                                                       fiscal year   2012                                               129
                    Exchange revenue is also earned for services provided               Note 15—Explanation of
financial section
                    to other government agencies through reimbursable
                    agreements. The FTC recovers the full cost of services,
                                                                                        Differences between the
                    primarily salaries and related expenses. Revenue is                 Statement of Budgetary
                    earned at the time the expenditures are incurred against            Resources and the Budget of the
                    the reimbursable order. Exchange revenues are deducted              United States Government
                    from the full cost of the FTC’s strategic goals to arrive
                    at net strategic goal cost.                                         There are no material differences between amounts
                                                                                        reported in the FY 2011 Statement of Budgetary
                                                                                        Resources and the FY 2011 actual amounts as
                    For the FYs ended September 30, 2012 and 2011, exchange
                    revenues consisted of the following (in thousands):                 reported in the FY 2013 Budget of the United States
                                                                                        Government. The FY 2014 Budget of the United
                                                            2012          2011
                                                                                        States is not available to compare FY 2012 actual
                     hsr premerger filing fees        $ 87,544       $ 91,424           amounts to the FY 2012 Statement of Budgetary
                     do not call registry fees           13,752         13,720          Resources.
                     reimbursable agreements                323          1,073
                    Total obligations incurred        $ 101,619      $ 106,217
                                                                                        Note 16—Undelivered Orders at
                                                                                        the End of the Period
                                                                                        The amount of budgetary resources obligated for
                    Note 14—Apportionment                                               undelivered orders as of September 30, 2012 and
                    Categories of Obligations                                           2011, is $66,697 and $66,895 thousand respectively.
                    Incurred: Direct vs. Reimbursable
                    Obligations

                    App


                    For the FYs ended September 30, 2012 and 2011, obligations
                    incurred consisted of the following (in thousands):
                                                                   2012          2011
                    obligations incurred:
                    category a - direct obligations          $ 279,646    $ 292,146
                    category B - reimbursable obligations          369          913
                    Total obligations incurred               $ 280,015    $ 293,059




      130                                Federal Trade Commission | Performance and Accountability Report
                                                                                                                           financial section
Note 17—Custodial Activities                                  (DECREASE)/INCREASE IN AMOUNTS YET
                                                              TO BE TRANSFERRED
The primary custodial activities of the FTC are:
                                                              This represents the difference between the opening
pREMERGER FILING FEES                                         and closing balances for the offsetting liability is that
                                                              is established for the civil penalty funds due to be
All HSR premerger filing fees are collected by the FTC        collected (receivable).
pursuant to 15 U.S.C. 18a notes, as amended, and are
divided evenly between the FTC and the DOJ. During            Note 18—Redress and Divestiture
FY 2012 and FY 2011, the FTC collected $175,088 and
                                                              Activities
$182,848 thousand respectively, in HSR premerger filing
fees. The amounts designated for the DOJ as reported          REDRESS
on the Statement of Custodial Activity (SCA) were
$87,544 thousand for FY 2012 and $91,424 thousand             The FTC obtains consumer redress in connection with
for FY 2011. Fees to be credited back from DOJ and            the settlement or litigation of both its administrative
the Department of Treasury at September 30, 2012              proceedings and its federal court cases. The FTC
were $45 thousand; undistributed fees due the DOJ             attempts to distribute funds thus obtained to consumers
at September 30, 2011 were $290 thousand.                     whenever possible. If consumer redress is not practical,
                                                              the funds are paid (disgorged) to the Treasury, or
                                                              on occasion, other alternatives, such as consumer
CIvIL pENALTIES AND FINES
                                                              education, are permitted. Major components of the
Civil penalties collected in connection with the              program include eligibility determination, disbursing
settlement or litigation of the FTC’s administrative          redress to claimants, and accounting for the disposition
or federal court cases are collected by either the FTC        of these funds. Collections made against court-ordered
or the DOJ as provided for by law. The FTC deposits           judgments totaled $53,442 and $41,596 thousand during
these collections into the Treasury. Civil penalties          FYs 2012 and 2011, respectively.
collected also include amounts collected for undecided
civil penalty cases that are held until final disposition     DIvESTITURE FUND
of the case. All civil penalties collected are disgorged to
the general fund of the Treasury at the end of the year.      The divestiture fund consisted of one judgment
                                                              (obtained by the FTC in support of its strategic goal
                                                              to maintain competition) that required the defendants
REDRESS
                                                              to place funds in reserve under the FTC control. The
Collections for redress reported on the SCA are limited to    funds were available for development opportunities by
those collections that have been disgorged to the Treasury.   a competing company that had received divested assets
Collections disgorged to the Treasury were $15,261            from the defendants. A subsequent court decision
thousand for FY 2012 and $13,177 thousand for FY 2011.        allowed the funds to be returned to the defendants
                                                              in FY 2011.
Other line items on the SCA include:

ACCRUAL ADjUSTMENTS
The accrual adjustments represent the difference
between the opening and closing balances for civil
penalty accounts receivable, net of allowance.




                                                      fiscal year   2012                                                  131
                    Redress and divestiture fund activities consisted of the following for September 30, 2012 and 2011 (in thousands):
financial section
                                                                                                             2012                               2011
                    Redress:
                               Fund Balance with Treasury
                                         Beginning balance                                             $    3,803                        $      5,471
                                         collections                                                       53,442                              41,596
                                         disbursements to claimants, net                                         1                                (48)
                                         disgorgements to treasury                                         (15,261)                           (13,177)
                                         transfers, expenses, refunds                                      14,590                            (30,039)
                               Total fund balance with Treasury, ending                                $ 56,575                          $      3,803


                               Cash and Other Monetary Assets
                                         Beginning balance                                             $ 44,944                          $     21,473
                                         disbursements to claimants, net                                   (36,231)                          (116,089)
                                         transfers, expenses, interest income                              19,647                            139,560
                               Total cash and other monetary assets, ending                            $ 28,360                          $ 44,944


                               Investments
                                         Beginning balance                                             $ 35,443                          $ 153,582
                                         transfers, expenses, interest income                              (14,269)                          (118,139)
                                         return to deposit fund                                            (21,174)                                 -
                               Total investments, ending                                               $         -                       $ 35,443


                               Accounts receivable, net
                                         Beginning balance                                             $ 11,229                          $     38,170
                                         net activity                                                      15,990                             (26,941)
                               Total accounts receivable, ending                                       $ 27,219                          $     11,229


                     Divestiture Fund:
                               Investments
                                         Beginning balance                                             $         -                       $     45,523
                                         Interest, net of (expenses)                                             -                                 (4)
                                         return of funds                                                         -                            (45,519)
                               Total investments, ending                                               $         -                       $          -




      132                                 Federal Trade Commission | Performance and Accountability Report
Note 19 — Reconciliation of Net Cost of Operations to Budget




                                                                                                                    financial section
For the FYs ended September 30, 2012 and 2011 (in thousands):

                                                                                              2012         2011
 Resources Used to Finance Activities:
 Budgetary resources obligated:
          obligations incurred                                                           $ 280,015    $ 293,059
          less: spending authority from offsetting collections and recoveries             (106,951)    (114,287)
          obligations net of offsetting collections and recoveries                         173,064      178,772
 other resources:
          Imputed financing from costs absorbed by others                                    9,726       11,759
          net other resources used to finance activities                                     9,726       11,759
 Total resources used to finance activities                                                182,790      190,531


 Resources Used to Finance Items not Part of the Net Cost of Operations:
          change in budgetary resources obligated for goods,
                    services and benefits ordered but not yet provided                        256          2,936
          resources that finance the acquisition of assets                                  (5,283)      (5,093)
          Total resources used to finance items not part of the net cost of operations      (5,027)      (2,157)
 Total resources used to finance the net cost of operations                                177,763      188,374


 Components of the Net Cost of Operations that will not Require or
 Generate Resources in the Current Period:
          components requiring or generating resources in future periods:
                    Increase in annual leave liability                                        516          330
                    other                                                                     (113)         (55)
          total components of net cost of operations that will require or
          generate resources in future periods                                                403          275
          components not requiring or generating resources:
                    depreciation and amortization                                            3,766        3,783
                    losses on disposition of assets - other                                  2,503            -
          total components of net cost of operations that will not require or
          generate resources                                                                 6,269        3,783
 Total components of net cost of operations that will not require or
 generate resources in the current period                                                    6,672        4,058
 Net Cost of Operations                                                                  $ 184,435    $ 192,432




                                                             fiscal year    2012                                   133
other accompanying information




                                   THIS PAGE INTENTIONALLY LEFT BLANk




            134                  Federal Trade Commission | Performance and Accountability Report
fiscal year
2012
              other accompany ing
                 information
                                 I
other accompanying information




            136                  Federal Trade Commission | Performance and Accountability Report
                                                           other accompanying information
INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
CHALLENGES (CONTINUED)




                         fiscal year   2012               137
                                 INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
other accompanying information
                                 CHALLENGES (CONTINUED)




            138                         Federal Trade Commission | Performance and Accountability Report
                                                           other accompanying information
INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
CHALLENGES (CONTINUED)




                         fiscal year   2012               139
                                 INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
other accompanying information
                                 CHALLENGES (CONTINUED)




            140                             Federal Trade Commission | Performance and Accountability Report
                                                           other accompanying information
INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
CHALLENGES (CONTINUED)




                             fiscal year   2012           141
                                 INSpECTOR GENERAL-IDENTIFIED MANAGEMENT AND pERFORMANCE
other accompanying information
                                 CHALLENGES (CONTINUED)




            142                         Federal Trade Commission | Performance and Accountability Report
Chairman’s resPonse to ig Challenges




                                         other accompanying information




                   fiscal year   2012   143
                                 Summary of Financial Statement Audit and Management Assurances
other accompanying information

                                 TABLE 1: SUMMARY OF FINANCIAL STATEMENT AUDIT

                                  audit oPinion                                               Unqualified


                                  restatement                                                     No


                                                               Beginning                                                       ending
                                                                                 new           resolved      Consolidated
                                                                Balance                                                        Balance
                                  material weaknesses
                                                                  0               0               0               0                 0


                                  total material
                                                                  0               0               0               0                 0
                                  weaknesses



                                 TABLE 2: SUMMARY OF MANAGEMENT ASSURANCES
                                  effectiveness of internal control Over financial reporting (federal Managers’
                                  financial integrity act (fMfia) Para. 2)

                                  statement of
                                                                                              Unqualified
                                  assuranCe

                                                               Beginning                                                       ending
                                                                                 new           resolved      Consolidated
                                                                Balance                                                        Balance
                                  material weaknesses
                                                                  0               0               0               0                 0

                                  total material
                                                                  0               0               0               0                 0
                                  weaknesses

                                  effectiveness of internal control Over Operations (fMfia Para. 2)

                                  statement of
                                                                                              Unqualified
                                  assuranCe

                                                               Beginning                                                       ending
                                                                                 new           resolved      Consolidated
                                                                Balance                                                        Balance
                                  material weaknesses
                                                                  0               0               0               0                 0

                                  total material
                                                                  0               0               0               0                 0
                                  weaknesses

                                  conformance with financial Management System requirements (fMfia Para. 4)

                                  statement of
                                                                      Systems conform to financial management system requirements
                                  assuranCe

                                                               Beginning                                                       ending
                                                                                 new           resolved      Consolidated
                                                                Balance                                                        Balance
                                  non-ConformanCes
                                                                  0               0               0               0                 0

                                  total non-
                                                                  0               0               0               0                 0
                                  ConformanCes



            144                                   Federal Trade Commission | Performance and Accountability Report
                                                                                                                    other accompanying information
IMPROPER PAYMENTS ELIMINATION
AND RECOVERY ACT
The Improper Payments Elimination and Recovery           In FY 2012, OMB issued Memorandum M-12-11
Act (IPERA) (Public Law No. 111-204) defines             to further reduce improper payments by using the
requirements to reduce improper and erroneous            Department of Treasury’s Do Not Pay List. The Do
payments made by the federal government. In addition,    Not Pay List combines multiple databases (e.g. Death
the Office of Management and Budget (OMB) issued         Master File and Excluded Parties List System) against
guidance (Memorandum M-11-16) which defines              which agencies are able to validate vendor payments.
“significant improper payments” and prescribes the
reporting requirements for agencies with programs        The FTC’s shared service provider, the Department
that are susceptible to significant improper payments.   of Interior’s National Business Center, is enrolled in
Memorandum M-11-16 also provide guidance to              the Do Not Pay List and continuously monitors the
agencies for implementing payment recapture audits,      database to identify and prevent improper payments
for programs and activities that expend $1 million       before they are made. NBC matches the FTC’s vendor
or more annually, provided it is cost-effective to do    and employee records, which are maintained in the
so. The FTC reviewed its programs and activities         Oracle Federal Financials system, to the Do Not Pay
in accordance with the prescribed guidance and           List, on a weekly basis.
determined that none of the agency’s programs
or activities is susceptible to making significant       Additionally, the FTC has incorporated in its pre-award
improper payments as defined by OMB and that the         process a procedure to match potential contractors
implementation of payment recapture audit would not      against the Do Not Pay List.
be cost-effective for the agency.




                                                 fiscal year   2012                                                145
appendices




               THIS PAGE INTENTIONALLY LEFT BLANk




    146      Federal Trade Commission | Performance and Accountability Report
                     appendices

fiscal year   2012
             APPENDIX A: DATA qUALITY
appendices

             INFORMATION
             STRATEGIC GOAL 1: PROTECT                                   the cases target subjects of consumer complaints to
                                                                         the FTC. The results of the searches are also recorded
             CONSUMERS                                                   on the spreadsheet, and the percentage is calculated
             OBjECTIVE 1.1: IDENTIFY FRAUD,                              based on this information. This information is reviewed
                                                                         periodically by staff and management for completeness
             DECEPTION, AND UNFAIR PRACTICES
                                                                         and accuracy.
             THAT CAUSE THE GREATEST
                                                                         Data limitations: The spreadsheet may not capture a
             CONSUMER INjURY.                                            case if it is missed during the internal review process.
             Performance Measure 1.1.1: Complaints collected and
             entered into the Consumer Sentinel Network Database.        Performance Measure 1.1.3: The rate of customer
             Definition and background: This measure tracks              satisfaction with the FTC’s Consumer Response Center.
             complaints entered into the FTC’s Consumer Sentinel         Definition and background: This measure ensures
             Network (CSN) Database. Consumer Sentinel is an             the FTC is providing satisfactory service to consumers
             investigative tool that provides access to millions of      through the complaint website and call center.
             consumer complaints to member law enforcement               Data sources: Reports from the U.S. Department of
             agencies. More information about CSN can be found           the Interior’s Federal Consulting Group, the executive
             at www.ftc.gov/sentinel/index.shtm.                         agent for the American Customer Satisfaction Index
             Data sources: The FTC’s CSN database.                       (ACSI).
             Verification and validation: Reports are run at least       Verification and validation: Measurement is generated
             quarterly to determine the number of complaints that        by an outside source based on industry standard
             are entered into the CSN database.                          practices.
             Data limitations: The data in the CSN database is           Data limitations: There are no significant data
             dependent on the complainant providing accurate and         limitations.
             complete information. CSN data may be underreported
             because some people choose not to file a formal
                                                                         OBjECTIVE 1.2: STOP FRAUD,
             complaint, and some people may not know they are
                                                                         DECEPTION, UNFAIRNESS, AND OTHER
             able to file a complaint with the FTC.
                                                                         UNLAWFUL PRACTICES THROUGH LAW
             Performance Measure 1.1.2: The percentage of the            ENFORCEMENT.
             FTC’s consumer protection law enforcement actions           Performance Measure 1.2.1: The percentage of all
             that target the subject of consumer complaints to the       cases filed by the FTC that were successfully resolved
             FTC.                                                        through litigation, a settlement, or issuance of a default
             Definition and background: This measure gauges              judgment.
             how well the FTC’s consumer protection law                  Definition and background: This measure gauges
             enforcement actions target the subject of concerns          how well the FTC successfully resolves cases, including
             identified by consumers.                                    those that raise challenging legal and factual issues.
             Data sources: The FTC’s CSN database, LexisNexis            Data sources: LexisNexis CourtLink, the FTC
             CourtLink, the FTC website, and reports from the            website, and reports from the Bureau Director’s Office,
             agency, Bureau Director’s Office, divisions, and regional   divisions, and regional offices.
             offices.                                                    Verification and validation: A list of all federal court
             Verification and validation: A list of all federal court    cases resolved in the current fiscal year is compiled in a
             actions filed in the current fiscal year is compiled in a   spreadsheet, and the percentage of successfully resolved
             spreadsheet. For each case, CSN database searches by        cases is calculated based on this information. The
             the defendants’ names are completed to determine if         report is sent to the Associate Directors and regional



    148                          Federal Trade Commission | Performance and Accountability Report
managers on a quarterly basis to verify the accuracy of     Data sources: Office of International Affairs (OIA)




                                                                                                                        appendices
the report and ensure all resolutions are included in the   weekly reports and internal tracking sheets.
report.                                                     Verification and validation: Consumer Protection
Data limitations: The spreadsheet may not capture a         team members report matters they worked on in which
case if it is missed during the internal review process.    information was shared. Staff review and compile the
                                                            matters reported. Managers review these matters to
Performance Measure 1.2.2: The FTC’s effectiveness          ensure that they qualify as part of the measure and have
in stopping prohibited business practices in three high     not been previously counted.
priority areas over the next five years.                    Data limitations: Review is necessary to avoid double
Definition and background: This measure gauges the          counting of particular matters.
FTC’s success in changing business practices related to
misleading advertising claims within priority areas and
                                                            OBjECTIVE 1.3: PREVENT CONSUMER
demonstrates the change through research methods.
                                                            INjURY THROUGH EDUCATION.
Data sources: Evaluations of the prevalence of
prohibited business practices in targeted areas. The        Performance Measure 1.3.1: Consumer protection
Internet is used to examine advertising claims.             messages accessed online or in print.
Verification and validation: Attorneys assigned to the      Definition and background: This measure gauges
subject area work with FTC economists to validate the       whether the agency is producing a sufficient amount
methodology and quality control.                            of educational activity and educational materials that
Data limitations: Advertising claims in other types of      are aimed at new trends and at particularly vulnerable
media are not captured.                                     populations.
                                                            Data sources: The measure is determined using
Performance Measure 1.2.3: The percentage of                the agency’s web statistics software (for messages
redress cases in which the FTC distributes redress          accessed online) and the FTC publication inventory
dollars designated for distribution to consumers within     (for messages accessed in print). Print distribution
six months.                                                 numbers are derived from three sources: distribution
Definition and background: This measure ensures             center; distribution from the FTC warehouse; and
that the FTC returns redress dollars to consumers as        distribution directly from printers when publications
quickly as possible.                                        are printed or reprinted. A full recap for FY12 is
Data sources: Bureaus’ open redress case status             available upon request.
reports.                                                    Verification and validation: The publication inventory
Verification and validation: When a redress                 is tracked to determine the number of print messages
distribution occurs, the date of the distribution is        distributed. The agency’s IT office compiles statistics
checked and verified to determine whether or not the        for all FTC websites.
redress occurred within six months.                         Data limitations: It is possible that distribution is
Data limitations: There are no significant data             much higher than reported, as online users may be
limitations.                                                printing and disseminating copies.

Performance Measure 1.2.4: Investigations or cases          Performance Measure 1.3.2: Customer satisfaction
in which the FTC obtains foreign-based evidence or          rate with the FTC consumer education websites or
engages in mutual assistance that contributes to FTC        microsites.
law enforcement actions or in which we cooperate with       Definition and background: This measure gauges the
foreign agencies and/or multilateral organizations.         effectiveness, helpfulness, and usability of the FTC’s
Definition and background: This measure tracks              consumer education websites and microsites.
investigations or cases in which the FTC obtains            Data sources: Reports from the U.S. Department of
foreign-based evidence or engages in mutual assistance      the Interior’s Federal Consulting Group, the executive
that contributes to FTC law enforcement actions or          agent for the American Customer Satisfaction Index
in which we cooperate with foreign agencies and/or          (ACSI).
multilateral organizations.                                 Verification and validation: Measurement is generated



                                                    fiscal year   2012                                                 149
             by an outside source based on industry standard                amicus briefs on consumer protection issues filed with
appendices
             practices.                                                     entities including federal and state legislatures, agencies,
             Data limitations: There are no significant data                or courts.
             limitations.                                                   Definition and background: The measure tracks
                                                                            the number of advocacy comments and amicus briefs
             Performance Measure 1.3.3: Organizations requesting            on consumer protection matters filed with entities
             consumer education publications.                               including federal and state legislatures, agencies, and
             Definition and background: This measure helps the              courts to measure the output of the FTC’s advocacy
             FTC ensure that it is publicizing its activities in the best   activities relating to consumer protection matters.
             way possible, and that the agency has a wide array of          Data sources: Internal matter records of advocacy
             partners to leverage resources.                                comments and amicus briefs filed (e.g., records available
             Data sources: The measure is derived from the                  in the FTC’s document management system).
             agency’s database of online customer orders, maintained        Verification and validation: Review of internal matter
             by the Division of Consumer and Business Education.            records of advocacy comments and amicus briefs
             Verification and validation: The data includes                 filed (e.g., records available in the FTC’s document
             customers who have ordered materials during the fiscal         management system) and confirmation of data with
             year and provided a valid organization. Orders from            staff having responsibilities for advocacy matters.
             individuals and duplicate organizations are not included.      Data limitations: There are no significant data
             Data limitations: The accuracy of the calculations             limitations.
             depends in part on customers entering their
             organization name into the order form with consistent          Performance Measure 1.4.3: The percentage of
             spelling and formatting; otherwise data may be slightly        respondents finding the FTC’s advocacy comments and
             over-reported.                                                 amicus briefs “useful.”
                                                                            Definition and background: This measure tracks the
                                                                            percentage of respondents finding the FTC’s advocacy
             OBjECTIVE 1.4: ENHANCE CONSUMER
                                                                            comments and amicus briefs to be “useful,” in order
             PROTECTION THROUGH RESEARCH,
                                                                            to assess the effect of consumer protection advocacy
             REPORTS, RULEMAKING, AND
                                                                            comments.
             ADVOCACY.                                                      Data sources: Responses to a written survey, sent by
             Performance Measure 1.4.1: Workshops and                       agency staff to advocacy recipients (except courts), to
             conferences convened or cosponsored that address               evaluate the usefulness of an advocacy.
             consumer protection problems.                                  Verification and validation: Agency staff review
             Definition and background: This measure helps the              written responses in order to determine percentage of
             FTC ensure that enforcement and education efforts              respondents describing the FTC’s advocacy comments
             are augmented by encouraging discussions among                 as “useful.”
             all interested parties, through careful study of and           Data limitations: There are no significant data
             empirical research on novel or challenging consumer            limitations.
             protection problems.
             Data sources: The FTC website and reports from the             Performance Measure 1.4.4: The percentage of
             agency, Bureau Director’s Office, division, and regional       proposed Administrative Procedure Act (APA)
             offices.                                                       rulemakings, conducted solely by the FTC, completed
             Verification and validation: A list of all workshops           within nine months of receipt of final comments in the
             and conferences is maintained in a spreadsheet. The            Final Notice of Proposed Rulemaking.
             spreadsheet is reviewed quarterly by headquarters and          Definition and background: This measure helps the
             regional office management to verify the accuracy              FTC ensure that the agency augments its enforcement
             of the report and to ensure that all conferences and           and education efforts by conducting appropriate
             workshops are included in the report.                          rulemakings.
             Data limitations: Review is necessary to avoid under-          Data sources: The Federal Register and the FTC
             reporting any workshops or conferences.                        website.
             Performance Measure 1.4.2: Advocacy comments and               Verification and validation: A list of all rulemakings,

    150                          Federal Trade Commission | Performance and Accountability Report
the comment period close date, and the completion date     conducted. Staff review and compile the matters




                                                                                                                         appendices
of APA rulemakings is maintained in a spreadsheet.         reported, and managers review these reports.
The spreadsheet is reviewed quarterly by headquarters      Data limitations: Review is necessary to ensure that
and regional office management to verify the accuracy      reported items qualify as technical assistance missions.
of the report and to ensure that all rulemakings are
included in the report.
                                                           STRATEGIC GOAL 2: MAINTAIN
Data limitations: Review is necessary to avoid under-
reporting any rulemakings.                                 COMPETITION
                                                           OBjECTIVE 2.1: TAKE ACTION AGAINST
OBjECTIVE 1.5: PROTECT AMERICAN                            ANTICOMPETITIVE MERGERS
CONSUMERS IN THE GLOBAL                                    AND PRACTICES THAT MAY CAUSE
MARKETPLACE BY PROVIDING SOUND                             SIGNIFICANT CONSUMER INjURY.
POLICY AND TECHNICAL INPUT                                 Performance Measure 2.1.1: Actions to maintain
TO FOREIGN GOVERNMENTS AND                                 competition, including litigated victories, consent
INTERNATIONAL ORGANIzATIONS TO                             orders, abandoned transaction remedies, restructured
PROMOTE SOUND CONSUMER POLICY.                             transaction remedies, or fix-it-first transaction remedies
Performance Measure 1.5.1: Policy advice provided          in a significant percentage of substantial merger and
to foreign consumer protection and privacy agencies,       nonmerger investigations.
directly and through international organizations,          Definition and background: This measure ensures
through substantive consultations, written submissions,    that FTC actions promote vigorous competition by
or comments.                                               preventing anticompetitive mergers and stopping
Definition and background: This measure tracks             business practices that diminish competition. This
policy advice provided to foreign consumer protection      measure reflects actions to maintain competition,
and privacy agencies, directly and through international   including litigated victories, consent orders, abandoned
organizations. Policy advice is defined as substantive     transaction remedies, restructured transaction remedies,
consultations, written submissions, or comments.           or fix-it-first transaction remedies in a significant
Data sources: Office of International Affairs (OIA)        percentage of substantial merger and nonmerger
weekly reports and internal tracking sheets.               investigations. The measure is calculated by taking
Verification and validation: OIA staff report              the number of substantial investigations closed with
policy advice provided in weekly reports and internal      an action divided by the total number of substantial
logs. Staff review and compile the matters reported.       investigations closed.
Managers review these matters to ensure that they are      Data sources: Press releases are the source of
sufficiently substantive to qualify for the measure and    information for public actions, such as consent orders
have not previously been counted.                          and the results of judicial review, while internal
Data limitations: Review is necessary to avoid double      communications from staff attorneys are used to
counting of particular matters and to ensure the           identify those investigations that were closed because
instances of policy advice reported are sufficiently       parties abandoned a transaction or because staff did not
substantive.                                               find that the transaction is likely to harm competition.
                                                           This information is then used to populate the bureau’s
Performance Measure 1.5.2: Technical assistance to         enforcement database and is cross referenced with
foreign consumer protection and privacy authorities.       both the list of known second request and compulsory
Definition and background: This measure tracks             process merger investigations as recorded in an
technical assistance provided to foreign consumer          agency database of matters and the list of nonmerger
protection and privacy authorities.                        investigations with more than 150 hours, as identified
Data sources: Office of International Affairs weekly       using the agency’s time and attendance reporting
reports and Technical Assistance calendar.                 database.
Verification and validation: OIA staff report technical    Verification and validation: The data is entered into
assistance workshops, conferences, and other missions      a bureau database by staff, and reviewed monthly by


                                                   fiscal year   2012                                                   151
             analysts, attorneys, economists, and senior management.      for concurrence.
appendices
             Data limitations: This measure does not include              Verification and validation: See measure 2.1.1.
             actions taken in investigations that did not involve the     Data limitations: The data is dependent on the
             use of compulsory process, and therefore did not fall        estimates of volume of commerce made by staff in
             under the definition of substantial as specified by this     accordance with the appropriate applicable estimation
             measure. Compulsory process refers to a resolution, or       formulas. Additionally, a five year average is used
             vote, adopted by the Commission that authorizes staff        because an individual year may be heavily influenced by
             to issue subpoenas and civil investigative demands. This     significant cases in that year.
             measure also does not include actions that are still in
             litigation or on appeal.                                     Performance Measure 2.1.4: Consumer savings of
                                                                          at least thirteen times the amount of FTC resources
             Performance Measure 2.1.2: Consumer savings of at            allocated to the merger program.
             least $500 million through merger actions to maintain        Definition and background: This measure ensures
             competition.                                                 that the Commission’s actions are in part guided by the
             Definition and background: This measure ensures              requirement that estimated consumer savings exceed
             that the Commission’s merger actions are in part guided      how much is spent on the merger program. Estimated
             by the prospective effect these actions will have on         consumer savings generated under measure 2.1.2
             consumer savings. The measure is calculated by taking        are divided by the amount of resources spent on the
             the sum of “Consumer Savings” of individual merger           merger program for the current fiscal year.
             actions for the current fiscal year plus the previous four   Data sources: The lead attorney estimates consumer
             fiscal years and dividing the sum by five.                   savings for a particular case using the appropriate
             Data sources: The lead attorney estimates consumer           applicable estimation formula and submits it to the
             savings for a particular case using the appropriate          Bureau of Economics for concurrence. The FTC’s
             applicable estimation formula and submits it to the          financial system provides the amount of resources
             Bureau of Economics for concurrence. If available,           expended on the merger program.
             staff will use case-specific data to generate the estimate   Verification and validation: See measure 2.1.1.
             of consumer savings. Otherwise, staff uses a formulaic       Data limitations: See measure 2.1.2.
             approach taking one percent of the volume of
             commerce for two years.                                      Performance Measure 2.1.5: Consumer savings of at
             Verification and validation: See measure 2.1.1.              least $80 million through nonmerger actions taken to
             Data limitations: The data is dependent on the               maintain competition.
             estimates of consumer savings made by staff in               Definition and background: This measure ensures
             accordance with the appropriate applicable estimation        that the Commission’s nonmerger actions are in
             formulas. Additionally, a - five year average is used        part guided by the prospective effect they will have
             because an individual year may be heavily influenced by      on consumer savings. The measure is calculated by
             significant cases in that year.                              taking the sum of the estimated consumer savings in
                                                                          nonmerger actions for the current fiscal year plus the
             Performance Measure 2.1.3: Actions against mergers           previous four fiscal years, and dividing the sum by five.
             likely to harm competition in markets with a total of at     Data sources: The lead attorney estimates consumer
             least $25 billion in sales.                                  savings for a particular case using the appropriate
             Definition and background: This measure ensures              applicable estimation formula and submits it to the
             that the Commission’s merger actions are guided in part      Bureau of Economics for concurrence. If available,
             by the size of the relevant product markets involved.        staff will use case-specific data to generate the estimate
             The measure is calculated by taking the sum of the           of consumer savings. Otherwise, staff uses a formulaic
             estimated volume of commerce for the current fiscal          approach taking one percent of the volume of
             year plus the previous four fiscal years divided by five.    commerce for one year.
             Data sources: The lead attorney who worked on the            Verification and validation: See measure 2.1.1.
             investigation estimates the volume of commerce using         Data limitations: See measure 2.1.2.
             the appropriate applicable estimation formula and
             submits the information to the Bureau of Economics           Performance Measure 2.1.6: Actions against

    152                          Federal Trade Commission | Performance and Accountability Report
anticompetitive conduct in markets with a total of at     compatibility for FTC measurement purposes.




                                                                                                                         appendices
least $8 billion in annual sales.                         Data sources: Office of International Affairs (OIA)
Definition and background: This measure ensures           weekly reports and internal logs.
that the Commission’s nonmerger actions are in part       Verification and validation: International Antitrust
guided by the size of the relevant product markets        team members report matters they worked on in which
involved. The measure is calculated by taking the sum     substantial contact took place. Staff review and compile
of the estimated volume of commerce for the current       the matters reported, overseen by an International
fiscal year plus the previous four fiscal years and       Antitrust team member. Managers review and ensure
dividing the sum by five.                                 that the matters reported qualify for the measure.
Data sources: The lead attorney who worked on the         Data limitations: Review is necessary to ensure that
investigation estimates the volume of commerce using      the matters reported included sufficiently substantial
the appropriate applicable estimation formula and         contact with a foreign antitrust authority.
submits the information to the Bureau of Economics
for concurrence.
                                                          OBjECTIVE 2.2: PREVENT CONSUMER
Verification and validation: See measure 2.1.1.
                                                          INjURY THROUGH EDUCATION.
Data limitations: See measure 2.1.3.
                                                          Performance Measure 2.2.1: Competition resources
Performance Measure 2.1.7: Consumer savings of            accessed via the FTC’s website.
at least twenty times the amount of FTC resources         Definition and background: This measure ensures
allocated to the nonmerger program.                       that consumer injury is prevented by educating antitrust
Definition and background: This measure ensures           practitioners and consumers. This measure is calculated
that the Commission’s actions are in part guided by the   by taking the sum of the views recorded on antitrust
requirement that estimated consumer savings exceed        related web pages on the Commission’s external
how much is spent on the nonmerger program. This          website.
measure is calculated by taking the estimated consumer    Data sources: The primary data source is software that
savings generated under measure 2.1.5 divided by the      monitors traffic on the FTC’s external website.
amount of resources spent on the nonmerger program.       Verification and validation: Bureau staff identify
Data sources: The lead attorney estimates consumer        relevant FTC web-based resources to track. Internet
savings for a particular case using the appropriate       traffic data is received and entered into a bureau
applicable estimation formula.) The FTC’s financial       database by staff, and reviewed monthly by analysts,
system provides the amount of resources expended on       attorneys, and senior management.
the nonmerger program.                                    Data limitations: The analysis is dependent on the
Verification and validation: See measure 2.1.1.           accuracy of measurements made by the web tracking
Data limitations: See measure 2.1.2.                      software and the presence of internal and external
                                                          traffic filters. The data is also dependent on the accurate
Performance Measure 2.1.8: The percentage of              identification of relevant FTC web-based materials.
cases in which the FTC had at least one substantive
contact with a foreign antitrust authority in which the   OBjECTIVE 2.3: ENHANCE CONSUMER
agencies followed the analytical approach and reached     BENEFIT THROUGH RESEARCH,
compatible outcomes.
                                                          REPORTS, AND ADVOCACY.
Definition and background: This measure tracks the
cases in which the Bureau of Competition or foreign       Performance Measure 2.3.1: Workshops, seminars,
agency staff notify OIA that a substantial contact        conferences, and hearings convened or cosponsored
has taken place, compared with cases where, in the        that involve significant competition-related issues.
judgment of OIA management, no consistent analytical      Definition and background: This measure ensures
approaches were observed. The phrase “reached             that consumer benefits are enhanced through policy
compatible outcomes” means that the reviewing             related activities such as workshops, seminars,
agencies do not impose inconsistent obligations on        conferences, and hearings convened or cosponsored
parties; professional judgment from OIA senior            that involve significant competition-related issues.
management is used to make a final decision on            The measure is calculated by counting the number

                                                  fiscal year   2012                                                    153
             of competition-related workshops, hearings and              Performance Measure 2.3.4: The percentage of
appendices
             conferences hosted by the FTC.                              respondents finding the FTC’s advocacy comments and
             Data sources: Information on conferences involving          amicus briefs “useful.”
             significant competition related issues is taken from the    Definition and background: This measure tracks the
             FTC’s website (www.ftc.gov/ftc/workshops.shtm) and          percentage of respondents finding the FTC’s advocacy
             from press releases.                                        comments and amicus briefs to be “useful,” in order to
             Verification and validation: Data is received from          assess the effect of competition advocacy comments.
             staff attorneys, internal databases and press releases.     Data sources: Responses to a written survey, sent by
             The data is entered into a bureau database by staff, and    agency staff to advocacy recipients (except courts), to
             reviewed monthly by analysts, attorneys, economists,        evaluate the usefulness of an advocacy.
             and senior management.                                      Verification and validation: Agency staff review
             Data limitations: Review is necessary to ensure             written responses in order to determine percentage of
             that all competition-related workshops, hearings and        respondents describing the FTC’s advocacy comments
             conferences are identified.                                 as “useful.”
                                                                         Data limitations: There are no significant data
             Performance Measure 2.3.2: Reports and studies              limitations.
             issued on key competition-related topics.
             Definition and background: The measure tracks               Performance Measure 2.3.5: The volume of traffic on
             competition policy related activities such as research,     www.ftc.gov relating to competition research, reports,
             reports, and studies that enhance consumers’ knowledge      and advocacy.
             of competition issues. The measure is calculated by         Definition and background: This measure ensures
             counting the number of the reports and studies issued       the agency’s policy related activities enhance consumer
             by the FTC.                                                 benefit by providing practitioners and consumers with
             Data sources: Information on studies and reports on         opportunities to interact with the staff and to learn
             significant competition-related issues is taken from the    about the agency’s enforcement and policy priorities.
             FTC’s website (www.ftc.gov/be/research.shtm and             The measure is calculated by summing the views
             www.ftc.gov/reports/index.shtm).                            registered on the website of a subset of the competition
             Verification and validation: See measure 2.3.1.             related pages that pertain to advocacy, research, and
             Data limitations: See measure 2.3.1.                        international activities.
                                                                         Data sources: The agency’s software that monitors
             Performance Measure 2.3.3: Advocacy comments and            traffic on the FTC’s external website, the Office of
             amicus briefs on competition issues filed with entities     International Affairs, and the Office of Policy Planning.
             including federal and state legislatures, agencies or       Verification and validation: See measure 2.3.1.
             courts.                                                     Data limitations: The analysis is dependent on the
             Definition and background: This measure tracks the          accuracy of the measurements made by the web
             number of advocacy comments and amicus briefs on            tracking software, and the presence of internal and
             competition matters filed with entities including federal   external traffic filters. The data is also dependent on
             and state legislatures, agencies, or courts to measure      the accurate identification of relevant FTC web-based
             the output of the FTC’s advocacy activities relating to     materials.
             competition matters.
             Data sources: Internal matter records of advocacy
             comments and amicus briefs filed (e.g., records available
             in the FTC’s document management system).
             Verification and validation: Review internal matter
             records of advocacy comments and amicus briefs
             filed (e.g., records available in the FTC’s document
             management system) and confirm data with staff
             having responsibilities for advocacy matters.
             Data limitations: There are no significant data
             limitations.

    154                         Federal Trade Commission | Performance and Accountability Report
OBjECTIVE 2.4: PROTECT AMERICAN                             STRATEGIC GOAL 3: ADVANCE




                                                                                                                        appendices
CONSUMERS IN THE GLOBAL                                     PERFORMANCE
MARKETPLACE BY PROVIDING SOUND
POLICY RECOMMENDATIONS AND                                  OBjECTIVE 3.1: PROVIDE EFFECTIVE
TECHNICAL ADVICE TO FOREIGN                                 HUMAN RESOURCES MANAGEMENT.
GOVERNMENTS AND INTERNATIONAL                               Performance Measure 3.1.1: The extent to which
ORGANIzATIONS TO PROMOTE SOUND                              employees believe their organizational culture promotes
COMPETITION POLICY.                                         improvement in processes, products and services, and
Performance Measure 2.4.1: Policy advice provided           organizational outcomes.
to foreign competition agencies, directly and through       Definition and background: This measure gauges the
international organizations, through substantive            extent employees believe their organizational culture
consultations, written submissions, or comments.            promotes improvement in processes, products and
Definition and background: This measure tracks the          services, and organizational outcomes so that the FTC
policy advice provided to foreign competition agencies,     has a strong foundation of organizational, individual,
directly and through international organizations,           and management excellence driving mission success.
through substantive consultations, written submissions,     Data sources: The Federal Employee Viewpoint
or comments excluding casual contacts.                      Survey is administered annually by the U.S. Office of
Data sources: OIA weekly reports.                           Personnel Management (OPM). The Federal Employee
Verification and validation: Agency staff create a          Viewpoint Survey is a tool that measures employees’
draft list of events that fall within the scope of the      perceptions of whether, and to what extent, conditions
measure, which is then submitted to attorneys for           that characterize successful organizations are present.
review. Managers review and ensure that the matters         This survey was administered for the first time in 2002,
reported qualify as substantive policy advice.              and then repeated in 2004, 2006, 2008, 2010, 2011,
Data limitations: Review is necessary to ensure that        and most recently in 2012. OPM transmits the agency
instances of policy advice reported are sufficiently        results to the FTC’s Human Capital Management
substantive.                                                Office.
                                                            Verification and validation: Data collected is
Performance Measure 2.4.2: Technical assistance             weighted by statisticians to produce survey estimates
provided to foreign competition authorities.                that accurately represent the survey population and
Definition and background: This measure tracks              adjust for differences between the characteristics of
the number of long term and short term technical            the survey respondents and the population of federal
assistance missions and international fellows and interns   employees surveyed. The weights developed take into
hosted.                                                     account the variable probabilities of selection across
Data sources: OIA weekly reports and Technical              sample domains, nonresponse, and known demographic
Assistance calendar.                                        characteristics of the survey population.
Verification and validation: See measure 2.4.1.             Data limitations: The survey results represent a
Data limitations: Review is necessary to ensure that        snapshot in time of the perceptions of the workforce.
reported items qualify as technical assistance missions.    The Government-wide results have a plus or minus 1
                                                            percent margin of error.

                                                            Performance Measure 3.1.2: The extent employees
                                                            think the organization has the talent necessary to
                                                            achieve organizational goals.
                                                            Definition and background: This measure gauges
                                                            the extent employees think the organization has the
                                                            talent necessary to achieve organizational goals so that
                                                            the FTC has a strong foundation of organizational,
                                                            individual, and management excellence driving mission
                                                            success.

                                                   fiscal year   2012                                                  155
             Data sources: See measure 3.1.1.                             and systems, BlackBerry servers, Internet/Intranet,
appendices
             Verification and validation: See measure 3.1.1.              telecommunications (includes phone and voicemail
             Data limitations: See measure 3.1.1.                         services), Wide Area Network, the agency’s primary
                                                                          public website (www.ftc.gov), remote employee access,
                                                                          printing, and enterprise-wide applications.
             OBjECTIVE 3.2: PROVIDE EFFECTIVE
                                                                          Data sources: System and network engineers record
             INFRASTRUCTURE AND SECURITY
                                                                          system or component outage data as part of the
             MANAGEMENT.
                                                                          OCIO’s Change Management procedure.
             Performance Measure 3.2.1: A favorable Continuity            Verification and validation: Outage timeframes are
             of Operations (COOP) rating.                                 verified by correlating outages to system alerts and data
             Definition and background: The FTC ensures a safe            recorded in the change management database.
             and secure workplace through the development and             Data limitations: The agency uses a manual tracking
             implementation of the FTC COOP. The FTC COOP                 process to record the outage data in a spreadsheet.
             defines the necessary planning and actions that are          The reliability of the data depends on compliance with
             required to ensure the preservation and performance          the change management procedure. The agency is
             of the FTC Mission Essential Functions (MEFs).               currently working to implement SolarWinds, a network
             Continuity planning facilitates the performance of           performance monitoring tool that will provide early
             FTC MEFs during all-hazards emergencies or other             warning notifications regarding changes to application
             situations that may disrupt or potentially disrupt nor mal   performance and generate outage and downtime data.
             operations. The FTC participated in the government-
             wide Eagle Horizon Exercise to test and verify the
             effectiveness of the FTC COOP. An analysis of the            OBjECTIVE 3.3: PROVIDE EFFECTIVE
             plan and exercise is conducted with a combination of         INFORMATION RESOURCES
             Federal Emergency Management Agency (FEMA),
                                                                          MANAGEMENT.
             self and peer review. An overall score is derived for
             the exercise using the average numeric rating for each       Performance Measure 3.3.1: The percentage of
             element of the review.                                       Commission-approved documents in the FTC’s
             Data sources: The data on performance of the COOP            ongoing and newly initiated proceedings available via
             exercise is generated using standard evaluation protocol     the Internet within 15 days of becoming part of the
             developed by FEMA.                                           public record.
             Verification and validation: The review of the FTC           Definition and background: This performance
             COOP was conducted independently by a FEMA                   measure was created in an effort to promote
             representative and the evaluation of the Eagle Horizon       agency transparency and ensure that documents the
             Exercise was conducted by an internal FTC team, when         Commission approves are made available to the public
             then submitted the data to FEMA. The FTC Health              in a timely manner. The Commission approves public
             and Safety Officer provided an overall review to make        documents by majority vote. These votes are tracked
             sure that the data is complete and accurate.                 by the Office of the Secretary (OS) and are counted
             Data limitations: The overall score is based on              each quarter. Once the Commission approves a public
             subjective analysis of the COOP and performance of           document, the Office of Public Affairs works with
             the exercise designed to give an overall evaluation of       agency staff to determine whether to publish a news
             the COOP and identify improvement opportunities.             release announcing the document. OS works to make
             The subjective nature of the data limits its usefulness in   sure the document is posted to ftc.gov at the same time
             trend or comparative analysis.                               as the news release or, if there is no news release, as
                                                                          soon as feasible. The agency sometimes waits to post
             Performance Measure 3.2.2: Availability of                   a specific document to ftc.gov in order to maximize
             information technology systems.                              consumer impact by posting it in conjunction with
             Definition and background: This measure                      several related matters. To arrive at the performance
             tracks unplanned service outages and monitors the            measure, we count the total number of Commission
             reliability of 31 critical information technology            votes on public documents. Next, we count the number
             services including: email, FTC-specific applications         of public documents that were posted to ftc.gov within

    156                          Federal Trade Commission | Performance and Accountability Report
15 days after Commission approval. Then, we divide         Performance Measure 3.4.2: The percentage of




                                                                                                                           appendices
this number by the total number of public documents        Bureaus/Offices that establish and maintain an
to arrive at a percentage. We do not include any           effective, risk-based internal control environment.
documents that a court has placed under seal until the     Definition and background: This measure tracks
court lifts the seal, because documents under seal are     the percentage of Bureaus/Offices that establish
not available to the public. Also, we do not count as      and maintain an effective, risk-based internal control
“posted to the Internet” documents that are unavailable    environment.
on ftc.gov, even if they are available elsewhere on the    Data sources: FMFIA Annual Statement of Assurance
Internet (e.g., in electronic filing systems used by the   Verification and validation: As basis for the FTC’s
federal courts).                                           annual statement of assurance, agency staff distribute
Data sources: The data is compiled from Commission         an annual survey to key agency management and
voting records, FTC news releases, and FTC Web Team        staff which includes detailed questions about their
confirmations that documents have been posted to           internal controls. Staff verify that survey responses
www.ftc.gov.                                               have been received by each of the Bureaus/Offices
Verification and validation: Agency staff and              (assessable units), verify the percentage of the Bureaus/
management verify that the data showing all                Offices that indicate they maintain an effective internal
Commission-approved public documents for a specific        control environment (supported by an internal control
quarter is complete and accurate by reviewing the          assessment), and staff and management review the final
actual Commission votes. We verify the accuracy of the     compilation of assessments.
date a document is posted to ftc.gov by checking the       Data limitations: Internal control survey responses are
date against the FTC Web Team confirmation that the        dependent on the respondent’s understanding of their
document has been posted. At the time a document is        programs.
posted to ftc.gov, we test the web link to the document
to confirm it is operational. FTC’s OS management          Performance Measure 3.4.3: Performance against the
reviews the source materials and counts to make sure       Small Business Administration’s government-wide small
the data is complete and accurate.                         business procurement goals.
Data limitations: This measure only includes               Definition and background: This measure identifies
Commission-approved public documents.                      quarterly and annual awards of contract dollars to small
                                                           business entities as a ratio against total dollars available
                                                           for a set-aside for small business awards in whole or
OBjECTIVE 3.4: PROVIDE EFFECTIVE
                                                           part. The accumulation, ratio analysis, and agency
FINANCIAL AND ACqUISITION
                                                           targets are managed by SBA. The internal operations of
MANAGEMENT.
                                                           the Federal Procurement Data System- Next Generation
Performance Measure 3.4.1: Independent auditor’s           (FPDS-NG) application, through which the measure is
financial statement audit results.                         reported, are managed by GSA.
Definition and background: Independent auditor’s           Data sources: FPDS-NG, found at www.fpds.gov
opinion based on auditor’s review and tests of internal    Verification and validation: FTC’s acquisition staff
controls over operations and financial reporting and the   performs a statistical analysis annually and certifies the
determination that the financial statements and notes      statistical validity of the FPDS-NG data.
are fairly presented. The measure formula is 100% if an    Data limitations: There are no significant data
unqualified or “clean” opinion (the financial statements   limitations.
are fairly presented) is achieved or 0% for all other
opinion types (qualified, adverse, disclaimer).
Data sources: Independent auditor’s opinion of year-
end financial statements.
Verification and validation: FTC’s independent
auditors render their opinion to the agency.
Data limitations: There are no significant data
limitations.



                                                  fiscal year   2012                                                      157
             APPENDIX B: ACRONYMS
appendices

             ACO                           Accountable Care Organization
             APA                           Administrative Procedure Act
             APEC                          Asia Pacific Economic Cooperation
             ACSI                          American Customer Satisfaction Index
             BC                           Bureau of Competition
             BCP                          Bureau of Consumer Protection
             BE                           Bureau of Economics
             COOP                         Continuity of Operations Plan
             COPPA                        Children’s Online Privacy Protection Act
             CRSS                         Consumer Response Systems and Services
             CSN                          Consumer Sentinel Network
             CSRS                         Civil Service Retirement System
             DNC                          Do Not Call
             DOJ                          Department of Justice
             DOL                          Department of Labor
             ERCR                         Electronic Recordkeeping Certification Review
             FASAB                        Federal Accounting Standards Advisory Board
             FBWT                         Fund Balance with Treasury
             FECA                         Federal Employee’s Compensation Act
             FEGLIP                       Federal Employees Group Life Insurance Program
             FEHBP                        Federal Employees Health Benefit Program
             FEMA                         Federal Emergency Management Agency
             FERS                         Federal Employees Retirement System
             FICA                         Federal Insurance Contributions Act
             FISMA                        Federal Information Security Management Act
             FMFIA                        Federal Managers’ Financial Integrity Act
             FTC                          Federal Trade Commission
             FTE                          Full-Time Equivalent
             FY                           Fiscal Year
             GAAP                         Generally Accepted Accounting Principles
             GAO                          Government Accountability Office
             GPRA                         Government Performance and Results Act
             GSA                          General Services Administration
             HSR                          Hart-Scott-Rodino Act
             IG                           Inspector General
             IPERA                        Improper Payments Elimination and Recovery Act




    158               Federal Trade Commission | Performance and Accountability Report
                                                                                              appendices
MC                  Maintain Competition
MD&A                Management’s Discussion and Analysis
N/A                 Not Applicable or Not Available
NIST                National Institute of Standards and Technology
OCIO                Office of the Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OPM                 Office of Personnel Management
ORB                 Other Retirement Benefits
PAR                 Performance and Accountability Report
PC                  Protect Consumers
SBR                 Statement of Budgetary Resources
SOA                 Statement of Assurance
TAS                 Treasury Account Symbol
TSP                 Thrift Savings Plan
TTY                 Text Telephone or Telephone Typewriter
U.S.                United States
U.S. SAFE WEB Act   Undertaking Spam, Spyware, And Fraud Enforcement with Enforcers beyond
                    Borders Act of 2006




                             fiscal year     2012                                            159
             APPENDIX C: OTHER USEFUL LINkS
appendices

             INTRODUCTION:
               •   Accountability of Tax Dollars Act of 2002:
                   http://www.whitehouse.gov/sites/default/files/omb/assets/about_omb/107-2891.pdf
               •   Association for Government Accountant’s Certificate of Excellence in Accountability Reporting (CEAR):
                   http://www.agacgfm.org/Advocacy---Accountability/Certification-of-Excellence-in-Accountability-Repo.
                   aspx
               •   Clayton Act: http://www.law.cornell.edu/uscode/html/uscode15/usc_sec_15_00000012----000-.html
               •   Fair Credit Reporting Act: http://www.ftc.gov/os/statutes/031224fcra.pdf
               •   Federal Managers’ Financial Integrity Act of 1982 (FMFIA):
                   http://www.whitehouse.gov/omb/financial_fmfia1982
               •   Federal Trade Commission Act: http://www.ftc.gov/ogc/ftcact.shtm
               •   Government Management Reform Act of 1994:
                   http://govinfo.library.unt.edu/npr/library/misc/s2170.html
               •   Government Performance and Results Act of 1993 (GPRA):
                   http://www.whitehouse.gov/omb/mgmt-gpra/gplaw2m
               •   GPRA Modernization Act of 2010:
                   http://www.gpo.gov/fdsys/pkg/PLAW-111publ352/pdf/PLAW-111publ352.pdf
               •   Identity Theft Act: http://www.ftc.gov/os/statutes/itada/itadact.htm
               •   Improper Payments Information Act of 2002: http://www.whitehouse.gov/omb/financial_fia_improper/
               •   Reports Consolidation Act of 2000:
                   http://www.gpo.gov/fdsys/pkg/PLAW-106publ531/pdf/PLAW-106publ531.pdf
               •   Telemarketing Sales Rule: http://www.ftc.gov/bcp/rulemaking/tsr/index.shtml


             MD&A:
               •   Accountable Care Organizations (ACOs) overview: https://www.cms.gov/ACO
               •   Affordable Care Act: http://www.gpo.gov/fdsys/pkg/PLAW-111publ148/pdf/PLAW-111publ148.pdf
               •   American Customer Satisfaction Index (ACSI): http://www.theacsi.org
               •   Children’s Online Privacy Protection Act (COPPA) Rule:
                   http://business.ftc.gov/privacy-and-security/children%E2%80%99s-online-privacy
               •   Circular A-123, “Management’s Responsibility for Internal Control”:
                   http://www.whitehouse.gov/omb/circulars_a123_rev/
               •   Commission’s Prohibition of Energy Market Manipulation Rule:
                   http://www.ftc.gov/os/2009/08/P082900mmr_finalrule.pdf
               •   Debt Collection Improvement Act of 1996: http://www.dol.gov/ocfo/media/regs/DCIA.pdf
               •   Equal Credit Opportunity Act: http://www.ftc.gov/bcp/edu/pubs/consumer/credit/cre15.shtm
               •   Federal Human Capital Survey: http://www.fedview.opm.gov
               •   Federal Information Security Management Act (FISMA):
                   http://csrc.nist.gov/drivers/documents/FISMA-final.pdf
               •   FTC Guides for the Use of Environmental Marketing Claims:
                   http://www.ftc.gov/bcp/edu/microsites/energy/about_guides.shtml
               •   Gasoline and Diesel Price Monitoring Project: http://www.ftc.gov/ftc/oilgas/gas_price.htm
               •   Government Accountability Office (GAO) Auditing Resources: http://www.gao.gov/aac.html
               •   International Competition Network: http://www.internationalcompetitionnetwork.org
               •   Managed Trusted Internet Protocol Service: http://www.gsa.gov/portal/content/104213
               •   Mortgage Assistance Relief Services Rule:
                   http://business.ftc.gov/documents/bus76-mortgage-assistance-relief-services-rule

    160                      Federal Trade Commission | Performance and Accountability Report
                                                                                                          appendices
  •   Office of Inspector General (OIG): http://www.ftc.gov/oig/
  •   Prompt Payment Act: http://www.fms.treas.gov/prompt/regulations.html
  •   Trusted Internet Connection: http://www.dhs.gov/files/programs/gc_1268754123028.shtm
  •   We Don’t Serve Teens: http://www.dontserveteens.gov

PERFORMANCE:
  •   Asia Pacific Economic Cooperation: http://www.apec.org/
  •   Complaint Assistant: https://www.ftccomplaintassistant.gov
  •   Consumer Sentinel: http://www.ftc.gov/sentinel/
  •   Hart-Scott-Rodino (HSR) Act: http://www.ftc.gov/bc/hsr
  •   Home Mortgage Disclosure Act: http://www.fdic.gov/regulations/laws/rules/6500-3030.html
  •   Human Capital Assessment and Accountability Framework:
      http://www.opm.gov/hcaaf_resource_center/2-1.asp
  •   National Do Not Call Registry: www.donotcall.gov
  •   Net Cetera: Chatting with Kids about Being Online:
      http://onguardonline.gov/features/feature-0004-featured-net-cetera-toolkit
  •   Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers beyond Borders Act of 2006 (U.S.
      SAFE WEB Act): http://www.gpo.gov/fdsys/pkg/PLAW-109publ455/pdf/PLAW-109publ455.pdf

OTHER ACCOMPANYING INFORMATION:
  •   Improper Payments Elimination and Recovery Act (IPERA):
      http://www.gpo.gov/fdsys/pkg/BILLS-111s1508enr/pdf/BILLS-111s1508enr.pdf




                                             fiscal year   2012                                          161
             APPENDIX D: CONTACT INFORMATION
appendices

             AND ACkNOWLEDGEMENTS
             FEDERAL TRADE COMMISSION                             600 Pennsylvania Avenue, NW
                                                                  Washington, DC 20580

             General Information Number                           202-326-2222
             Internet Home Page                                   www.ftc.gov
             FTC Spanish Home Page                                www.ftc.gov/espanol
             Strategic Plan Internet Site                         www.ftc.gov/strategicplan
             FTC Press Releases                                   www.ftc.gov/opa/pressold.shtm


             P




             CONSUMER RESpONSE CENTER
             General Complaints                            877-FTC-HELP (877-382-4357)
             Identity Theft Complaints                     877-ID-THEFT (877-438-4338)
             Online General Complaints                     www.ftc.gov/complaint
             Identity Theft Education                      www.ftc.gov/idtheft
             and Complaints
             National Do Not Call Registry                 www.donotcall.gov



    162                        Federal Trade Commission | Performance and Accountability Report
                                                                                                           appendices
ACkNOwLEDGEMENTS
The FTC gratefully acknowledges the following indiduals who made a significant contribution in
producing this report: Joni Lupovitz of the Office of the Chairman; James Baker, Benjamin Besse,
William Black, Chloe Collins, Steven Fisher, Ted Franklin, Antonio Gomez, Valerie Green, James Hale,
Eileen Harrington, Karen Leydon, Nancy Lux, Mary Kate Markano, Kimberly Mayo, Jeff Nakrin,
Mark Oemler, Mary Beth Richards, Randall Salzer, Jon Schroeder, Lori Walsh-Van Wey, and Milissa
Young-Loiselle of the Office of the Executive Director; Don Clark and April Tabor of the Office of
the Secretary; Jeanine Balbach, Brittany Bryant, Nathan Hawthorne and Joseph Remy of the Bureau
of Competition; Gregory Fortsch and Jenny Kellogg of the Bureau of Consumer Protection; Russell
Damtoft and Lauren Skerrett of the Office of International Affairs; and Christopher Grengs of the
Office of Policy Planning for contributing to the development of this report. Editorial and design work
supported by LMI and Fathom Creative.




                                                  fiscal year   2012                                      163
appendices




              The work of the

      federal trade
      commission
       is critical to protecting and strengthening

       free & open markets
       and promoting informed
       consumer choice,
       both in the united states
       and around the world
                   www.ftc.gov

                    /federaltradecommission

                    @FTC

                    ftc.gov




    164                       Federal Trade Commission | Performance and Accountability Report
